<html>
<title> - DEEP SEA CHALLENGE: INNOVATIVE PARTNERSHIPS IN OCEAN OBSERVATION</title>
<body><pre>[Senate Hearing 113-268]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 113-268

 
    DEEP SEA CHALLENGE: INNOVATIVE PARTNERSHIPS IN OCEAN OBSERVATION

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON OCEANS, ATMOSPHERE, 
                       FISHERIES, AND COAST GUARD

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 11, 2013

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
87-852                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1671667956756365627e737a663875797b38">[email&#160;protected]</a>  


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
CLAIRE McCASKILL, Missouri           KELLY AYOTTE, New Hampshire
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK WARNER, Virginia                DAN COATS, Indiana
MARK BEGICH, Alaska                  TIM SCOTT, South Carolina
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
BRIAN SCHATZ, Hawaii                 DEB FISCHER, Nebraska
WILLIAM COWAN, Massachusetts         RON JOHNSON, Wisconsin
                                     JEFF CHIESA, New Jersey
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                                 ------                                

            SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, 
                            AND COAST GUARD

MARK BEGICH, Alaska, Chairman        MARCO RUBIO, Florida, Ranking 
BILL NELSON, Florida                     Member
MARIA CANTWELL, Washington           ROGER F. WICKER, Mississippi
RICHARD BLUMENTHAL, Connecticut      KELLY AYOTTE, New Hampshire
BRIAN SCHATZ, Hawaii                 DAN COATS, Indiana
WILLIAM COWAN, Massachusetts         TIM SCOTT, South Carolina
                                     TED CRUZ, Texas


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 11, 2013....................................     1
Statement of Senator Begich......................................     1
Statement of Senator Wicker......................................     3
Statement of Senator Cantwell....................................     8

                               Witnesses

James Cameron, Explorer and Filmmaker............................     4
    Prepared statement...........................................     6
Dr. Susan K. Avery, President and Director, Woods Hole 
  Oceanographic Institution......................................     9
    Prepared statement...........................................    11
Captain Edward Page, Board Chair, Alaska Ocean Observing System 
  and Executive Director, Marine Exchange of Alaska..............    19
    Prepared statement...........................................    21
Jan Newton, Ph.D., Executive Director, Northwest Association of 
  Networked Ocean Observing Systems; Principal Oceanographer, 
  University of Washington Applied Physics Laboratory; and 
  Affiliate Assistant Professor, University of Washington School 
  of Oceanography................................................    23
    Prepared statement...........................................    26

                                Appendix

Hon. John Thune, U.S. Senator from South Dakota, prepared 
  statement......................................................    41
Dr. Michael Heithaus, Associate Dean, College of Arts and 
  Sciences, Florida International University, Aquarious Reef Base 
  and Partnerships in Ocean Observations, prepared statement.....    41
Written Testimony from Julie Thomas, President, The IOOS 
  Association....................................................    44
Letter dated June 18, 2013 from Jean Walat, Program Director, 
  Port Townsend Marine Science Center............................    47
Letter dated June 18, 2013 from Martha Kongsgaard, Leadership 
  Council Chair, Puget Sound Partnership to Hon. Mark Begich and 
  Hon. Marco Rubio...............................................    48
Response to written questions submitted by Hon. Amy Klobuchar to:
    Dr. Susan K. Avery...........................................    49
    James Cameron................................................    50
Response to written questions submitted by Hon. John Thune to:
    James Cameron................................................    51
    Dr. Susan K. Avery...........................................    55
    Jan Newton, Ph.D. and Edward Page............................    59


    DEEP SEA CHALLENGE: INNOVATIVE PARTNERSHIPS IN OCEAN OBSERVATION

                              ----------                              


                         TUESDAY, JUNE 11, 2013

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 3 p.m. in room 
SR-253, Russell Senate Office Building, Hon. Mark Begich, 
presiding.

            OPENING STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you all for being here this 
afternoon. Appreciate it.
    This hearing will come to order. This is the Oceans 
Subcommittee hearing on ``Deep Sea Challenge: Innovative 
Partnerships in Ocean Observation.'' So, again, thank you all 
very much for being here.
    I will make a few opening comments, I will turn to Senator 
Wicker, and then we will start with the panel. But, again, we 
really appreciate you taking the time.
    I was joking just a minute ago that it was like, when I 
walked in, I saw the big line out there, I am glad I bought my 
advance movie ticket to be here today.
    [Laughter.]
    Senator Begich. Otherwise, I am not sure I would have got 
in. But I am glad I am here.
    Again, I want to thank the witnesses for being here, 
especially James Cameron.
    Film director James Cameron is most widely known for taking 
audiences truly out of this world in blockbuster hits like 
``Aliens'' and ``Avatar,'' but it is his nonfiction endeavors 
here on Earth that may be actually most alien to us. Last year, 
in a partnership with the National Geographic Society and 
Rolex, Mr. Cameron undertook the most difficult ocean dive 
possible, descending to the Challenger Deep in the Pacific 
Ocean's Mariana Trench.
    The Challenger Deep is the deepest known part of the 
Earth's oceans, more than 6.8 miles underwater. Mr. Cameron is 
the first person to have undertaken the dive alone and is one 
of the only three humans to ever reach that depth. By contrast, 
more than 500 people have traveled into outer space.
    It is astounding that, in many ways, we know more about the 
final frontier than about our own oceans. Ninety percent of the 
ocean floor remains uncharted, and recent estimates suggest 
that we have only identified 20 to 25 percent of the marine 
life in existence.
    To further understanding of our oceans, Mr. Cameron 
recently donated the submersible system and science platform 
used in the dive, the DEEPSEA CHALLENGER, to the Woods Hole 
Oceanographic Institution.
    Woods Hole, which I have been to more than once, is an 
incredible facility. The President and Director, Susan Avery, 
is here today, as well, and I look forward to hearing about the 
institute's plan to use the DEEPSEA CHALLENGER to support ocean 
science.
    But we cannot rely solely on the graciousness of 
individuals to advance science. And the need for greater ocean 
research and monitoring has never been clearer. Whether it is 
ocean acidification, sea level rise, warming water 
temperatures, or shifting fish populations, our oceans are 
changing.
    This is something felt most acutely in the Arctic and in my 
state of Alaska, where the average temperature rises are rising 
twice as fast than anywhere else and the sea ice is thawing at 
unprecedented rates.
    If we are to prepare for these changes, we have to better 
our understanding of the oceans. In 2009, Congress enacted 
several pieces of legislation aimed at improving our oceans 
research and observing capabilities.
    The Integrated Coastal and Ocean Observation System Act 
provided for the development of an integrated system of coastal 
and ocean observations for the Nation's coasts, oceans, and 
Great Lakes. Development of the Integrated Ocean Observing 
System is ongoing but is already providing for better access to 
the ocean data that is critical to respond to the coastal 
events and changes to our oceans.
    There is also the Federal Ocean Acidification Research and 
Monitoring Act, championed by the late Senator Lautenberg, 
which established a coordinated process for effectively 
monitoring ocean acidification and its effects on marine 
organizations and ecosystems.
    Both Acts will be due for reauthorization at the end of the 
year. And I look forward to hearing from the witnesses, Dr. Jan 
Newton of the University of Washington and Ed Page from Alaska 
Ocean Observing System. They represent regional partners on how 
we can improve the ocean science and research coordination 
through changes in both these bills.
    Addressing the particular needs of the Arctic science is 
also a top priority of mine, and I hope to hear from some of 
the witnesses on how we can tackle the region's unique 
challenges.
    My bill, the Arctic Research, Monitoring, and Observing 
Act, is pending before this committee. It would support 
hydrographic surveys, mapping sensitive habitats, collecting 
weather data, expand ocean observational data, and other 
activities needed to support increased activity and changing 
conditions in the Arctic.
    We also need to find innovative ways to develop ocean 
research outside the Federal Government. Given the Nation's 
current constraints on the budget, we should look for how we 
can better foster partnerships with the academic institutions 
as well as private entities for advancing ocean research.
    There is a lot to cover in this hearing, but I really do 
appreciate the witnesses' being here.
    Let me first turn to Senator Wicker for his opening 
statement. I know he has a tight schedule and will be unable to 
stay the whole meeting, so we just appreciate that he is here 
at the beginning.
    Senator Wicker?

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Thank you, Senator Begich, for scheduling 
this hearing on the importance of partnerships in ocean 
observation.
    And, Mr. Chairman, I want to thank you personally for 
holding this hearing today in 3-D. It means a lot.
    [Laughter.]
    Senator Wicker. I hope today's discussion facilitates a 
constructive dialogue among ocean explorers, scientists, and 
policymakers about the future of ocean observation 
infrastructure, research, and education.
    The ocean covers 71 percent of the Earth and contains more 
than 97 percent of the world's water, and yet only a small 
fraction of this vast and integral resource has been explored. 
High rates of mandatory spending often limit the ability of the 
Federal Government to invest in discretionary funding such as 
ocean research.
    So one way to optimize Federal investment in ocean 
exploration and research is through the expansion and 
leveraging of public and private partnerships. These 
partnerships allow for privately funded groups to work with the 
government and with academic partners to advance research and 
development.
    The United States is home to many of the world's best ocean 
scientists and explorers, and it is important for them to 
remain in the forefront of research and development. As a 
member of the Senate Oceans Caucus and as a senator from the 
coastal state of Mississippi, I recognize the importance of 
understanding and exploring our oceans.
    I am proud to say that my home state is actively involved 
in ocean research. The National Institute for Undersea Science 
and Technology, which was created as a partnership between the 
University of Southern Mississippi and NOAA, aims to discover 
and apply new technologies toward our understanding of the 
oceans. Its work includes the development of new 
biotechnologies and undersea vehicles.
    I want to thank our witnesses for testifying today. I have 
had a chance already earlier to speak to Mr. Cameron and Dr. 
Avery. I look forward to hearing their views and the views of 
the other distinguished panelists on advancing ocean science.
    And thank you again, Mr. Chairman, for holding the hearing.
    Senator Begich. Thank you very much, Senator Wicker.
    And what we will do is we will start with Mr. Cameron, and 
then we will kind of go down, Dr. Avery and so forth down, if 
that is OK.
    And really do appreciate your time, all of you, for coming 
to Washington and being able to share with us your views on 
what more we can be doing and, in some cases, what we maybe 
should not be doing.
    So we will open it up, and we will start with Mr. Cameron.

                  STATEMENT OF JAMES CAMERON, 
                     EXPLORER AND FILMMAKER

    Mr. Cameron. Thank you. Good afternoon, Chairman Begich and 
Senator Wicker. Thank you for allowing me to speak here.
    This week, we brought to the Nation's capital a unique 
symbol, one that demonstrates the power of curiosity and 
imagination to surmount technical hurdles and explore the 
unknown. The DEEPSEA CHALLENGER is the only human-occupied 
vehicle that is currently able to access the deepest parts of 
the ocean.
    On March 26, 2012, I dove it to the bottom of the 
Challenger Deep in the Mariana Trench and reached a depth of 
35,787 feet and explored the bottom for 3 hours. This set the 
record for the world's deepest solo dive. In the weeks prior to 
that, we used the sub to explore the New Britain Trench at 
depths down to 5 miles, a previously completely unexplored 
ocean trench system. And in both trenches, we found new life 
forms unknown to science.
    The DEEPSEA CHALLENGER is now the deepest-diving 
operational man-submersible in the world, exceeding the depth 
limit of the next deepest vehicle, the Chinese Jiaolong 
submersible, by 9,000 feet.
    Now, the ocean's trenches have a combined area larger than 
North America, and they are the last frontier of exploration 
here on planet Earth. I think of it as a dark continent still 
unexplored because of the technical difficulty of building 
machines to operate at the crushing pressure of those depths.
    To withstand the pressure of 16,300 pounds per square inch 
at the bottom of the Challenger Deep, my team needed to develop 
new materials and an array of technologies that didn't 
previously exist, including HD stereoscopic cameras, high-
intensity lights, thrusters, batteries, and electronics. No 
commercially available products or systems were available that 
could withstand that pressure.
    Why should we care what is happening in these deep 
trenches? Well, one reason is that the trenches are formed by 
subduction, in which one plate of the Earth's crust is dragged 
by tectonics underneath another, pulling it down, which is what 
creates the extreme depth. And this releases tremendous energy 
in the form of earthquakes, often generating the kinds of 
tsunamis that devastated Indonesia and Japan in recent years, 
killing hundreds of thousands of people and wrecking national 
economies.
    We need to put instrumentation down on the sea floor to 
understand these forces and hopefully someday save lives 
through predictive modeling. And that requires machines that 
can operate at that depth.
    DEEPSEA CHALLENGER was designed and built by a small, 
privately funded team of young engineers, almost all of whom 
had never worked on a sub before, and this allowed out-of-the-
box thinking and unbridled innovation. The sub was designed as 
a science platform, not as a stunt vehicle to set records. It 
can explore horizontally for miles over the sea floor, 
collecting samples with a robotic manipulator arm, recording 
data with a number of instruments, and gathering high-
definition 3-D video with multiple cameras.
    Preliminary science results from our expedition were 
presented by our joint team of researchers at the December 
gathering of the American Geophysical Union. These results 
included the discovery of 68 new species, including the deepest 
examples of gigantism in amphipods, as well as images of the 
deepest bacterial mats ever discovered, which may be a glimpse 
into how and where life originally emerged on the Earth.
    I have chosen to donate the sub and its attendant 
technology IP to Woods Hole Oceanographic Institution, our 
nation's premier center for ocean science and technology. They 
will publish the new tech embodied in the sub, making it 
available to the entire research community, and the technology 
will be adapted to new vehicle platforms in the future, which 
will include AUVs and ROVs.
    We are at a critical time in oceanographic research. The 
ocean is an engine that drives weather, including the higher 
precipitation and extreme weather events like Superstorm Sandy, 
the severe droughts, and so on that are associated with climate 
change.
    To understand weather and climate, we must understand the 
oceans. And to do so, we can't just sense them from satellites. 
They are a vast, three-dimensional volume that is opaque from 
above. We need instruments and vehicles down there in the water 
column.
    However, as we all know, Federal ocean science funding is 
stretching thin as budgets come under pressure. Though a 
private institution, Woods Hole Oceanographic is dependant for 
the majority of its funding on grants from NSF and NOAA and 
other Federal agencies.
    We need to invest more in ocean research, not less, at this 
critical moment in history when the ocean is rapidly changing 
due to human impacts. Oceans are a major part of our life 
support system here on Earth, even as our industrial society is 
degrading and transforming them.
    We need to understand how greenhouse heat is absorbed into 
the ocean, how it is mixed by currents deep in the water 
column, where the carbon is going, and how these changes affect 
the hydrological cycle that provides rainfall to farms but also 
devastating floods, such as those that are currently ravaging 
Germany.
    Extreme weather events that used to happen every 100 years 
are now happening every 5 years. The cost to the Nation will be 
in the hundreds of billions. We need to understand all this.
    Woods Hole's expertise in ocean science is the reason I 
have agreed to join its new Center for Marine Robotics, which 
aims to spur collaborations across government, industry, and 
academia to advance ocean science and exploration through the 
development of new marine robotic vehicles and technologies.
    Over the past 10 days, the DEEPSEA CHALLENGER made its 
cross-country trek from Los Angeles to Washington on its way to 
its new home at Woods Hole Oceanographic Institution on Cape 
Cod. Along the way, the sub stopped to give young people a 
chance to see and touch the sub and, more importantly, to 
imagine themselves exploring the unknown, inspiring them, as I 
was inspired as a kid by the space and ocean exploration of the 
1960s.
    We have to inspire children to want careers in science, 
technology, engineering, and math. STEM education is critical 
to our future. Our planet is a big, complex system, and the 
ocean is the most poorly understood part of it. That system is 
under stress, and we need to improve our sensing and monitoring 
of it for our own national security and economic strength. For 
that understanding, we need a new generation of scientists, 
engineers, and explorers to carry the investigation forward.
    So many people think we live in a post-exploration age, 
that is has all been seen and mapped. We brought the DEEPSEA 
CHALLENGER to the Nation's capital to remind people of the 
frontiers of exploration right here on Earth and to signal the 
need for continued investment in ocean science and technology.
    We live in a new age of exploration. We also live in an age 
in which the impacts of human industrial civilization on the 
natural world are becoming dire. Future policy regarding 
climate, pollution, and depletion and their impacts on human 
life and biodiversity must be informed by scientific fact. 
Institutions such as Woods Hole Oceanographic are our only 
pathways to a clearer understanding of the changes we see 
happening around us every day.
    Now, I will personally continue to support ocean science, 
not because I need to as some sort of clever business model, 
but because I believe in my heart that it is important, maybe 
even crucial, to our way of life and the health of our world. I 
urge you to continue the nation's investment in ocean science, 
technology, and education. I believe the return on this 
investment will provide benefits that are critical to future 
generations.
    Thank you.
    [The prepared statement of Mr. Cameron follows:]

      Prepared Statement of James Cameron, Explorer and Filmmaker

    Good afternoon Chairman Begich and Members of the Committee. My 
name is James Cameron, and I am an explorer and director. Thank you for 
the opportunity to testify today about innovative partnerships in ocean 
observing and exploration.
    This week we brought to the Nation's Capitol a unique symbol--one 
that demonstrates the power of curiosity and imagination to surmount 
fantastic technological hurdles and explore the unknown. The DEEPSEA 
CHALLENGER is the only human-occupied vehicle currently able to access 
the deepest parts of the ocean. In 2012, I used it to explore the famed 
Challenger Deep, in the Mariana Trench, as well as exploring the 
previously unseen New Britain Trench. Far from being out of its element 
on Capitol Hill, it serves as a stark reminder of a task that has 
barely begun: the exploration of the deep ocean.
    A dozen people have stood on the moon. Only three have made the 
seven-mile descent to Challenger Deep. In fact, the vast majority of 
the world's ocean trenches, comprising an area larger than North 
America, remains virtually unknown to us.
    Why? Because they lie beneath five to seven miles of water. The 
deep ocean is a lightless, high-pressure region that, from a 
technological standpoint, is exceedingly challenging to see through, to 
get to, and to operate in.
    Because we routinely travel four miles beneath the surface, the 
depth other exploration vehicles are capable of reaching, people think 
the extra three miles is not a significant challenge be a big problem. 
But everything changes in attempting to reach hadal depths below 6,000 
meters (20,000 feet), the deepest places in the ocean. At those depths, 
from an engineering perspective, the performance-benefit ratio changes 
in terms of flotation, pressure vessels, wall thickness, and other 
components. Vehicles become very heavy and unmanageable. That not only 
drives up the cost of hadal-depth vehicles themselves, it drives up the 
cost of the ships used to launch and recover them, multiplying the at-
sea operational costs that have historically been prohibitive factors 
to exploration. There are also limits in materials science that require 
the creation of entirely new materials in order to build vehicles that 
have the same agility and cost factors as those operating higher in the 
water column. One goal of the DEEPSEA CHALLENGE Project was to 
demonstrate a spectrum of new technologies in a relatively small manned 
vehicle for full-ocean-depth science diving and at reasonable cost.
    These challenges are largely responsible for the fact that hadal 
depths are still relatively unexplored and why so little is known about 
the biology and geology in hadal depths. Yet it is known that these 
regions are geologically dynamic. In ocean trenches, where one tectonic 
plate is subducting beneath another, causing a great deal of stress, 
friction, and fracturing that result in earthquakes and submarine 
landslides, which, in turn, are sources of the kinds of tsunamis that 
devastated Indonesia just a few years ago, and recently dealt such a 
horrific blow to the people and economy of Japan.
    There is also intriguing evidence of a diversity of unusual and 
unknown life forms. These life forms have unusual biochemical and 
physiological adaptations to the exotic chemistry and extreme pressure 
in hadal regions.
    I was born in 1954 and grew up during an era of exploration. In the 
1960s, the Apollo program was sending men to the moon. In 1964, the 
deep-sea sub Alvin, operated by Woods Hole Oceanographic Institution, 
began bringing humans to the deep sea. These exploratory pursuits 
inspired me at an impressionable age resulting in my later pursuit of 
deep ocean exploration in parallel to my filmmaking work.
    I assembled a team of engineers to build DEEPSEA CHALLENGER--to 
push exploration into the deep sea, further and faster. A small, 
private, international team of young engineers developed a vehicle that 
was pioneering in several ways. It was able to dive to the deepest 
place in the world's oceans, a feat that had only been accomplished 
once before, by the historic dive of the Trieste bathyscaphe under U.S. 
Navy authority in 1960. However the DEEPSEA CHALLENGER weighs less than 
one-tenth of Trieste, and can be deployed like a contemporary science 
submersible from the deck of a mid-sized research vessel, as opposed to 
being towed to the site. In addition, the new sub is able to explore 
horizontally for miles over the seafloor, collecting samples with a 
robotic manipulator arm, recording data with a number of instruments, 
and gathering high definition stereoscopic video with multiple cameras. 
Preliminary science results of our 2012 expedition were presented by a 
joint team of researchers at the December gathering of the American 
Geophysical Union. These results included the discovery of at least 68 
new species such as the deepest examples of gigantism in amphipods, as 
well as images of the deepest bacterial mats ever discovered, which may 
lead to an understanding of the origin of life on Earth.
    However, despite being a small, international, privately funded 
group, I want to emphasize that our team built on a monumental 
foundation of prior ocean research and exploration funded by Congress 
and a range of government agencies.
    It should also be noted that DEEPSEA CHALLENGER was built by a 
joint American/Australian team, with approximately one-third of the 
work done in the U.S., by engineering companies in the Bay Area, and 
two-thirds of the work done by a start-up company in Sydney. The 
Australian government provides generous rebates to encourage research 
and development, and this was a strong driver in my choice to site the 
project primarily in Australia. I would strongly urge Congress to 
establish new incentives, as well as enhancing existing ones, to 
encourage R&D among small companies in the U.S., thus maintaining this 
Nation's critical lead in engineering and science.
    Now, the scientists and engineers at Woods Hole Oceanographic 
Institution and ocean research centers across the Nation are poised to 
take the technologies developed for DEEPSEA CHALLENGER submersible and 
science platform to the next level, so that the knowledge gained in 
this project can help advance ocean science.
    This public/private collaboration is one of many that signal a new 
path to supporting the R&D and education initiatives that are critical 
to the future of the U.S. and global economies. I believe that advances 
in ocean science and technology must be at the forefront of this 
effort, given the growing recognition of the importance of ocean 
processes and their influence on weather and climate and economic and 
national security. Woods Hole's expertise in this area is part of the 
reason I have agreed to join one of its new initiatives, the Center for 
Marine Robotics, which aims to spur collaborations across government, 
industry, and academia to advance ocean science and exploration through 
the development and integration of new marine robotic vehicles and 
technologies. Despite our best efforts, the ocean remains aqua 
incognita to us--much the way the ground we're sitting on now was once 
considered terra incognita by early explorers. There's much more we 
need to know about how the ocean operates. We haven't invested nearly 
enough in ocean research. And I think it's gong to come back to bite us 
at this moment in history when we know that the ocean is rapidly 
changing.
    The only way we can learn about this vast and crucial part of our 
planet is to submerge ourselves in it, using both human and remote 
automated technology, which requires adequate funding, given the 
difficulties of operating in the ocean, from the surface to the 
trenches.
    During the past 10 days, DEEPSEA CHALLENGER made a cross-country 
trek from Los Angeles to Washington on its way to its eventual home at 
Woods Hole Oceanographic Institution on Cape Cod. Along the way, the 
sub stopped to give young people a chance to see and touch the sub and, 
more importantly, to imagine themselves exploring the unknown--
inspiring them, as I was inspired.
    We need exemplars like this for young people to see that not only 
is there much we haven't explored right here on our home planet, but 
also that there is much we need to know about how our natural world 
functions. Our planet is a big, complex, intricate system, and the 
ocean is the most poorly understood part of it. That system is under 
stress, and we need to improve our understanding of how it works so 
that we can help preserve our home.
    As the next generation of scientists, engineers, teachers, business 
owners, and political leaders, their enthusiasm for exploration, for 
taking risks, for solving problems, and pursuing knowledge is vital to 
our continued international leadership, national security and economic 
growth. To that end, the STEM programs are essential to give students 
at impressionable ages the inspiration and skills to learn how nature 
and technology works. Continued Federal investment in education at all 
levels must remain a high priority.
    So many people think we live in a post-exploration age--that it's 
all been seen, and all been mapped. We brought the sub to the Nation's 
Capitol to help dispel this myth, to communicate the need for greater 
investment in ocean science and the technologies that make it possible. 
DEEPSEA CHALLENGER proves that remote parts of the ocean are within our 
reach. We live in a new Age of Exploration. We also live in an age in 
which the impacts of human industrial civilization on the natural world 
are becoming more dire. All future policy regarding the prevention of 
dangerous changes to our climate and its impacts to human life and 
biodiversity must be informed by scientific fact. That science must 
include an understanding of the oceans and their role in the transfer 
of heat, in the hydrological cycle, the carbon cycle, and in extreme 
weather events.
    I will continue to support ocean R&D and build on the growing 
number of public, private and philanthropic partnerships, and I 
encourage Congress to capitalize on this opportunity by expanding its 
investment in ocean science, technology and education. I believe the 
return on this investment will provide benefits far beyond anyone's 
expectations.
    Thank you again for this opportunity to address the Committee.

    Senator Begich. Thank you very much.
    Dr. Avery, before I go to you, I wanted to see if Senator 
Cantwell had any opening comments before we continue with the 
panel.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. I just wanted to welcome Dr. Newton for 
being here, obviously a regional expert from the University of 
Washington. And I look forward to her testimony.
    Senator Begich. Fantastic. Thank you.
    I want you to know, Mr. Cameron, while you were speaking of 
the donation, I saw Dr. Avery, she had the biggest grin on her 
face.
    [Laughter.]
    Senator Begich. It is like a new toy. You have no idea. I 
mean, you have been to Woods Hole, you have seen----
    Mr. Cameron. Yes.
    Senator Begich.--the quarters they work in are sometimes a 
little cramped. But their enthusiasm is unbelievable, and I was 
feeling it as you were talking.
    [Laughter.]
    Senator Begich. Because I think she is ready to, like, go 
outside now and start using it. I sense that.
    [Laughter.]
    Mr. Cameron. She is going to be in it sooner or later, sir.
    Senator Begich. I have this feeling, as well.
    Dr. Avery, President and Director of Woods Hole 
Oceanographic Institution, thank you very much for being here. 
Let me turn to you for your opening.

          STATEMENT OF DR. SUSAN K. AVERY, PRESIDENT 
       AND DIRECTOR, WOODS HOLE OCEANOGRAPHIC INSTITUTION

    Ms. Avery. Thank you. Thank you, Chairman Begich and 
Senator Cantwell. Thank you for having this opportunity to 
testify in support of the Nation's community of ocean 
scientists and research institutions.
    I would like to recognize Jim Cameron for his commitment to 
helping advance ocean science exploration and education and his 
willingness to share his team's work on the DEEPSEA CHALLENGER 
with the science community, which Woods Hole Oceanographic 
Institution will facilitate.
    Jim is a visionary who looks beyond what we currently are 
able to see. This is a particularly relevant skill since 
looking beyond the ocean surface has always been a huge 
challenge. For that reason, most people's perspectives are 
somewhat landlocked.
    Yet the ocean is Earth's most fundamental and life-
sustaining feature. It touches us every day wherever we live. 
The ocean is the major transportation route for global trade 
and a significant source of food and a major source of jobs. 
The ocean is also our planetary reservoir and water pump. It 
circulates heat and water around the globe to regulate climate 
and weather.
    There is strong evidence that the ocean has been changing. 
As the planet continues to warm, more heat means more water 
vapor and more energy going into the atmosphere. That means 
more extreme weather and more rainfall and flooding in some 
areas, less rainfall and droughts in others. With rising sea 
levels, it means higher probabilities of more devastating storm 
surges, like we saw with Hurricanes Katrina and Sandy.
    Like any frontier, the ocean also holds untapped potential, 
including new sources of energy, minerals, and medicines. In 
addition to the deep ocean, there are other frontiers in the 
ocean. We have barely gained access to explore the ocean 
beneath our polar icecaps, at a time when the sea ice is 
rapidly disappearing. This has profound implications for 
Earth's climate, ocean ecosystems, and for access to new 
shipping routes and natural resources.
    There are reasons why Russia planted its flag at the bottom 
of the Arctic Ocean in 2007 and why China has ramped up its 
investments in deep ocean exploration.
    There is also the microbial frontier. There are about 
300,000 times more microbes in the ocean than there are 
observable stars in the universe. They have evolved all sorts 
of chemical pathways to live in extreme environments. Ocean 
scientists have just begun to explore this universe of marine 
microbes for unknown biochemical pathways and compounds, for 
new antibiotics, and for novel treatments for diseases, such as 
Alzheimer's and cystic fibrosis. These microbes also hold the 
key to the healthy functioning of the ocean ecosystem, much as 
our own microbiome in our body is critical to human health.
    Then there is the frontier of climate. For atmosphere and 
ocean, they are both fluids and they are both fluid dynamical 
systems. The atmosphere works over days, weeks, and months. The 
ocean is more lumbering but larger, a flywheel that works over 
months, years, and decades.
    The two systems, the atmosphere and the ocean, are 
interwoven and inseparable. But while we have long established 
extensive networks of meteorological instruments continually 
monitoring our atmosphere, we have just begun to establish a 
toehold of long-term observatories to understand and monitor 
how the ocean operates.
    Toward that end, I urge this committee to support the 
following:
    First, the reauthorization of the Integrated Coastal and 
Ocean Observation System Act. This legislation provides the 
foundation for a national ocean observing system, one that 
enhances those provided by states and other nongovernmental, 
academic, and private entities. Such a network will give us the 
ability to understand ocean processes and provide knowledge and 
forecasts for fisheries, coastal residents, and shipping.
    Second, reauthorize America COMPETES legislation to bolster 
innovation, research and development, and STEM initiatives. 
This will ensure our country has a ready supply of young people 
with the inspiration to push the boundaries of knowledge and 
gain the skills that our businesses require in their employees.
    And, third, support the National Science Foundation, Navy's 
Office of Naval Research, NOAA, NASA, and NIST, whose science 
and technology programs are essential to pursuing new lines of 
inquiry that can lead to new technologies, industries, jobs, 
and ways to solve societal problems. We have to be brave enough 
and smart enough to look beyond the next Fiscal Year and invest 
in what we can't already see.
    I conclude my remarks by highlighting the value of 
partnerships to the future of R&D in this country. Jim 
Cameron's partnerships with Woods Hole Oceanographic 
Institution and also with Scripps Institution of Oceanography 
are welcome examples of how public and private funding can 
leverage each other. But I must emphasize that they are 
partnerships. One doesn't replace the other. Neither adequately 
does the job alone, and each augments and leverages the other.
    In an almost poetic statement, the National Science 
Foundation annual report from 1952 says, ``That which has never 
been known cannot be foretold. And herein lies the great 
promise of basic research. It enlarges the realm of the 
possible.''
    It takes all of us together--private citizens and 
foundations, academic scientists, industry, and government--to 
explore the unknown and enlarge the realm of the possible.
    I look forward to your questions. Thank you.
    [The prepared statement of Ms. Avery follows:]

   Prepared Statement of Dr. Susan K. Avery, President and Director, 
                  Woods Hole Oceanographic Institution

    Good afternoon Chairman Begich and Members of the Committee. My 
name is Dr. Susan K. Avery, and I am President and Director of the 
Woods Hole Oceanographic Institution in Woods Hole, Massachusetts. 
Thank you for the opportunity to testify today on behalf of our 
nation's community of ocean scientists and research institutions. I'd 
like to recognize Jim Cameron for his commitment to helping advance 
ocean science, exploration, and education, and his willingness to 
sharing his team's work on the DEEPSEA CHALLENGER with the science 
community, which Woods Hole Oceanographic Institution will facilitate.

Importance of the Ocean
    The ocean is the dominant feature on Earth. Removing all that water 
away reveals some surprising things about our planet: There are 
mountain ranges longer than anything on land, mountains higher than 
Everest, and canyons deeper and grander than the Grand Canyon. And it's 
all covered by a relatively thin skin of water. Despite this, the ocean 
most people see is the surface. A sunset over a healthy ocean looks 
just like one over a sick ocean. It is what happens underneath the 
surface that is critical to humanity.
    The importance of the ocean in daily life, whether you live on the 
East Coast, the Great Plains, or the Mountain West, cannot be 
oversimplified or understated. In short, it is one of the most 
fundamental reasons why our planet is capable of supporting life and 
why we are able to sustain the economy and way of life that are among 
our national hallmarks. Our fate has always rested in one way or 
another with the ocean and its interaction with the atmosphere, land, 
and humanity. The ocean plays a critical role in governing Earth's 
climate system helping to regulate global cycles of heat, water, and 
carbon. The rates and regional patterns of land temperature and 
precipitation depend on the ocean's physical and chemical balances. It 
touches us every day, wherever we live through our climate and weather; 
rainfall, floods, droughts, hurricanes, and devastating storm surges 
such as what we witnessed with Hurricane Sandy.
    The services the ocean provides--and that we often take for 
granted--range from endless inspiration and deep-seated cultural 
heritage to the very air we breathe and the rain that waters our crops. 
Roughly half of the oxygen we breathe and about 80 percent of the water 
vapor in our atmosphere comes from ocean processes. The ocean feeds us, 
processes waste, holds vast stores of mineral and petroleum reserves, 
and provides inexpensive transportation of goods and people. Its rich 
biodiversity is a potential source for new medicines and an insurance 
policy for our future. Many of these things it provides the planet 
without our intervention; other things we actively seek and extract--
and we will continue to do so.
    In 2010, maritime economic activities contributed an estimated $258 
billion and 2.8 million jobs to the national economy.\1\ In addition, 
roughly 41 percent of the Nation's GDP, or $6 trillion, including 44 
million jobs and $2.4 trillion in wages, was generated in the marine 
and Great Lake shoreline counties of the U.S. and territories.\2\ The 
key for the future of the ocean and for humanity will be to learn how 
to balance these economic activities with the natural functioning of 
the ocean.
---------------------------------------------------------------------------
    \1\ NOAA Coastal Services Center, NOAA Report on the Ocean and 
Great Lakes Economy of the United States, 2012, http://
www.csc.noaa.gov/digitalcoast/_/pdf/econreport.pdf (accessed February 
2013).
    \2\ NOAA National Ocean Service, Special Projects Division, Spatial 
Trends in Coastal Socioeconomics (STICS), 2013 http://
coastalsocioeconomics.noaa.gov/ (accessed February 2013); and NOAA 
Office of Program Planning and Integration The Ocean and Coastal 
Economy: A Summary of Statistics, 2013 http://tinyurl.com/p55na2q 
(accessed June 2013).
---------------------------------------------------------------------------
    We know that the ocean is taking up more than 80 percent of the 
heat that is generated by rising levels of greenhouse gases in our 
atmosphere.\3\ Excess carbon dioxide mixed into the upper ocean is 
lowering the pH of seawater, making it more acidic and raising the 
potential for large-scale change at the base of the marine food chain 
and in the coral reef ecosystems that are considered the breadbasket of 
the tropical oceans and an important source of biodiversity and income 
for many regions. Excess heat is causing Arctic sea ice to retreat to 
levels never before seen, setting up the likelihood of still further 
melting driven by positive feedback loops, as well as disruptions to 
the Arctic ecosystems that have evolved in an environment partly 
reliant on ice cover for millions of years. Sea level is also rising, 
both as a result of increased melting of terrestrial ice caps and of 
thermal expansion of the seawater, resulting in higher probabilities of 
more frequent and more severe storm surges such as those associated 
with Hurricane Sandy. Our ability to build properly designed and 
appropriately scaled adaptations into cities and societies around the 
world is predicated on our ability to accurately predict how, when, and 
how much the ocean will change in the future.
---------------------------------------------------------------------------
    \3\ Levitus, S., J. Antonov, and T. Boyer, ``Warming of the world 
ocean, 1955-2003,'' Geophys. Res. Lett. 32(2005), L02604, doi:10.1029/
2004GL021592.
---------------------------------------------------------------------------
    For these reasons and many others, our nation must recognize that 
the ocean is changing almost before our eyes. Perhaps the question is, 
not how much can we afford to invest in research on the ocean, but 
rather how can we afford not to?
    Despite its importance, there remain many unanswered questions 
about the ocean. It is far more difficult to observe than the 
atmosphere. Because the ocean is opaque to most forms of 
electromagnetic radiation, satellite observations are limited in the 
type and resolution of information they can gather. We are capable of 
monitoring many surface features, including waves, winds, temperatures, 
salinity, carbon, color (a measure of biological productivity), as well 
as some large-scale sub-surface features. But satellites cannot tell us 
much about the diversity of life in the ocean or the many fine-scale 
dynamic processes at work beneath the surface, nor can they tell us 
much about the internal complex biogeochemistry that supports life. 
Satellites can't show us the bottom of the ocean, where volcanic 
hydrothermal vents sustain rich communities of exotic organisms--which 
might answer questions about the early evolution of life. To learn more 
about these important parts of the ocean system, we must have more and 
better eyes in the ocean and, at the same time, work to surmount the 
huge challenges of working in a cold, corrosive, and physically 
punishing environment.

Frontiers in the Ocean
    Jim Cameron is a visionary who is capable of looking beyond what we 
are currently able to see. Let me tell you about another visionary. In 
the mid-1930s, a physicist from Lehigh University named Maurice Ewing 
sent letters to several oil companies. He asked them to support a 
modest research program to see whether acoustic methods used to probe 
buried geological structures on land could be adapted to investigate 
the completely unknown geology of the seafloor. Ewing later wrote: 
``This proposal received no support whatever. I was told that work out 
in the ocean could not possibly be of interest to the shareholder and 
could not rightfully receive one nickel of the shareholder's money.'' 
\4\
---------------------------------------------------------------------------
    \4\ Lippsett, L., ``At Deepwater Horizon, basic research was 
applied,'' Oceanus 48(2011) http://www.whoi.edu/oceanus/
viewArticle.do?id=116709 (Accessed June 2013).
---------------------------------------------------------------------------
    Ewing did get a $2,000 grant from the Geological Society of 
America, however, and he and his students came to Woods Hole 
Oceanographic Institution to use its new ocean-going research ship, 
Atlantis. The ship and the institution were launched by a $3 million 
grant from the Rockefeller Foundation. The scientists launched novel 
experiments using sound waves to probe the seafloor. To Ewing, the 
ocean was annoyingly in the way. To study the seafloor, he and his 
colleagues had to learn how to negotiate the intervening water medium. 
In the process, they unexpectedly made profound and fundamental 
discoveries about ocean properties and how sound propagates through 
seawater.
    In 1940, on the eve of war, Woods Hole's director, Columbus 
O'Donnell Iselin, wrote a letter to government officials, suggesting 
the ways the institution's personnel and equipment could be better 
utilized for the national defense. Soon after, one of Ewing's students, 
Allyn Vine, began incorporating their newly gained knowledge to build 
instruments called bathythermographs, which measured ocean properties. 
Vine trained naval personnel to use them to escape detection by sonar. 
It was the first among many subsequent applications of this research 
that revolutionized submarine warfare.
    Many scientists pursued the marine geophysics research initiated by 
Ewing. Their work culminated in the late 1960s in the unifying theory 
of plate tectonics. It transformed our understanding of continents, 
ocean basins, earthquakes, volcanoes, tsunamis, and a host of other 
geological phenomena--including significant oil reservoirs beneath the 
seafloor--where oil companies now routinely drill and make money for 
their shareholders.
    Al Vine remained in Woods Hole and spearheaded deep-submergence 
technology, including the research sub Alvin, which was named after 
him. Two years after it was completed, Alvin was applied to a national 
emergency, locating a hydrogen bomb that accidentally dropped into the 
Mediterranean Sea. A decade later, Alvin found seafloor hydrothermal 
vents. To humanity's utter astonishment, the vents were surrounded by 
previously unknown organisms sustained not by photosynthesis but 
chemosynthesis. This discovery completely changed our conceptions of 
where and how life can exist on this planet and elsewhere in the 
universe.
    Thirty-five years later, Alvin was again called into action to help 
assess and monitor the Deepwater Horizon oil spill and its impacts in 
the Gulf of Mexico, but at the same time, the ocean science community 
was able to bring much more to bear in a time of national crisis. The 
community's unparalleled response in the Gulf was enabled by more than 
three decades of technological advancements related to development of 
remotely operated and autonomous underwater vehicles and new sensors 
and data assimilation techniques, and integrated networks of sensors, 
vehicles, and platforms that have opened the ocean to the light of new 
study, many of which were developed through novel partnerships with 
private funders.
    Society has benefitted in the past from public-funded/private-
funded partnerships that advance research and development, probably 
even before Queen Isabella financed Columbus's voyage of discovery in 
1492. But I emphasize: It's a partnership. One doesn't replace the 
other. Each augments the other. In an unexpected bit of poetry, the NSF 
annual report from 1952 says: ``That which has never been known cannot 
be foretold, and herein lies the great promise of basic research. . . . 
[It] enlarges the realm of the possible.'' The bottom line question is: 
How much are we willing to invest in enlarging the realm of the 
possible?
    Jim Cameron did that with DEEPSEA CHALLENGER. He enlarged the realm 
of the possible by demonstrating that even the deepest part of the 
ocean is not beyond our physical presence. Still other advances are 
expanding the possible in many ways through the development and 
deployment of novel sensors, autonomous vehicles, and new ways for 
humans and machines to interact. There is a revolution in marine 
technology underway that is positioning us to reach many unexplored 
frontiers in the ocean--and the ocean has many. The deep ocean is only 
one.
    We have barely gained access to explore the ocean beneath our polar 
ice caps--at a time when rapidly disappearing sea ice has profound 
implications for Earth's climate, for ocean ecosystems, expanded 
shipping, oil and mineral resource development, and national security. 
There is the microbial frontier, where 90 percent of the ocean biomass 
resides and which is invisible to the human eye. There are about 
300,000 times more microbes in the ocean than there are observable 
stars in the universe.\5\ Ocean scientists have just begun to explore 
this universe of marine microbes, which holds the key to healthy 
biological functioning of the ocean ecosystem, much as the microbiome 
in the human body is critical to our health. They are also searching 
for unknown biochemical pathways and compounds, for new antibiotics, 
and for novel treatments for diseases such as Alzheimer's and cystic 
fibrosis.
---------------------------------------------------------------------------
    \5\ Mincer, T., personal communication, June 6, 2013.
---------------------------------------------------------------------------
    Then there is the frontier of temporal and spatial scales that must 
be overcome to monitor and forecast changes to the deep and open ocean. 
The ocean exhibits large, basin-wide patterns of variability that 
change over periods ranging from days and weeks to years, decades, and 
longer. Understanding and observing these patterns, including El Nino-
Southern Oscillation (ENSO), offer potential for improved prediction of 
climate variability in the future. For most of my career, I have been 
an atmospheric scientist. The atmosphere and ocean are both fluids (one 
that is compressible, the other incompressible). These two systems are 
interwoven and inseparable.
    But while we have long-established, extensive networks of 
meteorological instruments continually monitoring our atmosphere, we 
have just begun to establish a relative toehold of long-term 
observatories to understand, and monitor how the ocean operates. To 
truly comprehend Earth's dynamic behavior and to monitor how it affects 
us back on land, scientists must establish a long-term presence in the 
ocean, including platforms and suites of physical, chemical, and 
biological sensors from which to view how the ocean and seafloor change 
in fine resolution over seasons, years, and decades. This same 
observing capability will provide the basis for improved forecasts from 
models that incorporate data and observations from the ocean, 
atmosphere, and land and that provide the basis for decision making by 
national, state, and local agencies.
    Variability such as weather events associated with ENSO has 
significant societal and economic impacts in the U.S., and a 
combination of a dedicated ocean-observing system in the tropical 
Pacific plus models that forecast ENSO impacts is now in place to help 
society adapt in times of increased variability. The promise of 
additional benefits from observing, understanding, and predicting the 
ocean and its impacts is real. Modeled reconstructions by Hoerling and 
Kumar of the 1930s drought in the Central U.S. recently linked that 
event to patterns of anomalies in sea-surface temperature far from the 
U.S.\6\ The global scale of the circulation of the ocean and basin-
scale patterns of ocean variability on decadal and longer time scales 
may present sources of improved predictive skill in future weather and 
climate models.
---------------------------------------------------------------------------
    \6\ Hoerling, M and A. Kumar, ``The perfect ocean for drought,'' 
Science 299(2013):691-694 doi:10.1126/science.1079053.
---------------------------------------------------------------------------
    Moving forward, we need to be even more adaptive and agile, 
applying new technologies in ways that both make crucial observations 
more effectively and make coincident observations of the biology, 
chemistry, and physics of the ocean. At the same time we need at our 
modeling and prediction centers to establish the resources and mindset 
that will support testing and adoption of research results that lead to 
improved predictions.
    We are on the edge of exploration of many ocean frontiers that will 
be using new eyes in the ocean. Public-funded/private-funded investment 
in those eyes is required, but will not be successful without adequate 
and continuing Federal commitment to ocean science. Support such as 
Jim's and the Schmidt Ocean Institute, which was founded by Eric 
Schmidt and operates the research vessel Falkor, help fill gaps in 
support for research and development or for access to the ocean. 
However, the fact remains that Federal funding is by far the leading 
driver of exploration, observation, and technical research and 
development that has a direct impact on the lives of people around the 
world and on U.S. economic growth and leadership. It also remains the 
bellwether by which philanthropic entrepreneurs judge the long-term 
viability of the impact their investment will have on the success that 
U.S. ocean science research will have around the globe.

Recent Model Advances
    Most advancements in global oceanographic and climate modeling in 
the recent past have been incremental, but have proved crucial to our 
greater understanding of Earth's ocean and climate as internally 
complex and interlocking systems. Further work needs to be done to 
provide greater insight into the workings of the ocean, atmosphere, 
land, and human systems individually and as an integrated whole. At its 
core, this requires enhanced observational infrastructure, as well as 
better data assimilation and more robust statistical and dynamic 
models.
    Over the past 30 years, one of the most visible examples of 
breakthrough understanding of ocean processes related to climate and 
weather has been the link between the El Nino-Southern Oscillation 
(ENSO) and extreme weather events around the world, including patterns 
of drought and hurricane frequency in the tropical Atlantic. 
Understanding phenomena such as ENSO helps forecasters better predict 
how Earth's climate will respond to changing conditions in the ocean 
over seasonal to annual time scales. But such oscillatory behavior is 
difficult to forecast under the changing conditions driven by increased 
atmospheric greenhouse gases.
    There are, however, several noteworthy advancements in the recent 
past.
New sea ice projections \7\
---------------------------------------------------------------------------
    \7\ Overland, J.E. and M. Wang, ``When will the summer Arctic be 
ice-free?'' Geophysical Research Letters 40(2013), doi:10.1002/
grl.50316.
---------------------------------------------------------------------------
    Loss of nearly all Arctic sea ice in the summer is now projected to 
occur as early as 2050. An ice-free Arctic will have benefits for 
transportation and natural resource extraction, but these, in turn, 
will likely come at a cost. Territorial claims in the Arctic Ocean 
could lead to tension among regional partners, but also present 
opportunities for new avenues of international cooperation; and 
extractive activities pose risk for accidental oil spills in remote and 
hazardous locations. In addition, the loss of sea ice is a significant 
disruption to the fragile and unique ecosystem of the Arctic Ocean for 
which the implications, in the Arctic or beyond, are difficult to 
predict.
Expanded Sea-surface Temperature Forecasts \8\
---------------------------------------------------------------------------
    \8\ DelSole, T., J. Liwei, and M.K. Tippett, ``Decadal prediction 
of observed and simulated sea surface temperatures'' Geophysical 
Research Letters 40(2013), doi:10.1002/grl.50185.
---------------------------------------------------------------------------
    It now appears possible to extend our ability to forecast some 
variations in sea-surface temperature which could prove to be an 
important tool for improving climate models. Research is focusing on 
patterns of decadal variability in sea surface temperatures. However, 
initialization data is very important to such a model, which means that 
a comprehensive ocean observing system remains essential to 
incorporating this potential advancement into future predictive 
capability.
Improved horizontal resolution and improved model physics \9\
---------------------------------------------------------------------------
    \9\ Polade, S.J., '' Natural climate variability and 
teleconnections to precipitation over the Pacific-North American region 
in CMIP3 and CMIP5 models'' Geophysical Research Letters 40(2013), 
doi:10.1002/grl.50491.
---------------------------------------------------------------------------
    Higher resolution models are better able to incorporate the 
physical, chemical, and biological processes. A new suite of climate 
models known as CMIP5 is being used to prepare the Intergovernmental 
Panel on Climate Change Fifth Assessment Report (IPCC AR5) and, along 
with other developments, is helping provide better estimates of 
precipitation over the continental U.S. under an evolving climate. This 
comes at a time when evidence points to the fact that the water cycle 
is intensifying under global warming \10\ and it is becoming 
increasingly important to understand and predict the accompanying 
intensification of droughts in dry regions and the incidence of floods 
in wet regions. The ocean is the major source of most rainwater and 
must be part of any effort to predict the future water supplies for 
metropolitan, agricultural, and industrial regions of the U.S.
---------------------------------------------------------------------------
    \10\ Durack, P.J., ``Ocean salinities reveal strong global water 
cycle intensification during 1950 to 2000,'' Science 336(2012):455-458 
doi:10.1126/science.1212222.
---------------------------------------------------------------------------
Predicting long-term cycles \11\
---------------------------------------------------------------------------
    \11\ MacDonald, G.M. and R.A. Case, ``Variations in the Pacific 
Decadal Oscillation over the past millennium,'' Geophysical Research 
Letters 32(2005) doi:10.1029/2005GL022478.
---------------------------------------------------------------------------
    Regular changes in sea-surface temperature in the tropical Pacific 
Ocean, such as the El Nino-La Nina cycle, influence precipitation and 
extreme events over a wide swath of the globe. However, many other, 
longer-term modes of ocean-temperature variability such as the Pacific 
Decadal Oscillation (PDO) exist that can impact regional climate and 
weather patterns far afield. Much of our understanding on these climate 
modes is based on the instrumental record of temperature, but this only 
extends back only a couple of centuries. Important new insights on past 
climate variability and extremes is being discovered by analyzing tree 
rings and other paleo-climate proxy records. Recent work also suggests 
the presence of centennial-scale cycles in the Pacific, and researchers 
are currently analyzing coral samples from remote islands of the 
western Pacific for signs long-term variability in ocean temperature 
that might confirm the presence of this and its current phase.\12\
---------------------------------------------------------------------------
    \12\ Karnauskas, K.B., ``A Pacific Centennial Oscillation predicted 
by coupled GSMs'' Journal of Climate 25(2012), doi:10.1175/JCLI-D-11-
00421.1
---------------------------------------------------------------------------
Incorporation of biological processes into modeling and operational 
        forecasts \13\
---------------------------------------------------------------------------
    \13\ Stumpf, R.P., et al., ``Skill assessment for an operational 
algal bloom forecast system,'' Journal of Marine Systems 76(2009):151-
61, doiI: 10.1016/j.jmarsys.2008.05.016
---------------------------------------------------------------------------
    Advancements in predictions of harmful algal blooms (HABs) in the 
Gulf of Maine have reached a point where the research program will soon 
transfer to operational forecasting. Forecasts of HABs are already 
operational in the Gulf of Mexico and Lake Erie. The economic cost of 
HABs to recreation, fishing, public health, and coastal monitoring in 
the U.S. is estimated to be nearly $100 million annually. Forecasts of 
the severity of HABs in recent years have allowed fisheries managers 
and public health officials to take preemptive action that minimizes 
costs associated with beach and shellfish bed closures or the treatment 
of drinking water systems to remove cells and toxins. Recent research 
and modeling also provided evidence that allowed for the 2013 opening 
of clam harvesting on Georges Bank after being closed for 22 years.\14\
---------------------------------------------------------------------------
    \14\ NOAA Fisheries Northeast Regional Office, ``New England 
offshore areas will reopen for Atlantic surfclam and ocean quahog 
fishing,'' December 18, 2012 http://tinyurl.com/nc2og8b (accessed June 
2013).
---------------------------------------------------------------------------
Efforts to improve hurricane intensity prediction \15\
---------------------------------------------------------------------------
    \15\ Owens, B. and S. Jayne, personal communication, June 6, 2013.
---------------------------------------------------------------------------
    Accurate predictions of hurricane intensity prior to landfall are 
significantly hampered by high-resolution observations of upper-ocean 
heat content and mixing immediately upstream of a storm. Data collected 
from NOAA ``Hurricane Hunter'' aircraft using airborne expendable 
bathythermographs (AXBTs), which cost nearly $1,000 per instrument (not 
including aircraft costs), are limited by the one-time nature of the 
probes. Funding obtained through the Hurricane Sandy Relief Bill (HR-
41) will enable advancements in the technology behind the Argo 
profiling floats that resulted in an air-deployable version of the 
autonomous floats. When deployed from the same aircraft, a single float 
should be able to make as many as 150 vertical profiles before, during, 
and after the storm to provide a more complete picture of heat transfer 
from the ocean that fuels a tropical storm like Sandy, at a cost of 
roughly $40 per profile.

Observational Capability to Support Modeling
    The process of expanding our understanding of the ocean system, 
both alone and as it relates to other planetary cycles, is driven by 
our ability observe marine processes near and far from shore, deep 
beneath the surface, over large spatial expanses, and over long periods 
of time. This, in turn, provides much needed data that enables 
comprehensive modeling efforts to forecast natural and human-driven 
changes far into the future and over time frames that support a wide 
range of decision-making at the national, regional, and local levels.
    Growth of our national modeling capability is inherently dependent 
upon continued research and development of new observational 
technologies, including autonomous tools and methods, and enhanced by 
new data-handling and assimilation systems, as well as development of 
new statistical and dynamical modeling capabilities. Four areas of 
increased observational capability are needed:

  1.  Observations that support detailed studies that help capture 
        processes needed to improve models. To incorporate these 
        observations, models will need spatial resolution sufficient to 
        resolve these processes or, alternatively, the observations 
        will help develop parameterizations of these processes to 
        incorporate in models.

  2.  Ongoing broad-scale observations for initialization of modes.

  3.  Long-term, sustained observations that serve as reference 
        stations for model verification and validation, as well as 
        motivation for model improvement.

  4.  International collaboration on sustained observations and access 
        to the sea that capitalize on international assets in order to 
        enhance the collective global observation of the ocean. For 
        example, the access to the polar ocean regions would be better 
        achieved through operational collaboration between the U.S., 
        Australia, Japan, and Norway--all of which are pushing 
        observing capabilities into high latitudes. This requires 
        member states of the Intergovernmental Ocean Commission, to 
        continue to take on responsibilities similar to what is done in 
        the World Meteorological Organization.

IOOS and the ICOOS Act
    The networks and partnerships developed through the Integrated 
Ocean Observing System (IOOS) have connected academics with managers 
and other users of their work allowing co-development of projects and 
products to provide user-driven, science-based solutions to real-world 
problems. The reauthorization of the Integrated Coastal Ocean Observing 
(ICOOS) Act of 2009 is critical to ensuring this continued success.
    IOOS provides core infrastructure for coastal, ocean, and Great 
Lakes research and discovery. Long-term, sustained observing systems 
are critical to understanding natural variability in U.S. waters and 
for rapidly detecting change that can have an impact on terrestrial and 
marine activities. These same observing systems can also be leveraged 
to allow more detailed studies, and novel sensors added to established 
systems, when combined with IOOS observations, are providing critical 
background and new insights on marine processes. Two examples in the 
northeast include the Pioneer Array, which is a part of the NSF-funded 
Ocean Observatories Initiative (OOI), and the NOAA-, NIEHS-, and NSF-
funded Harmful Algal Bloom (HAB) work.
    The location of the Pioneer Array is particularly important in 
understanding the important transports (nutrients, heat, etc.) 
associated with the abundant fisheries over the continental shelf and 
slope regions south of Georges Bank. Although a primary focus is on 
research, the sustained observations over five years together with 
partnerships with the fisheries industry will be mutually beneficial 
and may lead to a much wider investment in operational monitoring in 
this important economic area.
    Coastal IOOS networks deliver key regional-scale information, both 
observations and models that help place local process studies at the 
Pioneer Array site into a regional context. Changes in regional-scale 
circulation and water properties detected by IOOS observing systems 
have proven an essential element to understanding and predicting HAB 
severity each year. In 2014, WHOI scientists will deploy four 
environmental sample processors, novel sensors capable of detecting HAB 
species autonomously at the molecular scale. Never before have four 
sensors been deployed at one time. This effort is part of an IOOS goal 
to accelerate the deployment and integration of new technologies.
    Coastal IOOS also operate regional modeling systems that act as 
incubators for rapid advances in technology and methods. Through IOOS, 
state-of-the-art forecast systems are being developed by researchers in 
partnership with decision makers. Regional-and local-scale models are 
run every day at academic institutions and delivered to a range of 
agency and commercial users, including local Weather Forecast Offices 
of the National Weather Service (NWS). Through IOOS partnerships, near-
street-level inundation forecast systems have been developed with and 
for NWS forecasters and town emergency managers that often push the 
envelope of what is capable of being modeled. At a larger scale, 
similar rapid progress has been made with researchers and managers 
through the IOOS Coastal Ocean Modeling Testbed, which has also focused 
on research into how to disseminate and make accessible model output. 
This efficient management and communication of data is another core 
component of IOOS and OOI that is essential for its effective use by 
researchers.
    For the most part, the ICOOS Act establishes an adequate structure 
for IOOS, but inadequate funding and other issues remain that, if 
solved, will help make the program more effective over the long-term. 
The primary issue of concern with IOOS is the continued low, flat 
funding of the program. The House version of the re-authorization 
limits the funding to appropriated amounts, or $29.6 million. At this 
level, the program will be forced to remove assets from the water and 
will not be able to address the gaps in the coastal observing network. 
In addition, the funding does not address the need to transition 
programs from research to operations, as in the case of the impending 
operationalization of HAB monitoring and forecasting in the Gulf of 
Maine. This decade-long research program made heavy use of the IOOS 
network. In addition, IOOS is an interagency program and many Federal 
agencies benefit from IOOS data and products, but these same agencies 
do not support the infrastructure; currently, NOAA is the only program 
that supports the infrastructure.

Improving Research to Operations (R2O)
    In 2010, the National Research Council's Committee on Assessment of 
Intraseasonal to Interannual (ISI) Climate Prediction and 
Predictability released a final report that addressed specific ways to 
improve the operations and integration of the U.S. research and 
forecasting communities. The committee identified three general areas 
of improvement to advance ISI predictive capability: best practices, 
building blocks of ISI forecast systems, and research for sources of 
predictability.
    The Committee's 11 recommendations are outlined below. More detail 
of each can be found in the Committee's final report.\16\
---------------------------------------------------------------------------
    \16\ National Research Council of the National Academies, 
Assessment of intraseasonal to Interannual Climate Prediction and 
Predictability, Washington, D.C: National Academies Press, 2010.
---------------------------------------------------------------------------
    Suggested improvements to best practices are focused on the 
activities of the operational forecast centers and aim to improve the 
delivery and dissemination of forecast information for both decision-
makers and researchers. Specifically, it is recommended that the 
synergy between operational ISI forecasting centers and the research 
community be enhanced and the public archives of data used by 
operational ISI forecasting centers in forecasts be established. Data 
includes observations, model code, hindcasts, analyses, forecasts, re-
analyses, re-forecasts, verifications, and official forecast outlooks.
    Improvements to the building blocks of ISI forecast systems apply 
to both the operational and research communities and focus on the 
continued development of observations, statistical and dynamical 
models, and data assimilation systems. Recommendations are targeted at 
various improvements in models and model techniques, analysis and 
interpretation of errors, and improved incorporation of physical 
processes.
    Improvements to research for sources of predictability are aimed 
primarily toward the research community and provides a set of longer-
term research priorities based on a set of criteria indicating each has 
an impact on ISI variability and predictability, contains gaps in 
knowledge that prevents them from being exploited by ISI forecast 
systems, and there is potential social value for gaining knowledge of 
each as a source of variability. Key examples of key processes that are 
likely to contribute to improved ISI predictions include the Madden-
Julian Oscillation, ocean-atmosphere coupling, stratosphere-troposphere 
interactions, land-atmosphere feedback, and high impact events 
affecting atmospheric composition.
    Underlying all of these recommendations is the challenge that the 
basic state of the ocean is changing on scales that are faster than our 
development of the understanding of those changes and how they might 
impact the processes that are needed to incorporate in models to 
advance our predictive capabilities and decision-support information.

Conclusions and Recommendations
    I conclude my remarks by highlighting the value of public-funded/
private-funded partnerships to the future of R&D in this country. In 
addition to the above, I believe my recommendations will help U.S. 
ocean science community be more competitive in the international 
research arena for decades; will help advance national priorities in 
the economic, security, and research arenas; and ensure future success 
by bolstering STEM initiatives that keep students involved, interested 
and inspired to push the frontiers of knowledge and exploration beyond 
what we can imagine today.
    Jim Cameron's partnerships with Woods Hole Oceanographic 
Institution and also with Scripps Institution of Oceanography are 
welcome examples of how public and private funding can leverage each 
other. But I must emphasize that this partnership and others like it 
are only one type that helps us all meet these important national 
objectives. At the core must be a significant public commitment by the 
Federal Government supporting exploration, research, and observing 
infrastructure about our planet and the ocean processes that have a 
very real and significant impact on all of us every day.
    Toward that end, I urge this committee to support the following:

  1.  Fully fund NSF budget requests and support ocean science research 
        by Navy/ONR, NOAA, NASA, DOE, and NIST. The leadership these 
        agencies provide through their science and technology programs 
        is essential to pursuing new lines of inquiry that can lead to 
        new technologies, industries, and jobs, as well as novel ways 
        to solve societal problems. Given the current 15-to-20-year 
        time-frame for doubling the NSFs budget, and taking into 
        account inflation, support for the premier U.S. science agency 
        is actually in danger of significantly declining in constant 
        dollars over that same period. Even in the face of very 
        difficult budget constraints and sequestration, continued 
        investment in NSF will provide the unanticipated dividends that 
        have helped our Nation maintain its global economic 
        competitiveness and leadership. Support for the NSF also 
        enhances STEM initiatives, from K-12 through post-graduate, 
        which further ensure U.S. leadership and competitiveness for 
        decades.

  2.  Reauthorize the Integrated Coastal and Ocean Observation Act. 
        This legislation provides the foundation for a national ocean 
        observing system--one that enhances those provided by states 
        and other non-governmental, academic, and private entities--to 
        shed light on the oceans and provide knowledge and forecasts 
        for fisheries, coastal residents, and shipping. Even with the 
        existing and potential advances by IOOS assets, there is 
        currently very limited capacity to understand what is happening 
        below the surface of the ocean temporally or spatially. Broad 
        spatial and temporal observation of the ocean will complement 
        existing Earth-observing capacity that is currently dominated 
        by satellite observation of terrestrial and atmospheric 
        processes. Moreover, we are still learning about physical 
        processes within the ocean that have a direct impact on 
        humanity. This will require additional support for operational 
        ocean observing systems and, support for mission-driven 
        agencies such as NOAA, ONR, NASA, and other Federal agencies.

  3.  Reauthorize America COMPETES legislation to bolster innovation, 
        research and development, and STEM initiatives. Support science 
        (R&D) and education (STEM) funding in general and, increasing 
        understanding of the importance influence of ocean processes on 
        humanity, in particular, will ensure our country has a ready 
        supply of technological capacity and of young people with the 
        drive and inspiration to push the boundaries of knowledge and 
        gain the skills that will benefit the U.S. economy, 
        environment, and national security well into the future.

  4.  Continue to support and sponsor the lead role of the U.S. and its 
        ocean agencies on the critical international stage. The U.S. 
        has provided international leadership and funding in sustained 
        ocean observations, especially for the development and 
        operations of key networks including the tsunami observing 
        system, the TOGA array, the Argo float network, and OceanSites 
        array. Our declining leadership puts much of the existing ocean 
        observation networks at risk.

    Thank you again for this opportunity to address the Committee.
                 Addendum: List of Supporting Material

Woods Hole Oceanographic Institution (WHOI) Overview
http://www.whoi.edu/main/about

WHOI Vessels and Vehicles
http://www.whoi.edu/main/ships-technology

Human Occupied Vehicle Alvin
http://www.whoi.edu/alvin/

WHOI Center for Marine Robotics (CMR) Overview
http://www.whoi.edu/marinerobotics

Oceanus Magazine, Volume 48, Number 3, October 2011
Deepwater Horizon: Mustering scientific muscle during a national crisis
http://www.whoi.edu/oceanus/
viewPrintedIssue.do?archives=true&sortBy=printed
&o=read&id=342

News Release: Explorer and Filmmaker James Cameron Gives DEEPSEA 
CHALLENGER Sub to Woods Hole, March 26, 2013
http://www.whoi.edu/main/news-releases?tid=3622&cid=165229

Consortium for Ocean Leadership Ocean Priorities
http://www.oceanleadership.org/ocean-policy-legislation/ocean-
leadership-policy-priorities/

    Senator Begich. Thank you very much, Dr. Avery.
    Next we have Ed Page, Executive Director of Alaska Marine 
Exchange.
    Ed, good to see you again. Thanks for participating in our 
effort a few months ago in Alaska on issues of the Arctic.

  STATEMENT OF CAPTAIN EDWARD PAGE, BOARD CHAIR, ALASKA OCEAN 
                OBSERVING SYSTEM AND EXECUTIVE 
              DIRECTOR, MARINE EXCHANGE OF ALASKA

    Captain Page. Well, thank you, Senator, and thank you, 
Senator Cantwell, for allowing me the opportunity to testify 
today regarding the Alaska Ocean Observing System and also the 
Integrated Ocean Observing System.
    I am providing a little different perspective than Mr. 
Cameron. I stay on top of the ocean----
    [Laughter.]
    Captain Page.--and I am going to stay on top so we won't 
have any competition down there.
    For the last 45 years, I have been involved in the safety 
of maritime operations, both as a Coast Guard captain and chief 
of marine safety for the Pacific Area and captain of the port 
and other functions and now presently as a mariner operating 
commercial vessels and Executive Director of the Marine 
Exchange of Alaska, which is a nonprofit maritime organization 
providing information to aid safe, secure, efficient, and 
environmentally sound maritime operations, as well as the Chair 
of the Alaska Ocean Observing System.
    I have sailed on Coast Guard vessels, tankers, container 
ships, fishing vessels, offshore supply vessels, landing craft, 
cruise ships, cargo vessels, whatever, throughout Alaska waters 
dating back to 1973, when I first sailed to Alaska from Boston.
    I can say from experience that operating in Alaska is a 
very harsh, extreme environment with many challenges, 
environmental challenges, and with new waterways opening, 
thanks to the opening of the Artic or the ice between the 
Arctic. And all of this requires good environmental information 
for mariners to operate safely and to respond to emergencies.
    Alaska is a huge state with 39,000 miles of shoreline, most 
of which is remote, and mariners and sailing explorers have 
limited communications. The Marine Exchange has been involved 
in developing a vessel tracking system throughout the state in 
hundreds of locations, from the Arctic out to the Aleutian 
Islands, down southeast, where we track vessels.
    But we also, through the partnership of AOOS, have been 
able to bring the science to these vessel tracking systems and 
adding weather sensors that can provide real-time information 
to vessels and the National Weather Service. We are taking the 
science information and providing it to mariners real-time to 
aid maritime safety and efficiency and also aid emergency 
response.
    This information is valuable to the maritime industry, to 
the Coast Guard, to the state of Alaska, to NGOS who are doing 
research on the environment, as well as other agencies, 
Department of the Interior and others, who have a stake in 
environmental protection in Alaska.
    This is enabled through the AOOS partnership forum. The 
meetings at AOOS are comprised of all these different entities 
who pool their resources and, through leveraging their 
resources, are able to provide much more capabilities in 
detecting ice and reporting that information and weather 
information. All of that is valuable to research but also the 
day-to-day operations of vessels operating in our waters.
    As you know, AOOS, or Alaska Ocean Observing System, is 1 
of 11 regional systems that have partnered with 17 Federal 
agencies and state agencies in the Integrated Ocean Observing 
System. And AOOS is uniquely equipped to leverage public and 
private observations, as has been done in Alaska, to meet 
regional needs, improving the Nation's economy, navigation 
safety, and ocean ecosystems.
    The IOOS legislation provides a framework for building this 
system of systems that links and enhances our existing 
observing capacity. It is an innovative approach for leveraging 
resources, one that relies on partnerships, being cost-
effective and responsive.
    And it is working. Eleven regional systems, including AOOS, 
rely on the partnership to address the societal needs of safe 
commerce and navigation, climate variability, as we are 
experiencing in Alaska, ecology, and environmental hazards. And 
we do so in close partnership with the universities, private 
companies, government agencies, and others. And IOOS links 
together partners at the regional level and leverages resources 
nationwide. It is cost-effective, flexible, responsive, and 
innovative.
    And, of course, the systems and information provided by 
IOOS have been used in the responses to Superstorm Sandy, the 
Deepwater Horizon spill, and in search and rescue periodically 
by the Coast Guard.
    These are just a few examples of how IOOS is making a 
difference. And we, accordingly, urge the reauthorization of 
the ICOOS Act of 2009 to ensure that the Nation's ocean, 
coastal, and Great Lakes observing systems are sustained and 
enhanced.
    I know we are here today to talk about deep sea challenges, 
but I also have to talk about the challenge of operating 
vessels on the surface of the ocean and how important IOOS is 
to their safe operation.
    And the rapid development that is occurring in Alaska 
presents some unique challenges and also an opportunity for us 
to set in place some responsible risk-reduction measures, 
including observations communication products delivered from 
observations, such as rain forecasts.
    In closing, I urge the continued and expanded risk-
mitigating measures like the Arctic Research, Monitoring, and 
Observing Act that you are proposing, Senator, as well as the 
ICOOS Reauthorization Act.
    Thank you for the opportunity to speak here today.
    [The prepared statement of Captain Page follows:]

 Prepared Statement of Captain Edward Page, Board Chair, Alaska Ocean 
   Observing System and Executive Director, Marine Exchange of Alaska

    Chairman Begich, Ranking Member Rubio and Members of the 
Subcommittee, thank you for inviting me here today to talk about 
innovative partnerships in ocean observations and the Alaska Ocean 
Observing System in particular. I am Ed Page, Chair of the Board of the 
Alaska Ocean Observing System and Executive Director of the Marine 
Exchange of Alaska.
    During my 30+ years in the Coast Guard followed by 12 years as 
executive director of the Marine Exchange of Alaska, I have sailed on 
Coast Guard vessels, oil tankers, container ships, fishing vessels, 
tugs, oil exploration and support vessels, oil spill response vessels, 
cruise ships and cargo ships throughout Alaska. I can say from 
experience that operating in Alaska presents unique challenges and 
risks. Increases in vessel traffic, the opening of new waterways as ice 
impacted waters recede and changing ocean conditions will only 
intensify risks to all maritime operations. Today I am going to share 
just one innovative partnership--between my organization and the Alaska 
regional component of the national Integrated Ocean Observing System--
that both adds value and reduces risks in a notoriously harsh 
environment.
    Alaska is a huge state with over 39,000 miles of shoreline, most of 
which is remote and mariners sailing these waters are mostly outside of 
cell or VHF range. The Marine Exchange of Alaska was established in 
2000 to bring the far-flung maritime community together to develop an 
extensive network of over 100 Automatic Identification System (AIS) 
receivers to track vessels operating in Alaska. I am proud to say that 
my organization has helped prevent maritime accidents, assisted 
emergency response efforts, and aided the maritime community to comply 
with state and Federal regulations for vessel tracking; but that's not 
why I'm here today. I am here today to tell you about what happened 
when my organization began working with the Alaska Ocean Observing 
System--or AOOS.
    AOOS is the Alaska component of the national Integrated Ocean 
Observing System, which seeks not only to increase ocean observations 
to meet societal needs to improve the Nation's economy, navigation 
safety and ocean ecosystems, but also to integrate the plethora of 
observations made by multiple state, federal, local and private sector 
entities to aid stakeholder decisionmaking.
    From the AOOS perspective, my organization is really just one 
stakeholder group in the region. AOOS works with everyone: with 
industry, state and Federal researchers to share data and observations; 
with the National Weather Service to integrate real-time weather and 
ocean observations to improve forecasts; and with the commercial 
maritime industry, whom I represent, who also need environmental 
information that aids safe, secure, efficient and environmentally sound 
maritime operations. Partnering with AOOS didn't just help us to do our 
job better; it brought us into a collaborative relationship with other 
groups in our region to leverage our resources and cultivate mutual 
benefits.
    Until the Marine Exchange of Alaska partnered with the Alaska Ocean 
Observing System AIS communication with boats was one-way and the 
information was strictly geographic. Search and rescue could track a 
vessel in trouble, but there was no way to warn individuals at sea if 
conditions or forecasts changed once a vessel went out of cell or VHF 
Radio range. Listening to various stakeholders, AOOS identified a need 
for real-time weather information while at sea. They approached us to 
partner on a project using the AIS system to provide real-time weather 
conditions to mariners. AOOS staff is now working closely with mariners 
to deliver critical ocean and coastal information with this new 
technology and exploring opportunities to enhance the delivery of real 
time weather, ice and other environmental data as well as marine 
forecasts. This private-public partnership delivers a cost effective 
solution to a regional problem that no other government agency or 
contractor was set up to do. Remarkably, it is one of over a dozen 
similar projects this small but agile regional organization is able to 
support throughout the state.
    Another example of the AOOS private-public partnership is their 
willingness to host the public access portal for all of the oil and gas 
industry-collected data in the Chukchi Sea that is now available to the 
larger scientific community as a result of the NOAA data sharing 
agreement with Shell, ConocoPhillips and Statoil. The industry data, 
valued at approximately $80 million, will be of tremendous value as 
Federal and state managers make decisions about how best to manage oil 
and gas development in the Alaska Arctic.
    The Alaska Ocean Observing System model of regional collaboration 
is one that should be replicated as the U.S. Arctic continues to open 
up. I commend Senator Begich's Arctic Research, Monitoring and 
Observing Act, which offers a roadmap to improve maritime safety and 
advance marine science. For those of you who may be less familiar with 
Senate Bill 272, this bill recognizes that the Arctic is undergoing 
profound changes. The region is warming at twice the rate of the global 
average and seasonal sea ice is diminishing both in area and volume. 
Growing interest in oil and gas, commercial fishing, marine shipping 
and tourism are also driving changes now and down the road. This 
legislation would provide sustained support for long-term research, 
monitoring and ocean observing programs in the Arctic Ocean, Bering Sea 
and North Pacific. Long-term observations in particular are difficult 
to fund; but they provide the backbone of most of the products--like 
sea ice and weather forecasts and emergency response plans that so many 
mariners and coastal residents rely on. We are especially supportive of 
providing sustained funding for the Alaska Ocean Observing System to 
provide the critical observations needed to sustain a healthy Arctic.
    The Alaska Ocean Observing System is one of the 11 regional systems 
that have partnered with 17 Federal agencies as part of the Integrated 
Ocean Observing System--IOOS--to provide services to the entire 
coastline of the U.S., including the Great Lakes. Regional systems like 
AOOS are uniquely equipped to leverage public and private observations 
to meet regional needs improving the Nation's economy, navigation 
safety and ocean ecosystems. For that reason, we also are in support of 
reauthorizing of the Integrated Coastal and Ocean Observing System Act 
of 2009 (ICOOS) that provides the foundation for our work in the 
Arctic.
    The Act provides the framework for building a ``system of systems'' 
that links and enhances our existing observing capacity. It is an 
innovative approach for government, one that relies on partnerships to 
be cost-effective and responsive. And, it is working. The 11 regional 
systems, including AOOS, rely on partnerships to address the societal 
needs of safe commerce and navigation, climate variability, ecology and 
hazards. They do so in close partnership with universities, private 
companies, government agencies and others. IOOS links together partners 
at the regional level and leverages resources. IOOS is a cost-
effective, flexible, responsive and innovative.
    These partnerships work:

  <bullet> Superstorm Sandy. During Superstorm Sandy, the marine 
        transportation industry in the New York/New Jersey area made 
        preparations based on forecast products derived from IOOS 
        observations. In the Port of NY and NJ, all vessels were moved 
        from anchorages in the Harbor. Over 6,700 containers were 
        diverted from the New York/New Jersey area to Virginia. The 
        cost estimate for these containers is approximately $1 Billion 
        (Marine Technology Society TechSurge Event 2012);

  <bullet> Deep Water Horizon Spill. The IOOS data management system 
        allowed for the seamless integration of data from non-federal 
        sources for use by the Unified Area Command. Prior to this, 
        valuable non-Federal information collected by universities, 
        state agencies or private companies was not accessible to 
        Federal responders. The IOOS data management system, based on 
        interoperable standards and services, now allows for the 
        integration of data from all relevant sources. In fact, 
        approximately 75 percent of the data now served by NOAA's 
        National Weather Service through the National Data Buoy Center 
        is from non-federal sources, most of which is directly 
        attributable to the work being done and supported by the 
        Regional Associations.

  <bullet> Much of the oil from the spill remained subsurface where, 
        despite the availability of technology, we lacked the ability 
        to readily monitor the flow of oil. IOOS, through its regional 
        network, redeployed several underwater gliders from around the 
        country to assist with subsurface monitoring efforts. This 
        unique and flexible capability is one of the hallmarks of the 
        IOOS system.

  <bullet> Search and Rescue. The U.S. Coast Guard estimates that with 
        the use of IOOS data on real-time surface currents they can 
        reduce the search area for a distress call by two-thirds, 
        increasing the chances of safe recovery.

    These are just a few of the many examples of how IOOS is making a 
difference. We urge the reauthorization of the ICOOS Act of 2009 to 
ensure that the Nation's ocean, coastal and Great Lakes observing 
systems are sustained and enhanced.
    We're here today to talk about Deep Sea Challenges, and the rapid 
development that is occurring in Alaska does present challenges and 
also an opportunity to set in place responsible risk reduction 
measures, including both observations and communication of products 
derived from observations, like marine forecasts.
    I hope that my experience with the Alaska Ocean Observing System 
illustrates the potential and the proven success of this innovative 
approach and I hope that the folks in this room leave here today 
feeling at least a fraction of the urgency that I feel about the need 
to implement risk mitigating measures like the Arctic Research, 
Monitoring and Observing Act and the ICOOS Act Reauthorization now.

    Senator Begich. Thank you very much.
    And next we have Dr. Newton, Senior Principal 
Oceanographer, Applied Physics Laboratory, University of 
Washington.
    Thank you for being here.

      STATEMENT OF JAN NEWTON, Ph.D., EXECUTIVE DIRECTOR,

            NORTHWEST ASSOCIATION OF NETWORKED OCEAN

          OBSERVING SYSTEMS; PRINCIPAL OCEANOGRAPHER,

            UNIVERSITY OF WASHINGTON APPLIED PHYSICS

         LABORATORY; AND AFFILIATE ASSISTANT PROFESSOR,

        UNIVERSITY OF WASHINGTON SCHOOL OF OCEANOGRAPHY

    Ms. Newton. Thank you, Chairman Begich, and thank you, 
Senator Cantwell, for this opportunity to testify with you here 
today and to talk about innovative partnerships in ocean 
observations, specifically the Northwest Association of 
Networked Ocean Observing Systems, or NANOOS, which is part of 
the United States Integrated Ocean Observing Systems, or U.S. 
IOOS, program.
    My name is Jan Newton, and I am a Principal Oceanographer 
at the University of Washington, the Executive Director of 
NANOOS, and also a University of Washington faculty member.
    As a graduate student starting out studying ocean processes 
on ships, I found so many of the research cruises, which are 
conducted over the span of a few weeks, encountered what folks 
said were anomalous conditions. And this repeated situation 
spoke volumes to me that if so many cruises revealed the 
unexpected, then maybe we really don't know that much about the 
state of the oceans.
    So it has been a logical passion for me to be one of the 
many implementing IOOS and leading those efforts in the Pacific 
Northwest via NANOOS.
    I think the genius of IOOS is that it goes beyond just the 
science, to bring ocean observations to all sectors of society 
for diverse and compelling needs, such as safe maritime 
transport, sustained health of natural resources, response to 
extreme weather or tsunami events.
    IOOS is a congressionally established, stakeholder-driven, 
and science-based ocean analog of the National Weather Service. 
It provides and enhances our nation's access to data from 
oceans, coasts, estuaries, and Great Lakes. It was designed and 
is implemented with both a Federal and a regional footprint, 
allowing IOOS to connect with regional stakeholders while still 
maintaining national consistency. IOOS is the essence of an 
innovative partnership.
    NANOOS is the regional association for the Pacific 
Northwest, just as AOOS is for Alaska. We work with diverse 
stakeholders in Washington and Oregon to understand their 
information needs and to coordinate and support development, 
implementation, and operation of a regional coastal ocean 
observing system, the buoys, radars, models, and data 
management capacity to provide data and data products on the 
spatial and time scales that meet their needs.
    Established in 2003, NANOOS is a growing partnership of 
almost 50 entities, and that is industry, tribes, state, local, 
Federal agencies, nongovernmental organizations, education and 
research institutions, who form our governing council. We work 
with IOOS to implement national priorities on a regional scale 
and to understand regional Pacific needs.
    To build NANOOS, we integrated existing regional assets, 
not only the technologies but also the people, in a sustained 
way to build a network system, whereby at this very moment, 
from our NANOOS data portal, I can click on buttons that tell 
me the sea temperature 13 miles off La Push, Washington, the pH 
in the seawater intake at Taylor Shellfish and Hatchery, the 
oxygen at the bottom of Hood Canal, the sediment load in the 
Columbia River, the offshore currents along the coast of 
Oregon, and the predicted temperature of the coastal waters off 
Newport.
    Those may sound like disparate and esoteric things to know, 
but to shellfish growers who want to know whether to spawn 
their oyster larvae, to the fisheries manager who wants to know 
if fish are subject to additional stress from reduced oxygen 
before setting fisheries catch limits, to the Columbia River 
Bar pilot who wants to navigate the entrance channel safely, to 
the true heroes of the Coast Guard who need to optimize the 
effectiveness of their search and rescue operations, and to the 
recreational tuna fishing captains who want to optimize their 
safety and profitable local businesses, all of those data 
inform decision points that NANOOS currently delivers to the 
users. And each one of those is a real example I mention where 
NANOOS is making a difference.
    By building NANOOS, we have dramatically increased the 
efficiency in how taxpayer-purchased ocean data, as well as 
privately funded ocean data, reaches the hands of the public, 
both regionally and nationally.
    The Federal investment in NANOOS reaps substantial return. 
For example, we partially support 19 data streams, yet through 
partnerships we serve 176. And those additional ones are from 
other Federal programs, as well as from state, tribal, and 
industry data providers who want their data served in this 
fashion. And, together, we have a better integrated picture of 
the conditions.
    IOOS builds communities of practice, and those are 
communities of practice from disparate groups. So our data 
management system was designed and implemented by a team from 
three regional universities working with The Boeing Company. 
The national high-frequency radars that the U.S. IOOS team has 
over 10 years consolidated has gone from a handful of radars to 
130, all operated as a single network with nationally 
compatible data, operated by academic and industry partners, 
led by IOOS.
    The Federal investment in sustaining ocean observations 
makes a difference and provides a significant return on 
investment. Prior to 2010, we had no sustained observations of 
subsurface water properties, like oxygen, nutrients, pH, off 
the coast of Washington. Because IOOS investments in NANOOS are 
used for jobs to sustain those regional observations, we were 
able to obtain a $500,000 grant from the Murdock Charitable 
Trust to build a state-of-the-art buoy and glider system, 
yielding yet unprecedented data series with new scientific 
discoveries like 40-meter internal waves and key data to assess 
hypoxia and ocean acidification.
    The IOOS observing system, including this buoy at La Push, 
is being utilized to provide an early-warning system for ocean 
acidification to support local shellfish growers and hatchery 
owners, helping them to save over $35 million in 2011 alone. 
And I would say that is a great return on investment for the $2 
million budget awarded to NANOOS for the entirety of our 
system.
    A local shellfish grower, Mark Wiegardt, co-owner of 
Whiskey Creek Shellfish Hatchery, said it this way: ``Putting 
an IOOS buoy in the water is like putting headlights in a car. 
It lets us see changing water conditions in real-time.''
    We also interact with the Columbia River Bar pilots, like 
Captain Dan Jordan, with now the ability to provide real-time 
wave conditions and forecasts for the Columbia River system 
that, alone, handles 300 million tons of foreign trade worth 
$16 billion a year.
    IOOS stimulates government efficiency, stimulates the 
economy, provides jobs, and increases quality of life for the 
nation. In short, IOOS works.
    And I am grateful to our Washington State Senator, Maria 
Cantwell, for her leadership in supporting IOOS and promoting 
reauthorization of the ICOOS Act. The ICOOS Act of 2009, as you 
heard, enables IOOS to be a Federal-regional partnership. And I 
request the Committee's support for this.
    You also asked for my input on the implications of climate 
change on ocean waters, such as warming, altered productivity, 
and ocean acidification. And I ask that we all take a breath 
and then, after you do that, take another. Please understand 
that the oxygen for every other breath that you take was 
supplied by the ocean, the phytoplankton in the ocean, the 
other being supplied by terrestrial plants. So the oceans are 
critical to every other breath that we take.
    Only 33 percent of the surface of the Earth is the part 
that we live in--definitely the minority. I often reflect that 
the sight of sea surface without any land visible is a foreign 
sight to most of the population of our planet, yet truly that 
is the most common sight of the Earth.
    So, as we have changed the composition of our atmosphere, 
these alterations have indeed heated the planet and increased 
the concentrations of CO<INF>2</INF> that diffuses into the 
oceans. These have strong implications for the food web. And as 
increased CO<INF>2</INF> changes the pH, it shifts the ocean 
waters toward a more acidified state. Species such as oysters, 
pteropods, which are food for salmon, and of course ecosystems 
such as coral reefs have less capacity to be formed or to be 
competitive. And this effect is certainly being felt in the 
Pacific Northwest.
    It has been my honor to work with Dr. Richard Feely of 
NOAA's Pacific Marine Environmental Lab researching OA in 
Washington State. And, as a partner, NANOOS is making high-
quality measurements for assessing, modeling, and communicating 
the regional status of ocean acidification. Via IOOS, NANOOS 
works with the NOAA Ocean Acidification Program. And these 
synergies assure the most effective use of limited ocean 
observing resources.
    I was one of seven scientists appointed to then-Governor 
Christine Gregoire's Blue Ribbon Panel on Ocean Acidification 
to develop recommendations and actions needed to ensure the 
health and economy of Washington State. It appears that some of 
these recommendations may be funded at limited levels in the 
next biennium through the Washington State legislature, actions 
such as monitoring, forecasting, and food web impact 
assessment. But I want you to know that these actions dovetail 
extremely well with the Federal investments from NOAA's Ocean 
Acidification Program and from U.S. IOOS in NANOOS.
    So national leadership that can be implemented regionally 
can only succeed when there is a strong community of practice 
that builds an allegiance and the human network required to 
assure that common methods and calibrations are implemented. 
The reauthorization of both the Federal Ocean Acidification 
Research and Monitoring, or FOARAM Act and the ICOOS Act will 
assure that this will continue and in a cost-effective manner. 
And I urge your actions on these both.
    And I thank you for my time.
    [The prepared statement of Ms. Newton follows:]

Prepared Statement of Jan Newton, Ph.D., Executive Director, Northwest 
      Association of Networked Ocean Observing Systems; Principal 
Oceanographer, University of Washington Applied Physics Laboratory; and 
   Affiliate Assistant Professor, University of Washington School of 
                              Oceanography

    Good Afternoon Chairman Begich, Ranking Member Rubio, and members 
of the Subcommittee. I want to thank you sincerely for inviting me here 
to talk about innovative partnerships in ocean observations and 
specifically, the Northwest Association of Networked Ocean Observing 
Systems, NANOOS, part of the United States Integrated Ocean Observing 
System (U.S. IOOS) Program. My name is Jan Newton. I am a Principal 
Oceanographer at the University of Washington Applied Physics 
Laboratory and the Executive Director of NANOOS. I am also faculty in 
the University of Washington's College of the Environment.

Introduction: U.S. IOOS and NANOOS
    To give you context, as a scientist who trained to be an 
oceanographer, I certainly did not set out to be an Executive Director 
of anything. My path has evolved in a very logical way actually. As a 
graduate student studying ocean processes via ships, I soon found that 
so many of our research cruises, which are conducted over the span of a 
few weeks, encountered what folks said were ``anomalous'' conditions. 
This repeated situation spoke volumes to me that if every cruise seemed 
to reveal the unexpected, then maybe we really don't know that much 
about the state of the oceans. So, as a scientist wanting to understand 
nature, it has been a logical passion for me to be one of the many 
involved with implementing IOOS, helping to bring this system on-line, 
and to lead those efforts in the Pacific Northwest via our NANOOS.
    The genius of IOOS is that it goes beyond ``just the science'' to 
bring ocean observations to all sectors of society for diverse but 
compelling needs, such as safe maritime transport, sustained health of 
natural resources, and response to extreme events. IOOS is a 
congressionally-established, stakeholder-driven, and science-based 
``ocean analog'' of the National Weather Service. It provides and 
enhances our Nation's access to data from the oceans, coasts, estuaries 
and Great Lakes. Because it is implemented with both a Federal and 
regional footprint, this allows IOOS to connect with regional 
stakeholders while maintaining national consistency. IOOS is the 
essence of an innovative partnership. The U.S. IOOS Program Office 
while housed at NOAA interacts with a broad Federal agency family, as 
well as with a network of eleven non-federal Regional Associations. I 
want to tell you more about how we implement IOOS through one of those 
Regional Associations, NANOOS, in the Pacific Northwest.
    For the states of Washington and Oregon, we at NANOOS work with 
diverse stakeholders to understand their needs and to coordinate and 
support the development, implementation, and operation of a regional 
coastal ocean observing system- the buoys, radars, models and data 
management capacity--to provide ocean data and data products to diverse 
end users on the spatial and temporal scales that meet their needs. 
While I say ``oceans'' . . . in the context of IOOS and NANOOS this 
means the coastal ocean, which includes our estuaries, bays, and 
shorelines.

How did NANOOS build its ocean observing system?
    We formed a partnership of Pacific Northwest industry, tribes, 
local, state, and Federal agencies, non-government organizations, and 
educational and research institutions. Established in 2003, NANOOS is a 
growing partnership of almost 50 entities now. The NANOOS system 
encompasses not only ocean observations, but also data management, 
modeling and analysis, generating useful information products, 
providing outreach to various audiences to connect them with the 
information they need, and increasing the region's ocean literacy. To 
do this, we had two very simple yet compelling strategies for building 
the system: 1) integrate the assets we had in the region and 2) 
prioritize what we needed. With NOAA funds, NANOOS implements IOOS 
regionally through its partnerships.

How does NANOOS decide where to make our investments?
    The nearly 50 NANOOS member partners who have signed our Memorandum 
of Agreement (MOA) appoint a person to our Governing Council and 
annually establish NANOOS' regional priorities. Using the input from 
our Governing Council, we have harnessed our infrastructure, the 
technological observing capacity as well as the skilled workforce, to 
build a networked system whereby at this very moment from our NANOOS 
data portal I can click on buttons that tell me the sea temperature 13 
miles off La Push Washington, the pH in the seawater intake at Taylor 
Shellfish hatchery, the oxygen at the bottom of Hood Canal, the 
sediment load in the Columbia River, the offshore currents along the 
coast of Oregon, and the predicted temperature of the coastal waters 
off Newport. These may sound like disparate and esoteric things to 
know, but to the shellfish growers who wants to know whether to spawn 
their oyster larvae, to the fisheries manager who wants to know if fish 
are subject to stress from reduced oxygen before setting fisheries 
catch limits, to the Columbia River bar pilot who wants to navigate the 
entrance channel safely, to the true heroes of the Coast Guard who need 
to optimize the effectiveness of their search and rescue operations, 
and to the recreational tuna fishing captains who want to optimize 
their safety and profitable local businesses, these data all inform 
decision points that NANOOS currently delivers to these users. Each one 
of those examples I mentioned is a real case showing how NANOOS is 
making a difference through our partnerships.

What does NANOOS achieve for the Nation and the region?
    By building NANOOS, we have dramatically increased the efficiency 
in how tax-payer purchased ocean data as well as privately-funded ocean 
data reaches the hands of the public, both regionally and nationally. 
My two favorite words to describe IOOS and NANOOS are ``leverage'' and 
``link,'' which we do in spades. The Federal investment in NANOOS reaps 
substantial return, for example, we use our Federal dollars received 
from the U.S. IOOS Program Office to partially, yes partially, support 
19 data streams throughout Washington and Oregon. Yet because of the 
partnerships we have made, our data portal makes 176 data streams 
available to the public . . . nearly an order of magnitude more. The 
balance are Federal assets (funded by other Federal programs) collected 
throughout our region as well as private, state, tribal, or other data 
providers who want the data services that NANOOS offers. As we collect 
and integrate these disparate data streams, we are able to use them to 
provide information products like the types I mentioned above.
    There is a second efficiency in IOOS, and that is that we have 
built a community of practice. We have integrated the people. This is 
another aspect of innovative partnership that has paid off 
substantially.

  <bullet> Our data management system was designed and implemented by a 
        team from three regional universities, UW, OSU, and OHSU, 
        working the Boeing Company, an industry with a wide footprint 
        in our region. Each member organization came with a unique 
        perspective and capability, but together as a team they built a 
        system that has seen great success and has been shared with 
        other IOOS Regional Associations. The innovation that happens 
        at the regional level is shared with the national level and 
        vice versa; regional data systems are linked through standards 
        and protocols to the national system.

  <bullet> Our observational effort on water quality has integrated 
        university, federal, tribal, state, and industry scientists and 
        practitioners, to share practices and increase data quality. 
        Also, when a new and better sensor comes along, NANOOS can take 
        advantage of letting this network know about it, and if 
        adequately funded, NANOOS could provide the new sensors to our 
        partners to implement on their existing platforms.

  <bullet> NANOOS and the IOOS Regional Associations in California have 
        a Memorandum of Understanding with the West Coast Governors 
        Alliance to work collectively together and optimize efforts on 
        marine spatial planning, ocean acidification, marine debris, 
        and other priorities.

  <bullet> The NANOOS observing system sustains high-frequency radars 
        that measure surface currents off Oregon; NANOOS serves these 
        data directly to the U.S. Coast Guard to assist with search and 
        rescue. Our new NANOOS ``Maritime Operations'' portal, 
        developed with input from mariners, like the Marine Exchange of 
        Puget Sound, provides real-time wave observations offshore the 
        coast, high-resolution wave forecasts out to 84 hours in the 
        future, virtual wave stations showing changes in wave height 
        and where the waves are coming from, and high-frequency radar 
        surface maps of ocean currents. This is part of the national HF 
        Radar network, a direct result of U.S. IOOS. In 2002 there were 
        only a handful of radars; this has now grown to 130, all 
        operated as a single network with nationally compatible data. 
        Operation by 30 academic institutions nationwide in partnership 
        with a U.S. company (CODAR Ocean Sensors), all led by the U.S. 
        IOOS program is the kind of innovative partnering that 
        epitomizes U.S. IOOS.

NANOOS Successes from Innovative Partnering
    The Federal investment in sustaining ocean observations makes a 
difference and provides a significant return on investment. For 
example, prior to 2010 there were no sustained observations of 
subsurface water properties, like oxygen, nutrients, pH and chlorophyll 
off the coast of Washington. We were able to obtain a $500K grant from 
the Murdock Charitable Trust to build a state-of-the-art observation 
system, with surface and profiling buoys and an autonomous Seaglider, 
to yield 3-dimensional data through time. Our successful competition 
for this award was in part because IOOS represented anticipated funds 
for sustaining the operation of these assets well into the future. Now 
three years in, we have an unprecedented data series, new scientific 
discoveries such as 40 m high internal waves, as well as key data to 
assess hypoxia and ocean acidification. It was obvious to the Murdock 
Charitable Trust that NANOOS was well-networked within our region and 
the payoff from the data would be shared, not only to regional 
scientists but also so many others across society. We have partnered 
with NOAA's Olympic Coast National Marine Sanctuary to add a current 
meter they had onto our buoy, with the Quileute Tribe to optimize the 
buoy's weather sensing, and with NOAA's Ocean Acidification Program and 
NOAA's Pacific Marine Environmental Laboratory to work together 
measuring variables to assess ocean acidification on this buoy, now 
part of the NOAA Ocean Acidification Buoy Network. The IOOS observing 
system, including this buoy, is being utilized to provide an early 
warning system for ocean acidification to support local shellfish 
growers and hatchery owners, helping them to save over $35M in 2011 
alone. A local shellfish grower, Mark Weigardt, co-owner of Whiskey 
Creek Shellfish Hatchery said it this way: ``Putting an IOOS buoy in 
the water is like putting headlights on a car. It lets us see changing 
water conditions in real time.''
    Some of our other successes:

  <bullet> NANOOS assisted Oregon and Washington state agencies with 
        the development of a Pacific Northwest tsunami evacuation 
        portal and mobile app; a visual representation of the expected 
        inundation of coastal areas and communities from a worst-case 
        locally generated tsunami (similar magnitude to the 2011 Japan 
        earthquake), as well as from a distant event adjacent to the 
        Aleutian Islands. Users search by street address to determine 
        if they are in the tsunami hazard zone, and plan an escape 
        route accordingly. The portal also provides direct links to the 
        West Coast Alaska Tsunami warning center, notifying users of a 
        tsunami watch or warning.

  <bullet> NANOOS supports the collection of beach information--
        flooding, erosion, and seasonal sand changes--along the Oregon 
        and Washington coasts. These data are being used by engineers 
        and resource managers to assist with the design and permitting 
        of coastal engineering structures, to understanding the rates 
        and patterns of coastal change, and to support FEMA.

  <bullet> Now Columbia River bar pilots, like Captain Dan Jordan, a 
        NANOOS advisor, can access real-time wave conditions directly 
        offshore of the Columbia River's mouth--a busy port of entry 
        with hazardous currents and large waves--to assist with the 
        safe passage of vessels. The Pacific Northwest, home to more 
        than 20 ports supporting commercial, fishing, transportation, 
        security, and recreational activities, benefits from this 
        information service. The ports connect the U.S. with foreign 
        markets and with a fishing industry worth about $800 million in 
        personal income annually. The Columbia River system handles 30 
        million tons of foreign trade and $16 billion in value each 
        year.

    I think these examples show how IOOS and NANOOS are good 
government, implement national priorities on a regional scale, 
stimulate the economy, provide jobs, and increase quality of life for 
the Nation.
    While there are many successes, we could do much more. For example, 
you will notice I said ``NANOOS observing system sustains high-
frequency radars that measure surface currents off Oregon.'' NANOOS 
sustains these systems, originally purchased through research grants 
through the National Science Foundation. NANOOS has proposed to build 
similar capacity in Washington, but funding allocated to the IOOS 
program has not been sufficient to allow us to do so. Elsewhere such 
surface current data are used in combination with computer-run models 
to predict the movement of water, tracking associated items such as 
marine debris and harmful algal blooms. We do not have this capability 
in Washington state, and I know many of the other IOOS Regional 
Associations face similar inequities in their regions. Our nation 
deserves a contiguous capacity along all its coasts for measuring 
surface currents through this proven technology.

The Future for IOOS and the ICOOS Act Re-authorization
    The IOOS Program stands on the shoulders of great visionaries, such 
as Admiral Watkins. U.S. IOOS was recommended by both the Ocean 
Commission established by former President Bush, the Pew Commission 
which stills calls for its full implementation, and the importance of 
sustained observations is called out in President Obama's National 
Ocean Policy. The Integrated Coastal and Ocean Observing System (ICOOS) 
Act passed by you and signed into law by President Obama has been a 
strong tool to advance U.S. IOOS. Administered by NOAA as the lead 
Federal agency, the U.S. IOOS Program has been well conceived and, I 
believe, very well implemented. The success stories I shared here are 
repeated many times over within NANOOS, but also within the other ten 
Regional Associations of IOOS, comprising the entirety of the United 
States, including its Great Lakes, Caribbean and Pacific Islands, and 
three continental coastlines, Atlantic, Gulf and Pacific. IOOS has 
stimulated green U.S. jobs and technology innovation. In short, IOOS 
works.
    The ICOOS Act of 2009 enables IOOS to be a federal-regional 
partnership that connects with regional stakeholders while maintaining 
national consistency and addressing national priorities at the regional 
level. I strongly urge you to re-authorize the ICOOS Act so that this 
successful example of governmental efficiency and innovative federal-
non-federal partnership can continue and grow. The IOOS distributed 
system, as witnessed by the diverse membership of its 11 Regional 
Associations, by its NOAA leadership and the U.S. IOOS Program Office, 
the Interagency Ocean Observing Systems Committee, and by the nearly 
200 individuals who attended the IOOS Summit held in Reston VA in 
November 2012 and signed its Declaration from which I quote: ``Now, 
more than ever, the United States requires a sustained and integrated 
ocean observing system.'' I am grateful to our Washington State Senator 
Maria Cantwell for her leadership in supporting IOOS and promoting the 
re-authorization of the ICOOS Act.
    I want to underscore the importance of Congress' funding of IOOS at 
levels that do not jeopardize the sustained operation and expansion of 
IOOS. I applaud the Senate for your leadership on this to date. Without 
your action in 2012 and 2013, I potentially faced having to cut the 
program by $250K. With a program so highly leveraged already, my 
decision for a cut of that magnitude was to either eliminate support 
for our data delivery system, or estuarine observations in Puget Sound 
and the Columbia River, or observations on the WA and OR outer coast, 
or observations of the shorelines. Given the input from our Governing 
Council I honestly did not know how to make that decision. I thank you 
for preventing me having to face that.

Climate Change and the Oceans
    You have also requested my input on the implications of climate 
change on ocean waters, such as warming, altered productivity, and 
ocean acidification. As a teacher, it is my honor to comment on the 
importance of these ocean issues. First I ask that we all take a breath 
. . . and after you do that take another. Please understand that the 
oxygen for every other breath you take is supplied by algae, 
phytoplankton, in the worlds' oceans, with the other breath from 
terrestrial plants, trees and grasses. With Earth's land masses being 
productive, yet in the minority . . . only 33 percent of the surface of 
the earth . . . we absolutely depend on the oceans for our very life. I 
often reflect that sight of the sea surface without any land visible is 
a foreign sight to most of the population of our planet, yet it truly 
is the most common sight on planet Earth.
    As humans have changed the composition of our atmosphere, these 
alterations have indeed heated the planet and increased the 
concentration of CO<INF>2 </INF>that diffuses into the oceans. These 
changes have very strong implications for the plankton at the base of 
the ocean food web and all that depend on these organisms. As the 
heating changes the temperature of seawater and its density layering, 
this inhibits the ability of the ocean to supply nutrients upward and 
to ventilate its deep waters with oxygen; these changes have 
implications to select for an ocean that does not support the same life 
in exactly the same way we are accustomed to. While there will 
undoubtedly be as yet unpredicted consequences there are some things we 
do know that are well established scientifically. As the increased 
CO<INF>2 </INF>changes the pH of the ocean waters towards a more 
acidified state, this selects for what life forms can thrive. Species 
such as oysters, pteropods (food for salmon) and of course ecosystems 
such as coral reefs have less capacity to be formed or be competitive.
Ocean Acidification
    It has been my professional honor to work with Dr. Richard Feely of 
NOAA's Pacific Marine Environmental Laboratory and his group 
researching ocean acidification in the local waters of Washington 
State. It has also been my responsibility to direct the capacity of 
NANOOS to participate in making high quality measurements for 
assessing, modeling, and communicating the status of ocean 
acidification in the Pacific Northwest. NANOOS works via IOOS with the 
NOAA Ocean Acidification Program (OAP), whose mandate is to provide the 
Nation with high quality data and leadership on this issue. Two of 
NANOOS' offshore buoys, one off Newport and one off La Push, receive 
OAP funding to be part of our Nation's Ocean Acidification Buoy 
Network. The synergies between these Federal programs and NANOOS have 
assured the most effective use of limited ocean observing resources and 
also provide free data access to our regional citizenry via the NANOOS 
data portal. While local data access is important, another true wisdom 
of IOOS is its nested design, such that any data stream NANOOS serves, 
such as Taylor Shellfish pH data from Puget Sound, immediately is 
available through the national IOOS data portal and available to the 
global community as well.
    The issue of ocean acidification is not only central to the 
vitality of our thriving shellfish industry, but also to the tribes who 
have treaty rights to sustained natural resources that have fed their 
culture for thousands of years. Additionally, seafood such as oysters 
and salmon are healthful foods that support our populace not only 
regionally but also, via export, nationally and internationally.
    I was one of seven scientists appointed to Governor Christine 
Gregoire's Blue Ribbon Panel on Ocean Acidification. Our panel 
consolidated and reported what was known in our region regarding ocean 
acidification, what information was missing, and what recommendations 
and actions were needed to insure the health and economy of Washington 
State. It appears that some of these recommendations will be funded 
through the Washington State legislature, actions such as monitoring, 
forecasting, and food-web impact assessment. These actions dovetail 
extremely well with the Federal investments from NOAA's OAP and from 
U.S. IOOS in NANOOS. National leadership that can be implemented 
regionally can only succeed when there is a strong community of 
practice that builds an allegiance and the human network required to 
assure that common methods and calibrations are implemented. The NOAA 
OAP has been adept at partnering with IOOS Regional Associations 
throughout our Nation to expand their network several-fold in a highly 
cost effective manner, yet with consistent methodology. NOAA's 
leadership on this is to be commended. The re-authorization of the 
Federal Ocean Acidification Research and Monitoring (FOARAM) Act will 
assure this will continue and I urge your action to make this so.

Summary
    I hope my testimony has illustrated the critical importance of the 
oceans to so many of our daily practices, from breathing to shipping 
cargo, and the great successes IOOS has already realized in serving to 
bring ocean information to the public. I hope you share my view that 
this system has an even greater potential to build on the innovative 
partnerships we have established, if adequately funded, but that the 
reauthorization of the ICOOS Act is essential. I hope I have 
underscored in your minds the importance of the oceans' health. The 30 
percent increase in ocean acidity we have achieved to date is not the 
direction our children will appreciate from us. The reauthorization of 
the FOARAM Act is imperative to guide the legacy we will want to leave. 
I thank you for your leadership to our country and for this opportunity 
to convey how urgent I think these two Acts are for our nation.

    Senator Begich. Thank you very much.
    Let me turn to Senator Cantwell, and I want to--Senator 
Cantwell, we have been notified of 4 o'clock votes, so we will 
have about 20 minutes here.
    So let me turn to Senator Cantwell. We will start with 5 
minutes. We may be a little flexible because----
    Senator Cantwell. OK.
    Senator Begich.--we are both here.
    Senator Cantwell. Well, thank you, Mr. Chairman. And thanks 
for holding this important hearing.
    And from our part of the country, definitely these are 
very, very important issues. So thank you to all the witnesses 
today.
    And, Dr. Newton, thank you for bringing up that quote. That 
was actually, I think, Bill Taylor--maybe you said that--from 
Taylor Shellfish, about putting headlights on the cars.
    And, certainly, to me, this is about information that we 
now can acquire about the oceans. In fact, my staff was just 
showing me this particular app that has a link to every buoy 
that the fishermen then can link to and see wave, temperature, 
all of these various things. So not only are we collecting the 
information, we are making it available to people.
    So my first question is, what do we need to do--I mean, in 
the case of shellfish, that was real information on ocean 
acidification that allowed them to do seeding at a different 
time to be successful.
    How many ocean acidification sensors are deployed today? 
And what else do we need to do to build that network?
    Ms. Newton. So I would say, nationally, I actually don't 
know the number. I know that NOAA's Ocean Acidification Program 
probably has on the order of, I am going to guess, 20 
nationwide, but I will get back to you on that. But, in our 
region, we really only have two. And I think that this is very 
much underestimating the situation.
    We have been very successful with those two offshore buoys, 
one off La Push that I mentioned and one off Newport, because 
it tells the nearest shore growers when ocean acidification 
events are coming. But when you look at the inland waters, such 
as Puget Sound or the Columbia River, we know that very 
different conditions exist.
    And so my examples are all from the Pacific Northwest, but 
this is certainly true for Alaska, certainly true for the 
Caribbean and the Northeast and all of the areas around our 
nation.
    So I see that we need a significant investment in expanding 
these observations, but the great thing about IOOS is that the 
platforms are there. It is not like we need to be putting a 
whole bunch of new buoys in the water, because we have a lot of 
buoys which could be adapted to be ocean acidification 
monitoring buoys. And we have the human infrastructure, and we 
have the data delivery systems. The app that you saw that 
NANOOS produced is also mirrored by other regional associations 
and by IOOS.
    So I think we have some of the picture, but we need the 
sustained support and the way to grow it.
    Senator Cantwell. I have been a big fan of using our new 
high-tech Doppler radar system to get a better weather-ready 
nation, in the context that so much can be known about these 
storms now. There are all sorts of algorithms that if people 
would just put high-power computing time behind, they would 
tell us some of the potential damage that we are looking at 
coming at us and give us better preparation.
    Do you think using high-frequency radar with the buoy 
system and combining all this data under NOAA in a forecasting 
situation would be good for us as it relates to hurricanes and 
some of the events that we are seeing, maybe some that we see 
in the Northwest but certainly other parts of the country see 
way more frequently than we do?
    Ms. Newton. I absolutely do. And I know that during 
Superstorm Sandy that was actually put to test. And the HF 
radar measurements that were made by MACOORA on the middle 
Atlantic helped the weather forecasting capacities.
    I think these are critical. As Dr. Avery mentioned, the 
oceans and the atmosphere intimately work together. And if we 
have better weather-over-water measurements, those can aid the 
forecasts. The HF radar that measure the surface currents can 
be used to improve ocean circulation models. And so that is 
really critical for getting the weather right.
    So, absolutely, I believe that what you said is critical 
for a better weather-ready nation. And I think we have pieces 
there. We have HF radars in Oregon; we don't have them in 
Washington. And I know that is true around the nation. There 
are places that have it and places that don't. I think we need 
to fill in that system. I think the system is already 
integrated with modeling efforts. I think we need to sustain 
and expand those efforts.
    Senator Cantwell. But it is a resource issue, right, not a 
technology issue? The technology exists.
    Ms. Newton. Absolutely.
    Senator Cantwell. It is about measuring----
    Ms. Newton. Technology is being used today successfully.
    Senator Cantwell. Mr. Cameron, what about this issue, the 
larger issue of ocean acidification? And, you know, I know 
there is an XPRIZE that has been announced to try to tackle 
this problem.
    I mean, should we be looking to the private sector--you 
have done a lot, but should we be looking to the private sector 
to try to stimulate more investment here as it relates to 
solving some of these problems?
    Mr. Cameron. I think we can. I think the prize model is a 
good model, but somebody has to put up the prize money, so, you 
know, this is still going to come back down to the bottom line.
    I think there are incentives that you might consider for 
innovation and for partnership. A good example is the Center 
for Marine Robotics at Woods Hole Oceanographic. This is a 
place where we are hoping to have the oil and gas industry, 
especially offshore, and other extraction industries come to a 
common development place with academia, including Woods Hole 
but also some other academic partners that specialize in 
robotics but not necessarily ocean robotics. So, putting a 
group together where money can be brought into it that doesn't 
necessarily have to come from the Federal Government.
    But, on the other hand, we need to stimulate the, let's 
say, offshore oil and gas industry to want to come to do this 
and develop common-platform technology that could be used both 
for research and for commercial survey work, for example.
    And this would apply, Senator Begich, to your issues in 
Alaska working underneath the ice, looking forward 10, 15, 20 
years to the leases on the continental shelf and so on. To be 
able to do those surveys currently, we have to work under ice 
that is seasonal that will continue to retreat over time.
    And so this is an area where we need new oceanographic 
tools, advanced robotics, abilities to communicate over long 
distance under water, artificial intelligence to be able to 
home those robots back to their base stations to work 
autonomously, and so on.
    And, you know, we believe that we can create some common 
technology that can be used by industry commercially, can be 
used by the science community. The science community doesn't 
have the resources always to create these new toolsets, so this 
is a way to do that. If there is a way that you guys can 
imagine that can stimulate that so that it is, you know, 
private-sector money moving into essentially the research 
community, with some kind of rebate system or something like 
that, that would be, I think, very helpful.
    For example, I built the DEEPSEA CHALLENGER submersible in 
Australia. We had an American component to the team; they 
provided about a third of the sub. But the assembly and most of 
the R&D work was done in Australia because Australia has a 
rebate system there for pure R&D.
    So entrepreneurs who want to create new technology can 
create that technology and they can receive a rebate from the 
government. That was significant to me, to the tune of about 
half a million dollars. And on a small project like that, that 
made a difference.
    So that type of thing should be considered, as well. And it 
might play hand-in-glove with the kinds of things we are 
proposing with the Center for Marine Robotics.
    Senator Cantwell. Thank you. That is very interesting.
    I see my time has expired, and unfortunately I have to go. 
But, Mr. Chairman, I think this is a very important issue, in 
the sense of I think we need to identify the issues.
    Mr. Cameron brought up this notion of the technology and 
getting a consensus between the public and private sector. You 
know, when we had our big Gulf oil spill, we realized we didn't 
even have, you know, the way the Coast Guard was on cleanup, we 
didn't even have an agreed-upon list of technology that we 
really were pursuing as the next great thing. So then there was 
a whole big debate about, well, what level of technology should 
we be adhering to?
    So I think oceans, among many things, where it suffers 
because it is, you know, out of a lot of people's view sight, 
is the issue of how much technology really could give us 
information and data that could be so critical to our ocean, 
economy, and the fishermen, to science, to safety, to all of 
these things.
    But it just, like so many things with the oceans, falls 
between the cracks of various organizations and agencies, and 
there is no prioritization of that next step in technology. So 
I certainly want to work with you, and I applaud you for having 
this hearing.
    Senator Begich. Thank you, Senator Cantwell.
    You know, I was talking to a group of fishermen in Alaska 
on Friday and it is always the case that when it comes to the 
oceans or what comes out of the oceans--for example, we debated 
the Farm bill for 2\1/2\ weeks, very little about fish is in 
there. But if we would take that bill and call it the fish bill 
and have those same things----
    [Laughter.]
    Senator Begich.--it would be an incredible opportunity for 
our fishermen. But it is created kind of as a secondary 
thought, even though the only difference is the farm bill you 
harvest from the land, fisheries harvest from the oceans. That 
is the only difference.
    And it is an amazing way the oceans are treated in our 
overall view and economy. And kind of to your point, it is 
always kind of the second-class citizen. Can you imagine if we 
were to spend half as much as we spend on exploring space, if 
we spent on oceans, where we would be today?
    I noted your comment, when you were a young boy you saw 
NASA, you saw that, but you also got intrigued by the oceans. I 
mean, just imagine what that difference would be today. 
Acidification wouldn't be starting to be studied; we would know 
a lot about it today. Not worrying about two buoys; we would 
have plenty out there.
    I mean, that is how I visualize this. So your point is 
well-taken. This is going to be one of many kind of discussions 
we have through this committee.
    Mr. Cameron, I want to follow up on that thought you had. 
And maybe all of you could comment on it since you feel 
comfortable.
    How do we inspire that next generation to really--I mean, 
you got inspired through a variety of reasons, and you were 
intrigued by the oceans, and now you have taken it to a whole 
new level. But how do we get young people to see the oceans, as 
we see the Arctic, for example, as the last frontier?
    I joked when I go back home that I think most people around 
Washington have discovered we have an ocean in the Arctic now.
    [Laughter.]
    Senator Begich. And it is not because they were looking it 
for it. It is because we are talking about it.
    Mr. Cameron. Right.
    Senator Begich. Which is amazing to me, when you think 
about the size and vastness of just that component of our 
oceans.
    And maybe others might have some thoughts on this. But, to 
me, how do we really get young people to think this is an 
incredible field to go into? Obviously, some of the work you 
are doing now is intriguing in itself.
    So I don't know if you have any comment on that, but----
    Mr. Cameron. Well, thank you.
    You know, obviously the DEEPSEA CHALLENGER was designed as 
a science platform and it had a significant science yield, but 
I think its biggest long-term effect will be what I call the 
inspiration dividend. Because what I have found is that when 
young kids get a chance to see this up in person and ask 
members of the expedition how it was done and so on, they get 
very, very excited. It really unleashes their curiosity and 
natural inventiveness.
    And we just came here from showing the sub publicly to a 
couple of hundred kids from schools around D.C., and they were 
so engaged. And they came up to me, and their questions, even 
the younger ones, 7, 8, 9 years old, were so perceptive. And 
you could see their minds working. You know, they all want to 
build subs.
    [Laughter.]
    Mr. Cameron. And that is OK, that is good. That is when you 
get them. That is when you inspire them. And that will last a 
lifetime. Whether they actually become explorers or they become 
engineers or scientists and so on and go to work at places like 
Woods Hole Oceanographic Institution or whether they are simply 
trained there and go into other jobs, this is such an important 
thing.
    It is difficult, inspiring people into STEM-type careers 
these days. As somebody who works in media myself, even when I 
am making a fictional film like ``Avatar,'' I put in a 
sympathetic character who is a scientist. And my thinking there 
is to show an aspirational role model for kids and high school 
students, even college students; say, oh, scientists aren't 
stuffy, they are not some kind of strange elite, they are not 
evil mustache-twirlers.
    Senator Begich. They can be cool.
    Mr. Cameron. They can be cool. Exactly.
    [Laughter.]
    Mr. Cameron. That is absolutely critical.
    And so it is partly how kids perceive that role model and 
partly how they perceive themselves and feel empowered to do 
it.
    And I think the idea of reinforcing to them through media 
and the messaging they get through education that exploration 
is not done. Even if that is in the abstract of exploration as 
a metaphor, if you are, you know, looking through a microscope 
or you are in a lab someplace. But there is so much to know and 
understand.
    So capturing and bottling that curiosity early on is 
critical for us in the science community and in the educational 
community.
    Senator Begich. Let me ask Dr. Avery, you mentioned STEM in 
your testimony. One of the things that I know we are looking 
at, obviously, is the budget for 2014. And the President has 
cut out the ocean science education in NOAA, which, of course, 
we are very--as you can imagine, the Oceans Subcommittee is 
concerned about the impact of that.
    But when you look at the data points of where we are 
internationally when it comes to STEM education--science, 
technology, engineering, and math--we are so far down on the 
scale of where we could be. And as I was hearing the 
description of some of the equipment utilized in the facility 
going to the bottom of the ocean, all that new technology, it 
seems like this is a huge opportunity for us.
    But give me your thoughts. I mean, honestly, I am concerned 
about some of these cuts and what they may impact, marine 
science in the future. Because STEM is not something you do in 
12th grade. It is an educational process throughout your years 
of K through 12, that when you get to 12th grade, you might be 
doing not only a high school course but a college course in 
conjuction, together, to become that next scientists or marine 
biologist or whatever it might be.
    What can we do here, I guess, what should be our role to 
ensure that this is not lost in the long picture of our budget 
fights that we have around here?
    There we go. Is it not working?
    Like I said, technology. We need----
    [Laughter.]
    Ms. Avery. This is technology at work here.
    [Laughter.]
    Senator Begich. Yes. If it wasn't working, I would call my 
11-year-old and he would fix it like that.
    [Laughter.]
    Ms. Avery. Fix it like that, yes.
    No, thank you, Senator Begich.
    I think that, you know, when you look at STEM careers and 
STEM in general, there is the inspirational component at a very 
young age. You know, young kids are really excited about 
science. They are excited about their natural world. They can 
see things, they can touch things.
    And we have, you know, most of our institutions, I am sure, 
around here have outreach programs where children are just so 
much fun to work with. And our scientists love engaging with 
them. Our scientists work on science fair projects. There is a 
real sort of mentorship role there that I think one should not 
underestimate in terms of enhancing the STEM pipeline.
    But you are right; you have to constantly reinforce this. 
You know, you start it at the younger age, but it has to be 
throughout that whole K through 12 system and then through the 
college experience, as well. So that whole pipeline is really 
very critical.
    And I guess I would say, and I think a number of us in the 
scientific community are concerned a little bit about what has 
been proposed in terms of eliminating some of these STEM 
programs from the mission agencies, in particular, and 
consolidating certain parts of that educational pipeline in 
certain parts of the agency.
    Because I think that, in general, a lot of us in research 
and science organizations have been spending a lot of time 
really taking a look at what we can do, how we can be engaged. 
And when you take that away from us, I worry about a little 
crack in that pipeline.
    These are long-term issues that you are looking at. They 
are hard issues to deal with. But, yes, I would be concerned.
    Senator Begich. Do you--and I don't know the answer to 
this, and that is: Is there a research or document or 
information that is available that you utilize to talk about--
one of the things that I have done a couple times is had 
hearings and discussions on the economics of our oceans.
    Ms. Avery. Yes.
    Senator Begich. Because I think people, we talk about the 
environment of our ocean, which is important, but there is a 
whole piece to this--and I think of Ed's work and, you know, 
all the work there.
    The economics of oceans are so impactful, but there is very 
little data that you could say--you know, I could tell you all 
about, you know, wheat and the impact. I can tell you all about 
oil and gas. I can tell you about copper. But when it comes to 
the oceans, we can tell you a segment of it, fisheries to a 
certain extent, but all the science and all the other pieces 
that come from it and what that means.
    Is there really reliable or enough data out there that we 
can point to and say, this is the kind of investment we need to 
make?
    And, Mr. Cameron, I appreciate your words at the end of 
your opening comments, because it is an investment. It is not 
an expenditure, it is an investment.
    Ms. Avery. Yes.
    Senator Begich. Because if you do this right, the 
multiplier effect may be in science, may be in better 
understanding of the oceans for our own health, may be better 
understanding for extraction, as we are dealing with in the 
Arctic.
    Do you think that--and maybe it is just me not seeing all 
the information. It just seems like that is a gap, the economic 
understanding of our oceans. I don't know, Dr. Avery and Ed and 
others may want to comment on this.
    Ms. Avery. Sure. I think there is a really good strategy, 
as we look at the numbers of ocean ecosystem services that the 
ocean provides us, how you actually quantify that in terms of 
an economic value. And there have been studies that have looked 
at it. There has been some work done in terms of looking at the 
recreation and tourism industry, on the economic value of that. 
Certainly, the fisheries industry is another one, the 
aquaculture industry that derives from that.
    It is hard to put a price tag on every second breath you 
take, but----
    [Laughter.]
    Ms. Avery.--it should be a pretty high price, actually.
    Senator Begich. It is half the value.
    Ms. Avery. There is some extra value there.
    [Laughter.]
    Ms. Avery. But I think that, you know, one can always look 
at a need for more data. I think we have had a discussion 
amongst ourselves just recently about how this committee might 
take a moment to think more globally, more about what is the 
investment that has been made in the ocean, what is the return 
on that of ocean, how do you get to a certain value, both 
economically and some of the intrinsic values of the ocean. It 
certainly would be a very good discussion to have.
    Do we have good data? We always could have more, you know.
    Senator Begich. From a scientist----
    Ms. Avery. You never ask a scientist----
    [Laughter.]
    Senator Begich. I know, I know.
    Ms. Avery.--do you need more data? We will say we need more 
data.
    Laughter.]
    Senator Begich. I know. I actually, when I started to say 
that, I already----
    Ms. Avery. The wrong person to ask.
    Senator Begich. I knew I was going to open that up to a 
scientist and say we have enough.
    Ms. Avery. Yes.
    Senator Begich. There is never enough.
    Others who have maybe a comment on that?
    Mr. Cameron?
    Mr. Cameron. I would comment briefly on that if----
    Senator Begich. Sure. And then I will go to Dr. Newton.
    Mr. Cameron. I think you identified a specific gap, and it 
also reflects a perceptual gap, as well. Because, certainly, in 
government and the public's attention, we think of ocean 
problems in terms of specifics, whether it is shark finning or 
fishing nets or oil spills and that sort of thing, and we 
always picture the ocean.
    And that, in a way, allows all the states that don't have 
coastlines to just kind of shrug off the concern, when, in 
fact, what we need to do is look at major economic drivers, 
whether it is food prices and that sort of thing because crop 
yields are down because ocean precipitation is not what it was 
because ocean currents have changed because the heat flux in 
the ocean has changed as climate changes cause these effects.
    We need to think of the ocean as this engine that is 
actually driving back into the economy and creating big 
fluctuations in the bottom line, you know, billions of dollars, 
vast multiples of the amount of money it takes us to study the 
ocean and understand it.
    So I think it is this perceptual gap that needs to be 
closed, both, I think, in the public and amongst policymakers. 
It is a question of looking at all of these, let's say, you 
know, economic problems through a lens of ocean.'' And that 
might be something that this forum is best to address.
    Senator Begich. Very good. Thank you.
    Let me go to Dr. Newton, then I will go to Ed. And I 
apologize; they have indicated that we have vote that has 
started, and I don't want to--but this is interesting and one 
that we are going to continue on.
    But Dr. Newton?
    Ms. Newton. Thank you. I just wanted to agree with the 
issue of perception that Mr. Cameron brought up. I think in 
terms of--and you said it yourself, Chairman Begich, that the 
exploration and the observation of the ocean pales in 
comparison to space. And so, when you were talking about how to 
inspire kids, I think if there is more funding directed toward 
ocean exploration, there will be more activity around that.
    And I can tell you that, from my experience in academia, 
there is a perceived notion of lack of opportunity in ocean-
related jobs. But one of the things I am very proud about with 
the Ocean Observing System is there are jobs to maintain that, 
to provide the data for that.
    There is a whole host--not everybody is going to be a Ph.D. 
scientist at an academic university, but this system invests in 
people, and the more people looking at the oceans and having 
jobs in the oceans, the more kids will be inspired.
    And the second thing, really quickly, is that these systems 
provide near-real-time data over the Web. And so, classrooms--
it is one thing to teach students about phytoplankton blooms, 
and it is another thing for them to say, go on to your computer 
and look at this station and this station and this station and 
tell me if the bloom is happening. People get excited. So they 
can explore right there in their classroom.
    Senator Begich. And with kids today, it is more valuable, 
that--when I was growing up, you could do it in the book and it 
was fine.
    Ms. Newton. Right.
    Senator Begich. But today kids have a much higher demand of 
real-time.
    Ms. Newton. Right.
    Senator Begich. It is very interesting.
    Ed, if you have any--because you are on top of the oceans, 
but----
    Captain Page. I am on top. I am staying there.
    [Laughter.]
    Senator Begich. But they are connected. Without you on top, 
without them on the bottom, nothing works, you know.
    Captain Page. Right.
    Senator Begich. So any thought, Ed, you have on this? And 
then I apologize----
    Captain Page. I think you have a good point there that is 
worth exploring further--more data----
    [Laughter.]
    Captain Page.--is this holistic approach which is not taken 
right now as far as the value of the ocean, if it is 
transportation.
    And certainly in Alaska, we know for sure that Kivalina 
would not exist if there wasn't an ocean means of transporting 
those raw materials around the world, or Valdez would not exist 
if he didn't have a means of shipping it by vessel. It would be 
just too expensive to ship it out. Or the fishing wouldn't 
exist, or very nominally. We would have to wait until they came 
to our shores or into our rivers, which they don't do all the 
time.
    And so, if you start looking at if you had to do everything 
by another means of transportation, every other means of 
transportation is more expensive than going via the ocean. It 
is the most efficient way of moving goods. If you just displace 
that and said, we can't do that, it is truck or plane or train, 
suddenly you realize the economic value of just the 
transportation system.
    All those containers in L.A.-Long Beach when I was captain 
of the port, those containers would have wrapped the world 
several times over in 1 year, just coming to L.A.-Long Beach. 
If you didn't have the ships to do that, how could you possibly 
engage in international commerce? And it would change our whole 
world.
    But I don't think people understand that, because if we 
look at the value of fishery, we are all independent, but we 
never take them all together----
    Senator Begich. In a holistic way.
    Captain Page.--cumulative. So I think is a good perspective 
that maybe would open some people's eyes.
    Senator Begich. Well, let me again thank you. I have 
additional questions, but, because of time, I will need to 
submit them for the record.
    You know, to me, we sometimes undervalue our oceans or our 
lack of understanding. Or, as I described on the farm bill, if 
this was the fish bill--I mean, I talk to fishermen all the 
time, and I say, ``Imagine this,'' and I give them the 
description of the Farm bill but I just substitute ``farm'' 
with ``fish,'' and they are very excited, because the amount of 
concentration and research and activity around it and 
investment could be so substantial to their long-term future. 
And as we struggle to deal with fisheries as one element of our 
oceans to create sustainability, it is multifaceted.
    And you are right; when you are living in Kansas, the 
oceans are, you know, somewhere over there. What we have to do 
is connect it, so when someone is sitting in a small town in 
Kansas and they think about the oceans, they want to be that 
oceanographer or they want to be that scientist or that boat 
captain or they want to be out on that rig making sure it is 
done the right way.
    And that is the trick here. And this committee is focused 
on trying to elevate the issues of our oceans at a much 
different level than has been done in the past and equalize it.
    And so your thoughts today are helpful, your ideas are 
helpful. And I am sure, as time progresses here, we will be 
more in contact.
    And, obviously, up in Woods Hole, I have been there a 
couple times and always will be back. I think it is amazing 
because of your partnerships you have around the globe and in 
Alaska.
    And it is always a pleasure to see all of you so adamant 
about the oceans. So thank you very much for being here.
    The record will stay open for 10 business days for any 
additional questions that members who were not here, or here, 
may have questions they want to submit to you.
    But, again, thank you very much.
    At this time, the hearing is adjourned. Thank you.
    [Whereupon, at 4:08 p.m., the hearing was adjourned.]


                            A P P E N D I X

 Prepared Statement of Hon. John Thune, U.S. Senator from South Dakota

    Thank you, Mr. Chairman, for holding this hearing. This hearing 
exemplifies the spirit of adventure and exploration that has made this 
country what it is today--and indeed, this same spirit has defined our 
nation's history.
    From the Lewis and Clark expedition that explored the Dakota 
territory, including the important scientific observations they made as 
they traveled up the Missouri River, to more recent trips to the 
surface of Mars and the bottom of the ocean, this spirit of exploration 
is important in fostering a continued interest in science and the world 
outside our everyday lives.
    Mr. Cameron, you were the first person to return to the ocean's 
deepest point in the Mariana Trench since 1960--we appreciate you being 
here to discuss that exploration and the amazing vessel in which you 
made the dive, as well as your partnership with the Woods Hole 
Oceanographic Institution. Dr. Avery, I am interested in learning more 
about the partnerships that the Institution has forged with industry to 
spur innovation in marine robotics and other fields. I appreciated the 
opportunity to meet with both of you; as we discussed, I think that 
public-private partnership and other innovative funding models are 
especially relevant in today's budget environment.
    This is particularly true when you consider that data from our 
oceans and coasts is important for protecting lives and property at sea 
and across the country. For example, ocean observing systems provide 
data to inform long-term drought forecasts, which the National 
Integrated Drought Information System uses to provide early warnings of 
drought conditions on a regional scale. These forecasts and data 
products, in turn, help to support the livelihoods of our Nation's 
agriculture producers.
    I also want to welcome our other witnesses. Dr. Newton, we 
appreciate your testimony about the integrated ocean observing system 
as one example of leveraging non-federal assets to improve data 
collection and dissemination. Mr. Page, thank you for traveling all the 
way from the ``Last Frontier'' to discuss the ways that regional ocean 
observing assets have supported marine transportation in and around the 
State of Alaska.
    Again, I thank all the witnesses for their testimony about ongoing 
research activities and how we can better leverage public and private 
sector resources when it comes to oceanic monitoring and exploration.
                                 ______
                                 
Prepared Statement of Dr. Michael Heithaus, Associate Dean, College of 
  Arts and Sciences, Florida International University, Aquarious Reef 
              Base and Partnerships in Ocean Observations

    Thank you for the opportunity to provide testimony on behalf of 
Florida International University and our efforts to build partnerships 
to ensure that NOAA's Aquarius Reef Base continues to address national 
and global priorities for marine exploration, research, natural 
resource management and STEM education. The Aquarius facility is a key 
resource for developing tools to conserve marine resources and to 
support the communities that depend upon them, as well as for inspiring 
millions of Americans to take leadership in science and the 
environment.
    Florida International University, a Carnegie community engaged 
university, is a young and rapidly expanding public research 
institution. FIU has 50,000 students and is the largest Hispanic 
Serving Institution in the Nation and among the ten largest 
universities nationwide. FIU is internationally known for its work in 
marine biology and coastal marine sciences. FIU is a significant 
research partner with NOAA: NOAA's national Hurricane Center is located 
on the FIU campus and FIU is a member of NOAA's Cooperative Institute 
for Marine and Atmospheric Studies (CIMAS). Recently, FIU took over 
operations and maintenance of NOAA's Aquarius Reef Base, the world's 
only underwater marine laboratory and habitat available for use to 
support ocean exploration, research and STEM education.
    In addition to graduate and undergraduate education, FIU is deeply 
engaged with K-12 and community education and outreach. Its dedication 
to improving K-12 education is highlighted by its newly formed STEM 
Transformation Institute and environmental education programs.
National Needs for Ocean Science and Education
    Coastal marine habitats such as coral reefs, seagrass beds and 
mangroves support the highest marine biodiversity in the world. More 
than 500 million people worldwide depend upon them for food 
(fisheries), storm protection, jobs and recreation. Their resources and 
services are worth an estimated 375 billion dollars each year to the 
global economy, yet they cover less than one percent of the Earth's 
surface. There is an urgent need to develop scientifically based tools 
for conserving these habitats and where feasible restoring the 
ecosystem services they deliver.to millions of people around the world. 
While the Deepwater Horizon Incident highlighted the interconnectedness 
and susceptibility of marine ecosystems to human activities, global 
threats including climate change and ocean acidification have the 
potential to cause even more wide-spread and profound damage. Coral 
reefs and other coastal ecosystems that provide huge economic benefits 
are particularly susceptible to climate change and other human caused 
stresses. The next decade will be pivotal in whether society can 
successfully chart a path to a sustainable ocean future with thriving 
ecosystems and coastal human communities.
    Overcoming the threats facing ocean ecosystems while ensuring that 
human needs for ocean resources are met requires a multidisciplinary 
approach that involves coastal ocean observing systems to monitor 
ecosystems, in-ocean experiments to understand the nature of threats 
and to develop solutions, development on new technologies for ocean 
observing and underwater industrial activities, high-value public 
outreach to communicate the importance of ocean ecosystems and 
solutions to threats to their health, and K-12 education programs and 
teacher development to inspire the next generation of STEM 
professionals and marine scientists.
    How do we move forward to ensure that we, as a country, are able to 
accomplish this approach? The answer lies in diverse partnerships, 
innovative technology, and human exploration and imagination.
Aquarius Reef Base
    The Aquarius is the only operating undersea laboratory, 43 feet 
long by 9 feet in diameter that houses six aquanauts on the ocean floor 
60 feet below the surface for 10-31 days at a time. The habitat, the 
world's only operational marine habitat dedicated to science and 
education, is a national treasure owned by NOAA. It has been sited in 
the Florida Keys Marine Sanctuary off Key Largo for 20 years and has 
proven to be instrumental in the advancement of oceanic research, 
engaging America's future leaders through ocean-inspired learning, and 
serving as a catalyst for development of the next generation of marine 
and extra planetary explorers and exploration technologies. Research at 
Aquarius has directly guided the stewardship of not just the Florida 
Keys National marine Sanctuary, but other coral reef ecosystems both in 
the U.S. and worldwide.
An ocean observatory
    Aquarius provides an ideal platform for long-term monitoring of 
coastal oceans and coral reefs. It will serve as a permanent station, 
providing real-time and long-term data on the marine environment, which 
will serve as an early-warning system for impacts to ocean ecosystems 
both locally and globally. Because it can provide stable power, has a 
scalable IT infrastructure that facilitates innovative sensor 
deployment, utilizes the latest industry communication technology that 
offers a reliable means to transmit data and video, and is the only 
manned ocean observing platform that allows for data ground-truthing 
and sensor design and testing Aquarius will become a world-class ocean 
observation platform that will facilitate monitoring and 
experimentation on, among other issues, the impacts of ocean 
acidification on coral reefs, seagrass meadows and a diverse array of 
ocean organisms. The position of Aquarius makes it particularly well-
suited for studies of ocean acidification because it sits between 
seagrass meadows, which remove CO<INF>2</INF> that causes 
acidification, and the coral reefs and open ocean that will be most 
impacted. The data generated by Aquarius will be critical for guiding 
policy and conservation management to preserve these critical 
ecosystems and potentially mitigate acidification worldwide.
    Finally, Aquarius Reef Base is, quite simply, the best platform for 
observing the condition of the Florida Keys National Marine Sanctuary 
(FKNMS). The National Marine Sanctuaries Act was intended to identify, 
designate, and comprehensively manage marine areas of national 
significance. National marine sanctuaries are established for the 
public's long-term benefit, use, and enjoyment. As home to the largest 
continental coral reef ecosystem in the U.S., upon which the economy of 
south Florida is based, the FKNMS was designated. Sanctuary status is 
designed, among other things, to:

  <bullet> Enhance resource protection through comprehensive and 
        coordinated conservation and ecosystem management that 
        complements existing regulatory authorities.

  <bullet> Support, promote, and coordinate scientific research on, and 
        monitoring of, the marine resources of the Florida Keys to 
        improve management decision-making

  <bullet> Enhance public awareness, understanding, and the wise use of 
        the marine environment through public interpretive, 
        educational, and recreational programs.

    Aquarius is superbly enabled to facilitate all of these goals of 
the FKNMS--with a special emphasis on the unique interpretive and 
educational programs it allows. A manned presence on the sea floor--and 
the ability of citizens to share in that experience through traditional 
media outlets as well as live over the internet, ignites the 
imaginations of future scientists and educators like nothing else!

Fostering innovation
    Because of its well-studied and strategic location, highly-trained 
and competent staff, land-based and boat-based support infrastructure, 
stable power supply and climate-controlled conditions, Aquarius 
provides the ideal location for the deployment, development and testing 
of new technologies. This is especially true for work that requires a 
human presence, since inventors, engineers and technicians can have 
their hands on their technology 24 hours a day for as long as a month 
during critical R&D stages. And, these same capabilities make Aquarius 
the ideal place to compare competing technologies in a test-bed 
environment.

STEM education: inspiring the next generation
    Because of its ability to capture the imagination of an entire 
country and world through the eyes of people living under the sea, 
Aquarius can play an important role in ensuring American 
competitiveness for generations to come. Equipped with the ability to 
send live video from the habitat and surrounding waters to schools, 
universities, aquariums, and museums around the country, Aquarius can 
reach millions of students and citizens every year while actual 
scientific and training missions are underway. They can watch science 
while it is happening and experience it through the eyes of scientists, 
students, and teachers living and working underwater! They can even 
interact with the aquanauts! Watching people living and exploring the 
ocean captivates and inspires people, especially young students, in 
ways that remote sensing cannot. The personal connection to ocean 
exploration, coupled with high-quality curriculum, will inspire a 
generation of students and motivate understanding, achievement and 
career choices.

Funding Aquarius: a model of Public-Private Partnerships
    Florida International University took over operation of Aquarius 
Reef Base in 2013 and has undertaken a transformation of its business 
model. Aquarius is transitioning to being supported by a blend of 
partnerships with private industry, user fees, private philanthropic 
donations, and state and Federal research and education grants. This 
new business model will ensure that Aquarius will be available and 
providing significant benefits to American taxpayers for years to come 
while lessening the tax dollars invested in its continuation. FIU is 
partnering with the Aquarius Foundation, a not for profit dedicated to 
the support of the Aquarius project.
    There has been a public outpouring of support for Aquarius when 
NOAA signaled a desire to close the lab. One of the first groups to 
step in in to support was the Diver's Alert Network (DAN). Stephen 
Frink, of DAN, agreed to serve on the board of the Aquarius 
Foundation--which formed to save Aquarius. DAN has accepted donations 
for Aquarius and sponsored an end-of mission fundraising event after a 
mission led by Dr. Sylvia Earle, who also sits on the board of Aquarius 
Foundation.
    Since FIU took over the operation of Aquarius Reef Base, we have 
been approached by companies interested in testing equipment for the 
oceanographic, maritime industry, oils and gas exploration, extraction 
and delivery, and aerospace applications. We have also had contact with 
private aerospace companies--as well as NASA--since Aquarius provides 
the only facility of its kind for training astronauts in an extreme, 
high-stakes, environment. We also have received considerable interest 
from media companies and are developing partnerships with the local 
dive operators in the Florida Keys to enhance their business while 
providing funding for Aquarius.
    Recognizing its incredible value for marine sciences and education, 
we have begun to build important partnerships with groups and 
individuals interested in helping provide financial support for FIU and 
Aquarius. One individual has pledged $1.25 million, and assistance 
raising further funds, pending a long-term agreement with NOAA on the 
future of the base. We have been partnering with Edeavorist.org to 
assist with the optimization of this crowd funding platform, which will 
feature Aquarius's Teacher-Under-the-Sea program for the platform's 
launch in July 2013. Also, FIU and Guy Harvey Foundation are working on 
a partnership to enhance marine education for K-12 students.

A Need for Continued Federal Support
    Key, however, to realizing the potential of the growing public 
private partnerships for operating Aquarius is continued support from 
the Federal Government. The investment need not be considerable. FIU 
and its private partners needs NOAA to agree to a three-year plan that 
will transition the base from its previous position of complete Federal 
support to the new mix of industry, governmental and philanthropic 
support. This three-year plan must deal with issues remaining about the 
liability for operation and eventual decommissioning of the facility.
                                 ______
                                 
  Written Testimony from Julie Thomas, President, The IOOS Association
    Chairman Begich, Ranking Member Rubio, and members of the 
Subcommittee.

    I am writing on behalf of the Board of Directors of the Integrated 
Ocean Observing System (IOOS) Association to urge reauthorize the 
Integrated Coastal Ocean Observing Act of 2009'' (ICOOS Act). The IOOS 
Association is a non-profit organization dedicated to improving the 
Nation's ability to observe our oceans, coasts and Great Lakes and to 
making that information available to a wide variety of users in a 
timely manner. The ICOOS Act provides the legal and institutional 
framework for the federal-regional partnership that comprises the 
Integrated Ocean Observing System (IOOS). Reauthorization of the Act 
will ensure this capability is sustained and enhanced.

Background
    Our nation's health, prosperity and security are directly linked to 
the Nation's oceans, coasts and Great Lakes. Over 50 percent of our 
nation's residents live in coastal areas, and the ocean and Great Lakes 
economies contribute more than $223 billion to the Gross Domestic 
Product and support in excess of 2.6 million jobs.\1\ These trends are 
expected to grow in the future.
---------------------------------------------------------------------------
    \1\ NOAA. 2013. National Coastal Population Report. Population 
Trends from 1970 to 2020.
---------------------------------------------------------------------------
    The U.S. IOOS provides a unique national capability that is 
necessary to meet our nation's current and future needs for sustained 
ocean observations and products. Sustained observations from buoys, 
gliders, shore stations and other platforms are integrated, analyzed 
and transformed into actionable information through models and data 
management systems. Data and information from U.S. IOOS aids:

  <bullet> the safe passage of large, ocean-going tankers to enter U.S. 
        ports;

  <bullet> the U.S. Coast Guard in their search and rescue efforts by 
        providing, in real time, information on the speed and direction 
        of ocean currents;

  <bullet> shellfish growers in the Pacific Northwest so they can 
        protect young larvae from lethal, acidic ocean water masses;

  <bullet> emergency managers preparing for extreme events such as 
        hurricanes by providing them information related to storm 
        surge; and

  <bullet> resource managers concerned with how ocean conditions affect 
        living marine resources, hypoxia and harmful algal blooms.

    The Integrated Ocean Observing System (IOOS) is a partnership 
between 17 Federal agencies and a network of 11 regional systems that 
provide services to the entire coastline of the U.S., including the 
Great Lakes. The ICOOS Act provides the framework for building a 
``system of systems'' that links and enhances our existing observing 
capacity. It is an innovative approach for government, one that relies 
on partnerships to be cost-effective and responsive. And, it is 
working.
    Sometimes called the ocean analog of the National Weather Service, 
IOOS is a novel approach to addressing the critical gaps in the 
Nation's ocean, coasts and Great Lake observing systems. It brings 
together national and regional observing systems to address critical 
societal needs, fill gaps and harness innovation for system improvement 
and cost-effectiveness.
    IOOS is good government. One of the goals of IOOS is to create a 
single system that can serve multiple national and regional missions. 
Instead of each mission agency or regional program creating its own 
issue-specific ocean and coastal observing system, IOOS strives to be 
one system that can be used by many agencies, programs and individuals. 
For example, real-time information on the speed and direction of 
surface currents is used by the U.S. Coast Guard in search and rescue 
operations, by fisheries managers to model the transport of fish 
larvae, by regional scientists to forecast harmful algal blooms and by 
public health officials to understand beach water quality. Measure 
once, use multiple times is the IOOS mantra.
    The IOOS data management system is based on standards and protocols 
and allows for the seamless integration of data between the regional 
systems and the Federal agencies. Data from regional systems are now 
available to Federal agencies and have proven to be extremely valuable. 
Today, over 50 percent of the data provide to the Global 
Telecommunication System by NOAA's National Data Buoy Center (NDBC) now 
comes from non-federal sources, most of which is directly attributable 
the IOOS data management system and the work being done and supported 
by the Regional Associations.

IOOS Is Making a Difference
    Examples of how IOOS is making a difference are numerous. Here are 
a few highlights of the program's accomplishments over the last ten 
years:

  <bullet> Superstorm Sandy. During this extreme event, the marine 
        transportation industry in the New York/New Jersey area made 
        preparations based on forecast products derived from IOOS 
        observations. In the Port of New York and New Jersey, all 
        vessels were moved from anchorages in the Harbor. Over 6,700 
        containers--valued at approximately $1 Billion \2\--were 
        diverted from the New York/New Jersey area to Virginia.
---------------------------------------------------------------------------
    \2\ Marine Technology Society. 2012 TechSurge Event.

  <bullet> Deepwater Horizon Spill. During the response effort 
        following the 2010 oil spill, the Unified Area Command was able 
        to access data and model output from universities, state 
        agencies and private companies, increasing their understanding 
        of the ocean conditions affecting the path of the oil. This was 
        the first time that Federal responders had routine access to 
        non-federal information and was enabled by the protocols 
---------------------------------------------------------------------------
        developed by the IOOS data management system.

    Much of the oil from the spill remained subsurface where, despite 
        technological advances, we still lacked the ability to readily 
        monitor the flow of oil. IOOS, through its regional network, 
        accessed several underwater gliders from around the country and 
        redeployed them in the gulf to assist with subsurface 
        monitoring efforts. This unique and flexible capability is one 
        of the hallmarks of the IOOS system.

  <bullet> Search and Rescue. IOOS supported the development of the 
        ``National Surface Current Mapping Plan'' that calls for a 
        network of shore-based radars to detect surface currents in 
        real time. While only a quarter of the national plan has been 
        built to date, it is proving to be a powerful tool. Real-time 
        information from the network feeds directly to the U.S. Coast 
        Guard for use in search and rescue efforts. The Coast Guard 
        estimates that the information can reduce their search areas by 
        two-thirds, thereby greatly increasing the chances of safe 
        recovery.

IOOS Leads to Innovative Solutions
    In tight fiscal times, IOOS provides a pathway for bringing forward 
new solutions to challenges faced in sustainably using and managing our 
nation's oceans, coasts and Great Lakes, and will play an ever-
increasing role in meeting our nation's need for coastal ocean data and 
information. IOOS is a flexible system that can facilitate the 
transition from research and development to operations. IOOS's 
capability to move vital observing assets from research institutions 
into operations in support of Federal response missions has been 
demonstrated, and will continue to be deployed to address unexpected 
events around the country. Regional observations are efficiently 
filling critical gaps not currently being met by our Federal partners. 
IOOS is harnessing the flexibility and innovation of private and 
academic research and development capability.
    The networked capability represented by IOOS works, and has 
repeatedly demonstrated its value. In short, IOOS is unique; IOOS is 
efficient; and IOOS is the future.
Specific comments on reauthorization
    The ICOOS Act of 2009 provides the solid foundation for U.S. IOOS 
that allows for innovation, leveraging of resources, and the creation 
of partnerships and for the standards and protocols that allow for 
seamless transition of data and information between the regional and 
Federal programs.

Authorization Levels
    We are extremely concerned about the authorization levels for the 
program and its ability to meet societal needs or to respond to the 
next hurricane, severe flooding, storm surge or oil spill. The regional 
IOOS systems have been operating for over a decade and are in need of 
repairs and upgrades. Measured, reasonable growth ensures that assets 
would not be removed from the water, the quality of data would not be 
deteriorate because of delayed maintenance and upgrades, and 
information products would not become outdated without adequate staff 
to ensure quality.
    The buoy network in the Northeast U.S. illustrates the impact of 
such delayed maintenance. The array has successfully operated for over 
ten years, reliably transmitting hourly data to users dependent on that 
information. However, maintenance and repair trips have been reduced 
from twice a year to just once a year. Buoys that have withstood 
extreme waves and winds are now breaking free. Data modems that 
transmit the data in real time are failing, causing great concern to 
many including scientists charged with providing forecasts of red 
tides, the harmful algae that is so toxic to clams and other shellfish. 
The Northeast system needs to be repaired and upgraded so that it can 
be fully functional when the next hurricane or nor'easter happens. This 
regional system is not the only one that needs such repairs and 
upgrades. The other ten regional IOOS systems are also facing similar 
issues.
    We encourage the Committee to use the Congressionally-mandated 
``Independent Cost Estimate (ICE) for U.S. IOOS'' \3\ as a resource for 
determining the authorization levels to include in the ICOOS 
Reauthorization Act. NASA's Jet Propulsion Laboratory completed the 
cost estimate in 2012 based on regional and Federal plans for 
addressing critical societal needs. The ICE estimates that the IOOS 
system would cost $591 million per year once it is fully built ($534 
million for the regional systems, $57 million for the central functions 
of the U.S. IOOS Program Office). Full build out of the system would 
take 10 years to achieve.
---------------------------------------------------------------------------
    \3\ Interagency Ocean Observing Committee. 2012. Independent Cost 
Estimate for the U.S. Integrated Ocean Observing System. Prepared by 
NASA's Jet Propulsion Laboratory Earth Science and Technology 
Directorate.
---------------------------------------------------------------------------
    A phased approach for building the system over the next five years 
would allow for reasonable and measured growth of the program. The 
following chart is based on the ICE, beginning with the President's 
Budget Request for IOOS in the Fiscal Year 2014.

------------------------------------------------------------------------
  Fiscal Year      Regional Line      National Line          Total
------------------------------------------------------------------------
2014                       $34.5 m             $ 6.5m             $ 41 m
2015                        $ 39 m             $ 10 m             $ 49 m
2016                        $ 44 m             $ 15 m             $ 59 m
2017                         $ 55m             $ 20 m             $ 75 m
2018                        $ 66 m             $ 25 m             $ 91 m
------------------------------------------------------------------------

    The ICOOS Act must allow for the reasonable and justifiable growth 
of the program. The authorization level should be commensurate with the 
critical importance of IOOS to jobs and the economy, safety and quality 
of life.
    Clarifying the role of the regions. The Act refers to the regional 
IOOS partners as ``Regional Information Coordinating Entities'' and 
notes that this includes the existing Regional Associations, the term 
that is widely used for the regional IOOS systems. The wording is 
confusing and has raised questions as to whether the Regional 
Associations are the RICEs or if there is a difference between the 
regional coordinating entities and the Regional Associations. The 
existing regional framework of IOOS welcomes the participation by all 
concerned parties, allows for open competition to serve regions every 
five years and actively encourages the involvement of data providers. 
This framework is based on consideration of marine ecosystems, 
geography, and political and economic issues. The delineations are 
similar to many other regional approaches adopted by Federal agencies. 
Existing Regional Associations foster integration and partnerships 
across the regions, and we encourage the use of the term Regional 
Associations in the Act.
    Interagency Financing. IOOS is an interagency program intended to 
foster partnerships among Federal agencies and regional partnerships. 
The transfer of funds among agencies is an important part of this 
partnership. Unfortunately, agency lawyers have found that the existing 
language in the Act is not sufficient to allow to enable efficient 
transfer of funds between Federal agency partners.
    Certification. The Act requires that the Regional Associations be 
certified to ensure regional systems have the capacity to fulfill their 
obligations. In addition, data management certification standards are 
to be developed to ensure the quality of IOOS data. The IOOS Program 
Office has been working on these requirements over the last five years 
and is expected to soon release a draft of the certification standards 
for public comment. We understand that NOAA is proposing to separate 
the regional association certification standards and the data quality 
certification standards in their proposed rule since the two sets of 
standards are very different. We support that approach, and it should 
be adopted in the ICOOS Act.
    Liability. The ICOOS Act currently extends liability coverage to 
the regions operating. This is a critical issues for the program, 
allowing IOOS to serve data and, information in real time. NOAA lawyers 
are proposing to limit this coverage to just 3 regional employees. 
Liability coverage should not be predetermined by an arbitrary number 
but rather by the circumstances of the situation. The Act should 
clarify this provision.
    Thank you for your consideration of these comments. Please let us 
know if you have questions or require additional information.
            Sincerely,
                                              Julie Thomas,
                                                             Chair,
                                                      IOOS Association,
                               c/o University of California, San Diego,
                                   Scripps Institution of Oceanography.
                                 ______
                                 
                        Port Townsend Marine Science Center
                                    Port Towsend, WA, June 18, 2013

    Dear Chairman Begich, Ranking Member Rubio, and members of the 
Subcommittee,

    I am writing to support the re-authorization of the Integrated 
Coastal and Ocean Observing System (ICOOS) Act and the Federal Ocean 
Acidification Research and Monitoring (FOARAM) Act. These were recently 
discussed at a hearing called ``Deep Sea Challenge: Innovative 
Partnerships in Ocean Observation'' held before the U.S. Senate 
Committee on Commerce, Science and Transportation, Subcommittee on 
Oceans, Atmosphere, Fisheries and Coast Guard on June 11, 2013.
    At this time of rapid climate change and ocean acidification, both 
of these Acts enable monitoring and collection of data essential to 
evaluate and respond to changes in ocean systems. This data informs 
everything from meteorology to fisheries, shellfish growing to modeling 
of changes in climate and sea level. Through these Acts, resource 
managers and scientists will have near real-time data essential to 
understanding ocean acidification, drivers and effects.
    Because of the ICOOS Act, IOOS and NANOOS, its regional entity in 
the Pacific NW, have been able to bring together regional Federal and 
non-federal partners to create a system of observing platforms, data 
delivery, modeling, and outreach that leverages existing assets, non-
federal investments, and communities of practice. Of special note, 
NANOOS has reached out to engage the public in understanding the value 
of ongoing ocean observation. Because of the FOARAM Act, NOAA's OAP has 
been able to further assessment of ocean acidification nation-wide. The 
OAP has been adept at working with the IOOS regional associations, such 
as NANOOS, to maximize their investment.
    Re-authorization of these two Acts will serve our nation's economy, 
environmental quality, and quality of life. Please lend your full 
support to these critical efforts.
            Sincerely,
                                                Jean Walat,
                                                  Program Director,
                                   Port Townsend Marine Science Center.
                                 ______
                                 
                                    Puget Sound Partnership
                                          Takoma, WA, June 18, 2013

Hon. Mark Begich,
Chair,
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard,
Committee on Commerce,
United States Senate,
Washington, DC.

Hon. Marco Rubio,
Ranking Member,
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard,
Committee on Commerce,
United States Senate,
Washington, DC.

Re: Re-authorization of the Integrated Coastal and Ocean Observing 
            System Act and the Federal Ocean Acidification Research and 
            Monitoring Act

Dear Chairman Begich and Ranking Member Rubio:

    Thank you for holding the recent hearing regarding the ``Deep Sea 
Challenge: Innovative Partnerships in Ocean Observation.'' As the Chair 
of the Puget Sound Partnership Leadership Council, I am writing in 
strong support for the re-authorization of the Integrated Coastal and 
Ocean Observing System (ICOOS) Act and the Federal Ocean Acidification 
Research and Monitoring (FOARAM) Act. Both of these Acts support 
monitoring and assessment of coastal ocean and inland waters that are 
needed globally, and that are essential in managing the effectiveness 
of ecosystem recovery efforts in Washington State's Puget Sound.
    The U.S. Environmental Protection Agency's approved Comprehensive 
Conservation and Management Plan for Puget Sound, called the Action 
Agenda, has prioritized three strategic initiatives for restoring water 
quality: restoration and protection of habitat, recovery of shellfish 
beds and abating pollution from stormwater runoff. Scientific 
monitoring of the effectiveness of the strategies employed is critical 
for adaptively managing recovery work and ensuring efficient use of 
public and private investments.
    Through the NOAA Ocean Acidification Program (OAP), the U.S. 
Integrated Ocean Observing System (IOOS), its regional association, the 
Northwest Association of Networked Ocean Observing Systems (NANOOS) and 
others, these Acts result in near real time data shared with affected 
parties (e.g., shellfish growers, tribes, and landowners) and 
scientific quality data for researchers and agencies. In Puget Sound, 
over six marine water profiling monitoring buoys are providing data 
that directly support Sections 303(d) and 305(b) of the Clean Water 
Act. These data feed the environmental indicators and 2020 recovery 
targets that allow our partners to assess ocean acidification, salmon 
recovery, dissolved oxygen and other environmental concerns.
    Washington State is poised to implement the recommended actions 
from Governor Gregoire's Blue Ribbon Panel on Ocean Acidification. In 
doing so, our state recognizes the value that Federal investments in 
IOOS, NANOOS, and NOAA's OAP have for our ability to implement these 
recommendations. Because of the ICOOS Act, IOOS/NANOOS have been able 
to bring together regional Federal and non-federal partners to create a 
system of observing platforms, data delivery, modeling, and outreach 
that leverages existing assets and non-federal investments.
    Re-authorization of the ICOOS Act and FOARAM Act will serve our 
nation well by providing high quality and timely data that guides 
economic decisions and benefits the environment and our quality of 
life. I respectfully request your leadership in re-authorizing these 
Acts.
    Thank you for your consideration of this request.
            Sincerely,
                                         Martha Kongsgaard,
                                          Leadership Council Chair.
cc: The Honorable Maria Cantwell, U.S. Senate
Jan Newton, Ph.D., University of Washington
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Amy Klobuchar to 
                           Dr. Susan K. Avery
Discover of New Medicines
    Question 1. The Mayo Clinic in Minnesota is known for pioneering 
research to discover new treatments and medicines. You mentioned that 
when it comes to exploration of the ocean we have untapped potential, 
which includes new medicines. What technology is currently being used 
to collect data for discovery of new medicines when it comes to ocean 
research?
    Answer. Scientists at Woods Hole Oceanographic Institution explores 
microbial chemical ecology and the interplay of applications in 
biomedicine to discover chemotherapies for human betterment. One 
specific research project area has to do with microbially-derived 
molecules that could aid in the problem of antibiotic resistant 
pathogens.
    Antibiotics have been one of the greatest contributions to human 
health, however, the discovery of new antibiotics has not kept pace 
with the growing threat of bacterial antibiotic resistance. With the 
lack of new antibiotics in the drug discovery pipeline, especially for 
Gram-negative infections, a new strategy needs to be implemented to 
both preserve the clinical effectiveness of existing antibiotics and 
block the progression of antibiotic resistance. Multidrug transporters 
have been determined to be a key target in these efforts.
    The search for molecules of pharmacological significance to reverse 
drug resistance has benefited enormously from understanding the natural 
history of chemical interactions among marine microorganisms. For 
instance, some recent findings in have led scientists to suspect that 
microbes in certain marine habitats produce diverse molecules that 
inhibit these multidrug transporters of various types.
    A powerful aspect of the WHOI culture collection is that it has a 
high degree of associated phylogenetic and ecological metadata that can 
be mined. For example, nearly all of our cultures have been 
characterized by small-subunit Ribosomal RNA gene sequence (a gene 
common to all cellular life that can be used as a type of 
identification ``barcode''). In addition, copious metadata are obtained 
during collection of our isolates, including GPS coordinates, salinity, 
temperature, depth, nutrients, oxygen saturation, light regime and so 
on. The substrate or host information that the microbes were cultivated 
from is also recorded. All of these data enable us to have a deeper 
understanding of the microbial habitat that the organisms naturally 
resided. For example, if a specific bacterium within the Vibrio clade 
that was collected from the surface of a diatom (phytoplankton) 
produced a low-level hit in our screening, we can go back to our 
collection database and search all vibrios of that ancestry (phylotype) 
or ecotype (or both). Those isolates can then be re-screened, 
prioritized for re-growing under different conditions and chemically 
derivitized. This type of phylotype/ecotype bioprospecting is an added 
rational dimension provided by our approach. A far cry from the purely 
discovery-based old days of ``find `em and grind `em.''
    As this work proceeds WHOI researchers will be seeking a biomedical 
partner, likely in the private sector, to develop our drug leads into 
actual approved drugs. Although there are some NIH sponsored programs 
for pre-clinical drug development that we will explore as well.

    Question 2. Are there opportunities for partnership between private 
sector companies and researchers to utilize existing infrastructure, 
such as telecommunications cables on ocean floor beds, to collect data 
which could lead to a better understanding of new species and/or 
medicines?
    Answer. Two obvious private sector infrastructure opportunities to 
support basic ocean research include telecommunication cables and 
commercial shipping. Both of these sources offer considerable 
opportunity to provide a much more comprehensive picture of many 
physical, geological and some biogeochemical processes in the oceans. 
Placing sensors at regular intervals on telecommunication cables could 
greatly increase our awareness of changes in ocean physical processes 
that are important for understanding how the ocean is responding to 
climate warming, including changes in physical and biological 
processes. There is currently an effort to use the extensive telecomm 
cable network supporting the oil and gas platforms throughout the Gulf 
of Mexico to support elements of a regional ocean observing system. 
Another suggestions include the placement of pressure sensors on cables 
to support a tsunami network and the inclusion of listening posts for 
marine mammals and fish that have been outfitted with acoustic tags.
    Similarly, commercial shipping traffic that operate on regularly 
scheduled routes are being outfitted with sensors and sounders to 
supplement data collected in the EEZ and international waters during 
research cruises and by the vast network of ARGO floats. As sensor 
technology advances these devices will expand to include the capacity 
to monitor biological activity, increasing our awareness of changes in 
biological productivity below the surface in the open ocean, where 
satellites are unable to penetrate.
    However, there are considerable financial and legal issues that 
complicate the implementation of these strategies. From the financial 
perspective, the operators of commercial systems and infrastructure can 
expect some level of financial support for the use of their assets. 
Submarine cable operators in particular consider their capacity to 
provide both power and data transmission capabilities a potentially 
valuable commodity that can help offset infrastructure construction and 
maintenance costs.
    The other major difficulty is the unsettled legal environment 
surrounding the collection of scientific data from the EEZ of nations. 
Uncertainty and disputes over treaty interpretation and national 
regulation of marine data collection create potential regulatory 
burdens and risks, though particulars vary with each coastal state. 
There are also sovereignty concerns, rightly or wrongly, with some 
coastal states worrying that dual telecomscience cables will be used 
for covert energy exploration or surveillance of military activities. 
Difficulties surrounding what constitutes marine scientific research 
will hamper the potential to fully exploit the scientific benefits of 
existing marine infrastructure, a situation that would be improved, but 
far from solved, if the U.S. eventually accedes to UN Convention on the 
Law of the Sea.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Amy Klobuchar to 
                             James Cameron

Need for STEM Education
    You mentioned in your testimony that STEM education is critical to 
our future, in relation to understanding the ocean for a number of 
purposes. You say that we need to inspire children to want careers in 
Science, Technology, Engineering and Math.

    Question. Because innovative technologies are needed to further 
explore the deep ocean, how vital is STEM focused education for deep 
sea exploration? We know there are partnership programs to entice 
students and companies to pursue investing in STEM education, and more 
specifically ocean exploration technologies, what do you feel makes 
these partnerships successful, and what more needs to be done?
    Answer. The issue of the importance of STEM education to ocean 
exploration goes in both directions; the ocean science community is 
dependent upon a highly trained scientific and technology savvy 
workforce, but it is also provides an attractive and effective 
mechanism to interest and engage students in STEM disciplines. One 
example is growing student interest in robotics in general while 
underwater robotics provides the increased attraction of applying this 
interest to ocean exploration. The ocean science community remains 
fully committed to supporting the STEM education initiative, which 
includes direct interaction with students at all levels of the academic 
spectrum, from K-12 through post-doctoral students.
    What has helped make many marine education partnership successful, 
perhaps first and foremost, is the hands-on engagement of students with 
scientist, in the field, in the lab, and for post-graduate level, in 
the agencies, where particpants gain a better understanding of the 
context within and drivers behind the work is being done. It is 
difficult to overstate the importance of establishing a direct 
relationship between students and scientists, since these interactions 
provide much of the intellectual stimulus that rewards the participants 
and provides the foundation for the continuation of these efforts with 
the encouragement and support of the participants.
    As for what is needed to improve the success of these efforts, 
there are multiple suggestions. One of the biggest growth areas in 
ocean studies at present is the huge expansion in data volumes 
associated with all aspects of the research. This means that the next 
generation of ocean scientists and engineers will need to be far more 
numerate and computer literate that ever before. Researcher today must 
deal with immense volumes of data, which has resulted in the growth of 
the field of ocean informatics, which represents the union of 
oceanography, information science and social science domains. 
Infomatics' focus is to design a thick infrastructure that enables 
interoperability and facilitates collaborative science and scientists. 
The term is used simultaneously today in a variety of ways, emphasizing 
applications of information technology, representing natural or human 
systems, and exploring multifaceted sociotechnical issues. Thus, one of 
the key ingredients to future success will be the ability to transfer, 
store and manipulate these large data sets more effectively and more 
efficiently. Important in this regard will be:

  <bullet> The use of telepresence to engage a wider number of 
        researchers, educators and their students than can participate 
        in deep ocean research directly using the traditional approach 
        of restricting participation to those at sea on research ships.

  <bullet> Improved algorithms to maximize efficiency searching larger 
        and more disbursed databases to select the most relevant data.

  <bullet> Improved forward and backward modeling of processes to help 
        anticipate where important data may arise and to help 
        prioritize where future studies should be focused to maximize 
        returns on investment.

    To date, programs such as NOAA's Ocean Exploration program, the 
Ocean Exploration Trust and the newly established Schmidt Ocean 
Institute have made great advances in bringing research and exploration 
ashore, in real time via telepresence, so that members of the public of 
all ages and abilities can follow along, in the moment. The next step 
is to move this a one-way data-stream--which is already very effective 
for outreach purposes--and provide a more engaging two-way form of 
communication. Using the same data-pipelines to harness these 
capabilities, just as has already been done for Space-based research, 
will allow for meaningful oceanographic research and education to be 
pursued without the need for all such researchers and educators to be 
aboard ship. Moving beyond the role of a distant observer, to having 
students become actively participating in authentic research in real-
time, provides for a much more engaging experience.
    Finally, there is also need for extra-curricular activities, either 
after-school or during STEM summer camps, which feature ocean 
exploration and robotics. Industry sponsorship is essential if we are 
to make after-school and summer opportunities available for all 
children, not just those whose parents can afford camp tuition. Greater 
emphasis can be placed on developing partnership programs to entice 
students and companies to pursue investing in STEM education.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                             James Cameron

    Question 1. With respect to its ability to inspire the next 
generation of scientists and explorers, what kinds of responses have 
you gotten as the DEEPSEA CHALLENGER has traveled across the country?
    Answer. The DEEPSEA CHALLENGE Tour Across America made five stops 
in the following U.S. cities between June 1 and 14, 2013: Los Angeles, 
Dallas, Atlanta, Washington, D.C., and Woods Hole, MA.
    In each of these cities, the DEEPSEA CHALLENGE team and its 
education partner, the MUSE School, coordinated with local museums and 
schools to host outreach events for student audiences with the goal of 
inspiring future generations of scientists, engineers and explorers.
    In addition to its scheduled tour stops, the DEEPSEA CHALLENGER and 
its team made numerous unscheduled stops driving across the country in 
both large and small cities including, but not limited to, El Paso and 
Odessa, Texas and Shreveport and Monroe, Louisiana. Several of these 
stops were covered by local news stations and generated significant 
community interest. A partial list of links to the coverage these 
informal stops generated is attached.
    In Washington, D.C., Mr. Cameron and the DEEPSEA CHALLENGER 
appeared at an education event that was attended by approximately 480 
students representing 18 schools spanning K-12 grade levels (a complete 
list of participating schools is attached). The following testimonials 
represent a sampling of feedback from teachers and students regarding 
their experience at this event.

  <bullet> ``Thanks again for a great day; the kids had a fabulous 
        time. We appreciate your hard work!''--Ellen Ring, Anacostia 
        High School

  <bullet> ``My students really enjoyed the event today! They 
        especially liked seeing the sub and building their own.''--
        Trilby Hillenbrand, MacFarland Middle School

  <bullet> ``All the kids had a great time at the DEEPSEA CHALLENGE 
        Expedition. Even though they had [had] a crash course about the 
        expedition, I was SO proud of their fantastic questions to the 
        engineers and scientists.''--Monica Davis, Harriet Tubman 
        Elementary School

  <bullet> ``I am going to work on my own sub over the summer. I think 
        that it should be operated by an android.''--Anonymous 4th 
        grader

  <bullet> ``Our students appreciate this opportunity. They have 
        completed oceanic internships, and have followed Mr. Cameron's 
        ocean research. We would like to collaborate with the Muse 
        school, as well as other local schools.''--Science Director, 
        Thomas Jefferson High School

    In Dallas, the expedition team partnered with the Perot Museum of 
Nature & Science to provide special programming--including a video 
conference with Mr. Cameron to which school classrooms across the 
country could link--on the subject of deep ocean science and 
exploration. In the words of the Perot Museum's Vice President for 
Programs, Steve Hinkley, ``During Jim's question and answer session . . 
. literally every question came from someone under the age of 14; it 
was one of the most impressive and encouraging things I have ever seen 
in my 17 years in education. We didn't place an age restriction on the 
audience participation, it was just the nature of the day, and the kids 
were energized.''
    The following links connect to footage of this video conference 
from within the Perot Museum's auditorium and documents the student 
audience's interactions with Mr. Cameron as they learn about the 
DEEPSEA CHALLENGER and expedition.

http://www.youtube.com/watch?v=ores5avIVwk
http://www.deepseaamerica.com/videos
DEEPSEA CHALLENGE Across America Tour--News Coverage
    The following list represents a sampling of international, national 
and local news coverage of the submersible's journey across the U.S. 
and the public's reactions to seeing it.
Editorial by James Cameron and Susan K. Avery of WHOI
http://www.huffingtonpost.com/james-cameron/a-new-age-of-
discovery_b_3421979
.html?utm_hp_ref=politics
National and International Press
Iniziato il tour da costa a costa del sottomarino Deepsea Challenger 
        ideato da James Cameron
http://blog.screenweek.it/2013/06/iniziato-il-tour-da-costa-a-costa-
del-sottomarino-deepsea-challenger-ideato-da-james-cameron-269761.php

`Deepsea Challenger'--Gulf Times
http://www.gulf-times.com/us-latin%20america/182/details/355953/
`deepsea-challenger'

James Cameron recorre EEUU con el minisubmarino ``Deepsea Challenger''
http://www.latercera.com/noticia/tendencias/2013/06/659-527899-9-james-
cameron-recorre-eeuu-con-el-minisubmarino-deepsea-challenger.shtml

James Cameron Puts Sea Exploration Work on Hold (Arab Emirates)
http://topnews.ae/content/216537-james-cameron-puts-sea-exploration-
work-hold

James Cameron llega con su minisubmarino ``Deepsea Challenger'' a 
        Washington
http://noticias.terra.cl/ciencia/james-cameron-llega-con-su-
minisubmarino-deepsea-challenger-a-
washington,f0053de2b4c2f310VgnCLD2000000ec6eb0aRCRD.html

Debut de la mission Deepsea Challenge de James Cameron
http://www.nationalgeographic.fr/1519-mission-deepsea-challenge-james-
cameron/

Hollywood Director James Cameroon tells Senate Panel to Boost Ocean 
        Research
http://frenchtribune.com/teneur/1318598-hollywood-director-james-
cameroon-tells-senate-panel-boost-ocean-research

James Cameron llega con su minisubmarino ``Deepsea Challenger'' a 
        Washington
http://www.noticias24.com/gente/noticia/101679/james-cameron-llega-con-
su-minisubmarino-deepsea-challenger-a-washington/

James Cameron: We're still living in an age of exploration
http://www.salon.com/2013/05/31/
james_cameron_were_still_living_in_an_age
_of_exploration_partner/

James Cameron: `Deep sea exploration could help predict tsunamis'
http://www.cnn.com/2013/06/06/tech/james-cameron-deep-sea-exploration/
index.html

Deep Thoughts: James Cameron on the New Age of Exploration and His 11-
        Kilometer Dive to the Challenger Deep, Part 1
http://news.yahoo.com/deep-thoughts-james-cameron-age-exploration-11-
kilometer-103000662.html

Special Rolex Deepsea Challenge Exhibition in Aventura
http://www.hauteliving.com/2013/06/special-rolex-deepsea-challenge-
exhibition-in-aventura/364382/

James Cameron Puts Sea Exploration Work on Hold
http://topnews.ae/content/216537-james-cameron-puts-sea-exploration-
work-hold

NG Kids Reporter Visits the Deepsea Challenger Sub
http://www.heralddeparis.com/ng-kids-reporter-visits-the-deepsea-
challenger-sub/209843

Los Angeles, CA
Submarine piloted by James Cameron to begin cross-country journey
http://www.latimes.com/local/lanow/la-me-ln-james-cameron-sub-20130601,
0,3530910.story

James Cameron's DeepSea Challenger Begins Its Final Journey
http://www.looktothestars.org/news/10269-james-camerons-deepsea-
challenger-begins-its-final-journey

Deep Sea Exploration Will Have to Wait for `Avatar' Pics, Says Cameron
http://variety.com/2013/film/news/james-cameron-avatar-comes-before-
deepsea-challenger-1200491027/

El Paso, TX
`Deepsea Challenger' passes through El Paso
http://www.kvia.com/video/-Deepsea-Challenger-passes-through-El-Paso/-/
421452/20417798/-/gr89gz/-/index.html

Shreveport, Louisiana 
KSLA
Record breaking submarine passes through Shreveport
http://www.ksla.com/story/22503728/record-breaking-submarine-passes-
through-shreveport

Monroe, Louisianna 
KTVE
James Cameron's Submarine Stops in West Monroe
http://myarklamiss.com/fulltext/?nxd_id=221492

    KNOE
Movie Director James Cameron's submarine makes a stop in the Twin 
Cities
http://www.knoe.com/story/22504438/movie-director-james-camerons-
submarine-makes-a-stop-in-the-twin-cities

Atlanta, Georgia
Sub from Cameron solo dive to stop in Atlanta
http://www.wsav.com/story/22517087/sub-from-cameron-solo-dive-to-stop-
in-atlanta

Deepsea Challenger makes stop at Georgia Aquarium
http://www.mnn.com/earth-matters/wilderness-resources/stories/deepsea-
challenger-makes-stop-at-georgia-aquarium

For World Oceans Day: the Deepsea Challenger
http://deepseanews.com/2013/06/for-world-oceans-day-the-deepsea-
challenger/

Sub from Cameron solo dive to stop in Atlanta
http://romenews-tribune.com/view/full_story/22818514/article-Sub-from-
Cameron-solo-dive-to-stop-in-Atlanta?instance=home_news_lead_story

Washington, D.C.
The week ahead: Moniz testifies; senators dive deep
http://thehill.com/blogs/e2-wire/e2-wire/304431-the-week-ahead-moniz-
testifies-senators-dive-deep

OVERNIGHT ENERGY: Senate dives into ocean research--a James Cameron 
        production
http://thehill.com/blogs/e2-wire/e2-wire/304559-overnight-energy-
senate-dives-into-ocean-research-a-james-cameron-
production#ixzz2W1UNfHOZ

James Cameron brings his sub to D.C.
http://washingtonexaminer.com/james-cameron-brings-his-sub-to-d.c./
article/2531540

James Cameron to Show Off His Submarine Tomorrow
http://dcist.com/2013/06/james_cameron_to_show_off_his_subma.php

Woods Hole Oceanographic Institution president, ``Titanic'' director 
        head to Capitol Hill
http://www.capecodtoday.com/article/2013/06/11/19779-woods-hole-
oceanographic-institution-president-titanic-director-head-capito

James Cameron's Next Deepsea Mission: Get Congress to Pay Attention to 
        the Ocean
http://www.usnews.com/news/articles/2013/06/11/james-camerons-next-
deepsea-mission-get-congress-to-pay-attention-to-the-ocean

James Cameron and submarine stop in DC
http://www.washingtonpost.com/blogs/style-blog/wp/2013/06/11/james-
cameron-and-submarine-stop-in-dc/

Hollywood director James Cameron urges boost in oceans research
http://www.mcclatchydc.com/2013/06/11/193653/hollywood-director-james-
cameron.html

James Cameron directs Congress: fund deep sea exploration
http://washingtonexaminer.com/james-cameron-directs-congress-fund-deep-
sea-exploration/article/2531633

James Cameron takes Deepsea Challenger to Capitol Hill; pushes for 
        boost in oceans research
http://washingtonexaminer.com/james-cameron-directs-congress-fund-deep-
sea-exploration/article/2531633

    Washington, D.C. Education and Outreach Event--List of Schools in
                               Attendance
------------------------------------------------------------------------
         School Name               Grade Range         # of Students
------------------------------------------------------------------------
Stokes                         K-6                 45
Capital City                   K-8                 30
Cesar Chavez Parkside          6-8                 25
Cardozo                        9-12                30
Hart                           6-8                 30
Roots                          K-8                 25
EL Haynes                      6-8                 25
Thomas Jefferson (VA)          9-12                4
Perry St. Prep                 preK-12             25
Ideal Academy                  preK-5              25
William E. Doar                6-8                 25
Friendship Tech Prep           6-11                20
Imagine                        preK-5              20
Stuart Hobson                  6-8                 30
MacFarland                     6-8                 20
Anacostia HS                   9-12                44
DC Prep                        K-8                 11
Harriet Tubman ES              K-5                 50
------------------------------------------------------------------------
18 Schools                     ..................  484 Students
------------------------------------------------------------------------


    Question 2. You mentioned that government incentives influenced 
your decision to build some of the DEEPSEA CHALLENGER sub in Australia. 
In addition to government rebates to entrepreneurs, what are some other 
policies that can effectively spur private-sector research and 
development that you think might work in the U.S.?
    Answer. I could not provide a substantive response to the question 
to meet the deadline.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                           Dr. Susan K. Avery

    Question 1. I am a cosponsor of a bill that would reauthorize the 
National Integrated Drought Information System (NIDIS). NIDIS seeks, in 
part, to integrate multiple sources of data in order to provide useful 
information about drought conditions to end users including those in 
the private sector and at the local level. Are there any lessons 
learned from the Integrated Ocean Observing System (IOOS) experience 
that you think could apply to the model used by NIDIS? How has data 
from IOOS assets been applied to our understanding of weather patterns, 
like droughts, and how might these assets be better leveraged in the 
future?
    Answer. First, it is necessary to clearly define the Integrated 
Ocean Observing System (IOOS) as a comprehensive open ocean and coastal 
observing system, as envisioned by the visionary ocean scientists who 
have advocated for such a system for the past two decades or more. 
Unfortunately, such an operational system does not exist, at least on 
the scale required to fully observe ocean processes from the shoreline 
out through international waters, and from the surface down to the 
ocean bottom. Elements of this system are operating, including the IOOS 
program in NOAA's National Ocean Service and the global ocean reference 
stations supported by the NOAA Office of Research (OAR), the National 
Science Foundation's research-based Ocean Observatories Initiative, and 
additional observing systems supported by the U.S. Navy. However the 
Nation and Federal agencies are still lacking a coherent governance 
system and funding to support a truly operational integrated ocean 
observing system.
    This is not for lack of effort or attention given it was arguably 
the highest science priority of the congressionally-mandate U.S. 
Commission on Ocean Policy (USCOP) and the Joint Ocean Commission 
Initiative, which was co-chaired by Admiral James Watkins and the 
Honorable Leon Panetta. A key element to the success of IOOS is stable 
sustained funding. The only way to understand ocean processes, and 
changes in these processes and their influence on weather and climate 
patterns, is to establish long-term data collection systems that 
provide crucial baseline data. This baseline data provides the 
foundation for modeling and forecasting, as well as hind-casting, to 
validate and refine model accuracy. The cost of ocean and coastal data 
collection is high, given the size of the area, the harsh environment 
and cost of deploying and retrieving data collection instruments. The 
lack of a dedicated and centrally coordinated coastal and ocean 
observation and data collection program has resulted in a balkanized 
system that been receive less funding in recent years, despite 
increased recognition of the role ocean plays in climate and weather 
forecasting, including droughts.
    These same data collection systems are also necessary to validate 
and calibrate data collected by remote sensors on satellite systems, 
which cannot ``see'' below the surface of the ocean. This last point is 
significant, since the mixing of water below the ocean surface drives 
much of the heat exchange at the water/atmosphere interface, which is a 
key factor in many weather models.
    The other major lesson learned from efforts to implement an 
operational IOOS is the need for dedicated support for pragmatic, 
functional data management. Priority should be given to the easy 
submission, easy retrieval of data, over higher level functionality and 
specialized configurations that limit access to and the usability of 
data collected by various systems. Additional effort must focus on 
simplifying the data management system to ensure that data collected 
can be fully exploited by researchers across scientific disciplines.
    Despite the fractured state of current ocean and coastal 
observations, IOOS assets and related data are key to better prediction 
of improved weather, climate, and their extremes. The ocean covers 70 
percent of the land surface. It's a key source of heat and moisture 
that drive the atmosphere. Changes in the amount and location of 
moisture leaving the ocean, even at distant locations, will impact 
rainfall and drought over land. Getting sea surface temperature, upper 
ocean heat content, and the air-sea fluxes of heat, freshwater, and 
momentum correct and accurate--both from observations and how they are 
predicted/used in models is an essential part of a national strategy to 
better understand and predict drought.
    The ocean at remote global locations as well as along our coasts 
modifies the weather and climate over the U.S. Moisture flows from the 
oceans are key to understanding and predicting floods (i.e., 
atmospheric ``rivers'' pour onto the west coast, monsoonal moisture 
flows over southwest and central U.S.). Similarly, large scale ocean 
conditions and cyclic patterns, (such as El Nino and La Nina) play a 
key factor in prolonged droughts. Going forward in the future it is 
essential for the Federal Government to support more comprehensive and 
sustained coastal and global ocean observations. This effort must not 
be limited to just the collection of observations, but support the 
continuum through data management and modeling, and facilitate the 
interaction of the observing and modeling communities to maximize the 
value of the data collected and guide the evolution of observing 
systems.

    Question 2. Adequate funding to support research is one factor in 
maintaining our nation's competitiveness in science. What other factors 
have contributed to your success in facilitating partnerships with the 
private sector? What barriers have you encountered?
    Answer. Academic and independent research institutions have become 
a critical part of science enterprise of the U.S. economy, performing 
more of the basic research. Private sector business funding is 
disproportionately directed to applied research and development, moving 
promising basic research results through the development stages towards 
commercially viable products and services. This shift in focus has 
increased industry's recognition of the importance of Federal funding 
support for basic research and basic research institutions, such as 
WHOI and the academic research community.
    Beyond the increasing split in academic and private sector 
responsibility for R&D activities, WHOI is unique as an independent 
research institution with a scientific and engineering workforce that 
is fully dedicated to R&D. This is different from most other ocean 
research entities that are affiliated with formal academic research 
institutions, where the majority of a scientist's responsibility is 
associated with his or her education responsibilities. (FYI: WHOI has a 
long-standing partnership with the Massachusetts Institute of 
Technology supporting graduate and PhD level training). WHOI's 24/7 
research focus is supported by a diverse workforce of roughly equal 
number of scientists and engineers from across the spectrum of 
scientific disciplines. These individuals are supported by highly 
trained full-time technicians whose continuous training and extensive 
knowledge greatly enhances the capacity of the Institution.
    This workforce foundation and dedicated research focus is further 
enhanced by the applied focus of the resident engineers. As basic 
research transitions to applied research, supporting technology is 
refined to meet operational demands. It is at this nexus of basic and 
applied stages of research where opportunities for partnerships with 
the private sector ripen. This is made evident by the 15 companies that 
he been spun-off from WHOI licensed technology and knowledge.
    One of the challenges to developing partnerships with private 
industry is the issue of intellectual property rights. Private industry 
investment in basic research with external partners comes with the 
expectation that promising knowledge and technological advances 
resulting from this work, which it has subsidized, should provide them 
with some degree of preferential rights to capitalize on this 
information in the market place. Establishing the balance of interest 
among the partners supporting basic research and technology development 
requires careful communication among the participants and a well-
designed legal agreement. Even with these tools the challenge of 
soliciting private industry support for basic research with the 
understanding that the long-term objective is to share this information 
for the betterment of society, particularly when these funds are 
leveraged by Federal funding support for research and research 
infrastructure, is still in the process of being resolved.
    WHOI is currently in the process of working through theses 
negotiations with partners is has solicited in support of its Center 
for Marine Robotics (CMR). The CMR is a partnership between WHOI, six 
academic partners (MIT, John Hopkins, Carnegie Mellon, Georgia Tech 
Research Institute, University of Rhode Island and Draper Laboratory. 
The goal of the Center is to collaborate with industry sponsors, 
academic partners, private philanthropy and key government agencies to 
change the way people and machines work together in the marine 
environment. Recent advances in robotic technology hold vast potential 
to improve or expand exploration, monitoring, and intervention from 
coastal waters to full ocean depth, and from ice-covered open ocean to 
complex underwater infrastructure. This effort has the potential 
revolutionize how humans and machines work in the ocean, providing 
industry and the Federal Government with more efficient and effective 
tools to support U.S. competitiveness and ensure the ecological 
integrity our the ocean and its resources.
    Finally, there is a clear role for Federal incentives to support 
public/private R&D partnerships. James Cameron built the DEEPSEA 
CHALLENER in Australia in large part because of the tax incentive they 
provided--which emphasize support for small and medium sized firms--
allowing him to draw heavily on technology and engineering expertise 
from multiple private companies in Australia. The submersible contains 
over 180 onboard systems, including batteries, thrusters, life support, 
3D cameras, and LED lighting, supported by a specially engineered 
backbone and pilot sphere. Remarkably, this investment has been further 
leveraged by Jim's decision to share this advanced technology with the 
ocean science community by subsidizing its integration on to the 
current fleet of HOVs, ROVs and AUVs, significantly expanding our 
capacity to see and work beneath the surface of the ocean.

    Question 3. In a budget environment where there is little to no new 
money available for science, how would you prioritize the kind of 
science that gets funded? For example, some testimony for this hearing 
discussed the benefits of leveraging Federal assets, but others pointed 
out that highly-leveraged funding can also be problematic when budgets 
decrease. How do we best balance ``basic'' science and applied research 
portfolios in the ocean sciences? In your opinion, are certain kinds of 
research better suited to funding by public institutions or by the 
private sector?
    Answer. Regarding prioritization of ocean science, it's important 
to distinguish between science for which the hypothesis or theme is 
provided by mission-driven agencies or other societal demands, versus 
projects for which practicing scientists pursue discovery-driven 
hypotheses based research pursuing knowledge within their respective 
fields guided by the peer review process. NSF and NASA are the two 
primary Federal agencies that support basic ocean research. The 
priority for these two agencies should thus be the science for which 
the hypotheses or themes are developed by the scientists.
    In acknowledgement of the breadth of scientific disciplines 
supporting ocean science, NSF recently sponsored the National Academies 
to develop ``A Decadal Survey of Ocean Sciences: Guidance for NSF on 
National Ocean Research Priorities'' (http://dels.nas.edu/Study-In-
Progress/Decadal-Survey-Ocean-Sciences/DELS-OSB-12-03). This Ocean 
Decadal Study, which is modeled after NASA's Earth Science and 
Applications from Space decadal study, will develop a list of the top 
ocean science priorities for the next decade in the context of the 
current state of knowledge, ongoing research activities, and resource 
availability. It is scheduled to be released early in 2015 and should 
help ensure a balance in hypotheses driven research within NSF.
    Mission-driven or applied research is guided by societal demands 
for information, with the National Oceanic and Atmospheric 
Administration (NOAA) and DOD's Office of Naval Research (ONR) as the 
primary funders. Whether it is environmental data to support NOAA 
stewardship, climate and weather forecasting responsibilities, or DOD 
and the Navy's national security interests and information requirements 
to ensure battlespace superiority, one of the great concerns within the 
ocean science community is the need for sustained funding to support 
baseline observations and monitoring. Continuous baseline datasets are 
critical to research to understand drivers underlying changes in 
physical, biological, chemical and geological processes. These same 
observations are also essential to building and refining models 
supporting forecast and prediction that guide civilian and defense 
decisionmaking.
    In reality science is a continuum from basic through applied 
research and the integration of this information into modeling and 
decision-making processes as well as technology development. This is 
readily apparent in ongoing efforts to improve the translation of 
research to operations, or ``R20.'' A key element to extracting the 
greatest value from investments in basic and applied research is 
ensuring the continuity of data, implicit in which is funding support 
for the collection, synthesis, analysis and delivery of this data in a 
useable form. The benefits of discovery driven research and databases 
supporting this work often take years, or decades to be fully 
recognized and exploited for the benefit of society. Maintaining the 
infrastructure responsible for the collection of scientific data has 
proven to be a huge challenge, particularly in the ocean sciences where 
infrastructure construction and operation and maintenance costs are 
high due to the harsh working environment and cost of accessing the 
ocean.
    Public funding of basic research is increasingly important given 
industry's focus on investment in applied research and development 
driven activities, a shift in focus that has been well documented by 
NSF. Fortunately we are seeing increased interest from private sources 
who are particularly good at funding ``directed research''. This type 
of research is an example of when the problem, if not the actual 
hypothesis, is provided by the funder, and scientists are asked to find 
the answer. Some foundations and individual donors do solicit input 
from external scientific sources to define the focus of their research 
funding. In addition, private funding in increasingly being used to 
leverage Federal funding, such as that supported by mission driven 
agencies, by providing extramural (non-federal) research entities with 
the resources necessary to increase responsiveness and flexibility to 
address rapidly emerging issues, such as the Deepwater Horizon oilspill 
and the Fukushima Daiichi disaster. Another example is Jim Cameron's 
donation of the DEEP SEA CHALLENGER along with a million dollars, to 
WHOI to assist in the integration of cutting-edge technology from the 
submersible into the U.S. deep submergence fleet of manned and unmanned 
underwater vehicles. This support provide a unique opportunity to 
significantly advance the capacity of U.S. deep sea exploration. By 
subsidizing work being supported with Federal funds, public investment 
in research it allows non-federal science institutions to be much more 
flexible and response than the generally monolithic Federal science 
enterprise, reinforcing the need to strengthen the public/academic/
private partnerships.

    Question 4. A number of you have mentioned the importance of 
educating our next generation of ocean explorers and scientists. How 
can partnerships between government and industry help to inspire and 
encourage future explorers?
    Answer. This was a hot topic at the Ocean Exploration 2020 
workshop, a meeting of both the public and private sector to shape a 
National--not just federal--program. Michael Jones, the Chief 
Technology Advocate for Google, advised the participants that while the 
challenges facing the oceans, and the Earth system as a whole, are 
sobering, it is important that those advocating for engagement with the 
next generation remain encouraging about the wonders that wait to be 
discovered. The power of inspiration is difficult to overstate and the 
opportunity to explore the huge expanse of ``inner space'' is 
compelling when articulated with passion.
    Perhaps one of the greatest opportunities to expand interest in 
oceans are recent advances in telepresence--using video technology on 
remotely operated underwater vehicles with a fiber optic tether that 
allows for real-time streaming of underwater footage. The increased 
capacity for more people to ``see'' underwater with H-D cameras allows 
scientists, students and the public to experience the excitement of see 
new underwater environments, some being seen by humans for the first 
time ever. This approach provides an attractive platform to engage high 
tech industries and other corporate sponsors who have a vested interest 
in generating excitement and enthusiasm among students at all levels of 
the STEM education spectrum.
    During the course of the workshop mentioned above, a fair amount of 
time was dedicated to helping participants conceive of effective forms 
of engagement with the public. The term ``Citizen Explorer'' was 
developed with the concept that using telepresence and access to the 
Ocean along all our coastal U.S. states, we can emulate the levels of 
engagement enjoyed by the Amateur Astronomy and Ornithologist 
communities in their respective fields. Again, this approach provides a 
potential vehicle for industry to provide support for programs that 
engage students and the public, while providing an opportunity to 
showcase their role and contributions to advancing our knowledge of the 
ocean.
    At the workshop it was also recognized that the outreach 
opportunity extended beyond industry to artist. At the workshop, which 
was held in the Aquarium of the Pacific, an a class at Art Center 
College of Design, in conjunction with CalTech, was in the process of 
launching an Ocean Movement, modeled after lessons learned in the Arab 
Spring. While untraditional, this is they type of out-of-the-box 
thinking that can help increase the visibility of ocean issues as well 
as broaden engagement of the public and corporate communities.
    Finally, one should not overlook the attraction associated with the 
human element of exploration. There is no substitute for human eye and 
brain as the best possible ``sensor'' one can use when exploring, or 
generating and communicating the excitement when immersed in this type 
of experience. As Jim has said in of his discussions with audiences, 
``Many kids want to grow up to have adventures themselves--few of them 
want to grow up to be a robot.''
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                   Jan Newton, Ph.D. and Edward Page
 Northwest Association of Networked Ocean Observing Systems
                                                     22 August 2013
Senator John Thune,
U.S. Senate,
Washington, DC.

Re: Questions for the Record (QFRs) from the June 11, 2013
Hearing on Deep Sea Challenge: Innovative Partnerships in Ocean 
            Observation

Dear Senator Thune:

    Thank you for the opportunity to provide additional information 
following my testimony on behalf of the Northwest Association of 
Networked Ocean Observing Systems (NANOOS) at the June 11, 2013 
Commerce Subcommittee on Ocean, Atmosphere, Fisheries and Coast Guard 
hearing on Deep Sea Challenge: Innovative Partnerships in Ocean 
Observation.
    I have coordinated my responses with the U.S. Integrated Ocean 
Observing System (IOOS) Program Office, the IOOS Association, and my 
panel cohort, Ed Page from the Alaska Ocean Observing System (AOOS), 
the Alaskan counterpart to NANOOS. We have attempted to provide you 
with a national perspective as well as regional perspectives.

    Question 1. I am a cosponsor of a bill that would reauthorize the 
National Integrated Drought Information System (NIDIS). NIDIS seeks, in 
part, to integrate multiple sources of data in order to provide useful 
information about drought conditions to end users including those in 
the private sector and at the local level.

    (a) Are there any lessons learned from the Integrated Ocean 
Observing System (IOOS) experience that you think could apply to the 
model used by NIDIS?

    (b) How has data from IOOS assets been applied to our understanding 
of weather patterns, like droughts, and how might these assets be 
better leveraged in the future?
    Answer. (a) I think there are many lessons learned from IOOS that 
could apply to the NIDIS model because these programs share a similar 
approach in terms of working at the interagency level and drawing from 
many and diverse sources of data and providing those data to diverse 
end users including those in the private sector and at the local level. 
We have learned that public/private partnerships and leveraging are 
highly beneficial, but have requirements: building partner 
relationships based on trust; investing time and effort and sustaining 
that to maintain the relationships; giving credit to data providers; 
being policy neutral (e.g., we do not make management decisions; we 
provide managers with data); and including outreach and education to 
build an informed constituency.
    Efficiency in using the type of system model IOOS represents is 
highly dependent upon effective relationship building and to achieve 
that, IOOS has really benefited from having ``Regional Associations'' 
(RAs), non-federal entities that connect at the local level to a wide 
variety of stakeholders, including the private sector as well as 
connecting with our regional Federal agencies, while working together 
as a system to assure national consistency. Speaking from the 
perspective of one of those RAs, NANOOS, we build relationships and 
trust as well as offer new capacities to data providers on a regional 
basis. For example, here is the power of that approach: NANOOS funds 
(partially) 19 in situ data streams, yet we serve 176 data streams to 
our users. We have integrated various Federal data streams and have 
also harnessed data streams from local, tribal, private, state, and 
academic providers. These people want us to serve their data because 
they appreciate the data visualization and services we provide. Data 
and information should be provided in near real time to disparate 
stakeholders--usually via intuitive web portal technology.
    Also, for this model to work, one must ``do it right.'' Public/
private partnerships and leveraging between them are important 
components for success but it must be understood that these usually 
require time and effort to minimize cultural impedance mismatches, that 
is, the tendency that different groups (e.g., public vs. private, or 
academic vs. industry partners) may not work together effectively 
because of different perspectives, ways of doing business, underlying 
assumptions, comfort levels, etc. To achieve regional relevance with 
national consistency, we need to have federal/tribal/state/local 
governments operating with the private sector, other stakeholders, and 
the public at large in a cohesive fashion. Again, the IOOS RAs have 
been very effective at helping to make this happen through establishing 
years of trusted partnering. Since IOOS and the IOOS RAs do not make 
policy or management decisions, we are neutral data providers, which 
can enhance trust to a higher level than that often perceived for 
government or for-profit partners.
    Another tenet of this point is that once relationships are built, 
sustaining them is critical. We lose so much efficiency when variable 
or non-sustained funding causes start/stop/start dynamics. The 
experience of NANOOS and other RAs is that the private sector will 
support development projects but looks to the government for sustained 
funding.
    When NANOOS serves partner data, it is clearly credited. Thus 
partner providers do not loose ownership or credit for their efforts. 
We note, as is in the ICOOS Act, that the IOOS RA providing the data 
from private providers should not be held liable for data they provide 
voluntarily into the system.
    Lastly, and this pertains to your final question, NIDIS should not 
consider only serving hydrological data and products as their complete 
picture. IOOS invests in robust outreach and education components to 
build an informed constituency and entrain students and educators. I 
think this has been an effective approach that NIDIS also would benefit 
from.
    Answer. (b) IOOS is built in a modular way from regional, to 
national to global footprints, all of which contribute. The U.S. IOOS 
is a national system that includes all Federal civil ocean observing 
programs as well as non-federal systems. In addition to serving as the 
lead Federal agency for IOOS, NOAA contributes in situ, remote, open-
ocean and coastal observing systems to IOOS. The global ocean observing 
systems that NOAA supports monitor changes of the global open ocean and 
contribute directly to research and prediction capabilities for 
drought, weather, and climate.
    NOAA's Climate Prediction Center (CPC) relies on a range of ocean 
observing systems including Tropical Atmosphere Ocean Project (TAO), 
Argo floats, and the Global Drifter Program to provide up-to-date ocean 
information for use in their forecast models. These in situ open-ocean 
observing systems are all part of the national, Federal and non-federal 
enterprise of IOOS. The tropical oceans are particularly critical for 
forecasts beyond a few weeks. For example, the NIDIS portal (http://
drought.gov/drought/content/products-forecasting/improved-drought-
prediction) describes the importance of the tropical Pacific region for 
predicting the El Nino-Southern Oscillation (ENSO) phenomena. ENSO is 
the large-scale circulation pattern driven by changes in surface 
atmospheric pressure over the equatorial Pacific. The accompanying 
changes in sea surface temperature (SST) in the Pacific associated with 
ENSO are known to produce changes in wind, temperature and 
precipitation patterns in North America. A network of buoys monitor 
SSTs and deviations from normal are a guide for forecasters producing 
seasonal outlooks. Research has shown certain weather patterns are 
associated with El Nino (SSTs warmer than normal), La Nina (SSTs cooler 
than normal) and ENSO-neutral conditions (SSTs near normal) but there 
is no guarantee these patterns will emerge with each ENSO event.
    Research within NOAA, nationally, and internationally, is actively 
identifying longer-term changes of droughts, and connections of drought 
to the oceans, land, and other parts of the earth system. Research 
tells us that the tropical Pacific and Atlantic, as well as the mid-
latitude open oceans are associated with decadal-long droughts (e.g., 
the Dust Bowl era) in North America. Whether it is possible to predict 
such droughts in advance based on ocean and other information within 
climate models is a very active research area, but it is generally 
accepted such capabilities will likely require ocean observations 
deeper in the ocean. The global oceans are also believed to be 
associated with droughts on other continents, so we have good reason to 
be exploring the ocean's role in droughts.
    While prediction of droughts in advance based on ocean and other 
information within climate models is a very active research area, it is 
generally accepted such capabilities will likely require ocean 
observations deeper in the ocean. The non-federal IOOS partners operate 
most of the coastal ocean observing assets that can make measurements 
below the surface, which is essential for understanding heat budgets 
important for drought prediction.
    Focusing beyond droughts, I would say data from IOOS assets have 
been applied quite successfully to our understanding of weather. All 
throughout IOOS and certainly within NANOOS, our buoy sea surface 
temperature and meteorological data, as well as High Frequency (HF) 
surface radar data are going to the National Weather Service to improve 
weather forecasting. The data are used nationally and by the local 
Weather Forecast Offices. NANOOS supports not only these local offices, 
but also the University of Washington's Climate Impacts Group and the 
Oregon Climate Change Research Institute who focus on longer-term 
climate forecasting.
    There are many examples within IOOS where RA data have made a big 
difference to weather forecasts. A notable one was Superstorm Sandy, 
where offshore water temperature data from real-time IOOS sensors from 
RA MARACOOS greatly aided the prediction of hurricane intensity and 
path. Please see: http://www.ioos
.noaa.gov/communications/superstorm_sandy2013/mts_tech_surge_sandy.pdf. 
The coastal ocean observing systems operated by non-federal components 
of IOOS deliver valuable data and information about water and 
atmospheric conditions on and near the coast. The influence of coastal 
oceans on precipitation tends to be more local and shorter-term than 
the timescale associated with drought.
    How might we better leverage these assets in the future? One 
concrete and relatively low cost way is to get more NDBC verified 
meteorological stations on existing IOOS buoys or other measurement 
platforms, especially those operated by non-federal IOOS partners which 
are located throughout local coastal waters. This is important, since 
weather over the water can be quite different than that over land, 
e.g., at airports or other more standard weather station locations. 
These differences can affect the accuracy of weather forecasting.

    Question 2. Adequate funding to support research is one factor in 
maintaining our Nation's competitiveness in science. (a) What other 
factors have contributed to your success in facilitating partnerships 
with the private sector? (b) What barriers have you encountered?
    Answer. (a) As stated in my response to question 1, what has really 
contributed to our success in facilitating partnerships with the 
private sector is building trust and respect. We listened to our 
partners and stakeholders in regard to what data and information they 
wanted, what skills they could contribute, and then we looked at how we 
could best leverage this all.
    Our partnerships with private industry have two flavors: ones that 
need data to do their business (e.g., shellfish growers) and ones that 
have skills or products that could be used as part of the 
infrastructure of IOOS (e.g., The Boeing Company). In the first type, 
we have the data they want. What was essential to a successful 
partnership was for us to understand specifically not only the data 
they want but also, in order to be effective, on what timescales, 
presented in what units, with what level of manipulation (e.g., graphic 
or digital data)? Working with smaller user groups informed our design 
and we present the data to them as a subset of all of our data holdings 
and in a way that this specialized, versus through our general data 
explorer. While in this case, they did not pay for the data, their 
voice in alerting Congress and the public on the value of these data to 
their industry was enormous (Please see ``Like putting headlights on a 
car'' quote in my testimony).
    In the second type, we have partners who want to execute with us 
part of the IOOS or NANOOS enterprise. The Boeing Company has been one 
of our regional partners in developing NANOOS's data systems since our 
inception. Along with three universities and two state agencies, they 
are a partner we fund and whose expertise we gain. Another example of 
this type would be Microsoft Research, who hosted and funded our 
successful workshop purely from their interest in our operations. This 
workshop was part of a national series conducted regionally through 
assistance of the IOOC (Interagency Ocean Observation Committee). The 
``Pacific NW Waters-Gateway to our Future'' workshop in February 2012 
was hosted by Microsoft Research in Redmond, WA, and was attended by 
more than 150 people included a keynote address by Laura Furgione, NOAA 
National Weather Services, and panels from five diverse user groups: 
Fisheries; Alternative Energy; Aquaculture; Coastal Engineering; Hazard 
Response and Marine Operations filled by federal, tribal, state, 
academic, industry, and public speakers (http://www.ioos.noaa.gov/
ioos_in_action/stories/industry_workshop_feb2012.html). An outgrowth of 
our partnering with Microsoft Research is that one of our NANOOS 
coastal ocean modelers is taking his sabbatical there, to work on tool 
visualization that NANOOS will ultimately benefit from and provide to 
our users.
    Answer. (b) If one takes the approach outlined above where 
relationships are built on a local level, with trust and respect, over 
time, and by sustaining that, then the barriers are chiefly funding or 
related to funding. For instance, will we (NANOOS) be around to partner 
with them into the future or will this government-supported program 
fold? Private industry needs to understand risk levels to make informed 
corporate/financial decisions. Uncertainties in the level of Federal 
funding and commitment to IOOS have hindered industry's willingness to 
fully engage.

    Question 3. In a budget environment where there is little to no new 
money available for science, how would you prioritize the kind of 
science that gets funded? For example, some testimony for this hearing 
discussed the benefits of leveraging Federal assets, but others pointed 
out that highly-leveraged funding can also be problematic when budgets 
decrease. How do we best balance ``basic'' science and applied research 
portfolios in the ocean sciences? In your opinion, are certain kinds of 
research better suited to funding by public institutions or by the 
private sector?
    Answer. In my opinion, prioritization for science can be achieved 
best when it is based on societal needs. However, balanced funding for 
both basic science and applied research must be maintained because 
these two support each other. I see that today's basic science provides 
the foundation for tomorrow's applied science. I think of these two as 
more of a continuum, wherein the fundamental information revealed by 
basic science is put to use in applied science. We need active funding 
programs for both and to ignore ocean science is at our peril. I 
actually cannot think of any ocean science research that is not 
applied.
    Private foundations are well suited to funding large equipment 
(e.g., buoys, radars), new technologies (e.g., sensors), or 
infrastructure (e.g., building, ship, computer). NANOOS has benefited 
from two different $500K awards from the Murdock Charitable Trust for 
observing equipment (buoys, gliders, sensors). These groups like to 
offer large sums for discrete items from time to time. Another example 
would be in funding grand challenges like the X-prize being offered by 
private industry for a low cost, accurate pH sensor. However, funding 
for the sustained operations and maintenance (O&M) is critical for 
ocean observing systems and is best suited to the Federal Government, 
because of the stability needed for assurance of the data and 
information. Foundations and private industry do not offer 
opportunities for O&M grants, to my knowledge.
    Leveraging is quite effective for infrastructure, platforms, data 
systems, and other ``items.'' In NANOOS, we use a single buoy for many 
diverse sensors and applications. We leverage the NANOOS data 
visualization system to serve many diverse data streams. But we have no 
way to support the people's jobs to maintain the buoy or run the data 
system on a continuous basis except for through Federal or other 
governmental funding.
    The nation has a National Science Foundation that serves well our 
ocean science research. IOOS leverages those results every day, since 
the observing technologies, modeling capabilities and analytical 
capabilities stem from these investments. We must balance national 
funding for sustained ocean observations, such as IOOS, in order to 
maintain the jobs required to keep the observations coming, the models 
running, and the information products and data flowing to the public.

    Question 4. A number of you have mentioned the importance of 
educating our next generation of ocean explorers and scientists. How 
can partnerships between government and industry help to inspire and 
encourage future explorers?
    Answer. Partnerships between government and industry can help to 
inspire and encourage future explorers by providing them access to 
data, information, and technology on ocean environments. The key, 
however, is to not try to prescribe this. What is essential is to have 
the partnership between government and industry be the type of healthy 
relationships described here. From these partnerships there will be 
myriad and excitingly unpredictable pathways to inspire and encourage 
future explorers. Creative minds love to educate the others through 
providing ways to enhance exploration.
    Examples from NANOOS region: A marine sensor company, Nortek USA, 
is a NANOOS member. They serve on our Governing Council and some of our 
PIs utilize their sensors on the observing assets, though this is not 
mandated. However, Nortek benefits from connecting with our PIs. While 
ocean sensor providers are in a for profit industry, most of them found 
that field because of their excitement to study the ocean and their 
passion to figure out how to do it better. So, it was quite befitting 
that as their industry has survived, in part because of ocean observing 
programs like IOOS, they have figured out how to give back and entrain 
others. Nortek created a scholarship program for students to use their 
equipment on research projects and an annual science meeting where 
students come to present their results. As NANOOS Executive Director, I 
have been asked to be their keynote speaker in the past; they continue 
to pull in passionate scientists to this role each year to inspire the 
next generation of ocean observers.
    Another example is the Microsoft Research, a NANOOS partner 
mentioned in my response to question 2, showcased our observational 
data and ocean model results in a 3-D presentation at the local Pacific 
Science Center's first ever Seattle Science Festival . . . a wildly 
successful event with over 20,000 attendees that is now an annual 
affair. A quote from one of their leads ``Going forward: I'd love to do 
more with NANOOS, I don't need funds as such but I am always time-
limited . . .'' implies that creativity, desire, and, in this case, 
even funds are not the limitation. A successful outgrowth of this 
partnering has been engagement of both parties in the desire to display 
ocean data in more immersive ways . . . the partnership still in its 
formative stage, shows a good match and how the public, via the Pacific 
Science Center in Seattle, but also via the web worldwide, will 
benefit.
    I think these two examples show that private industry has a wide 
diversity of ways to inspire and encourage future explorers. The key is 
to have the partnering infrastructure of humans that can connect 
locally in a meaningful context.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
